<html>
<title> - THE NATIONAL NANOTECHNOLOGY INVESTMENT: MANUFACTURING, COMMERCIALIZATION, AND JOB CREATION</title>
<body><pre>[Senate Hearing 112-688]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-688

 
                THE NATIONAL NANOTECHNOLOGY INVESTMENT:
                   MANUFACTURING, COMMERCIALIZATION,
                            AND JOB CREATION

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
78-182                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6c1d6c9e6c5d3d5d2cec3cad688c5c9cb88">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                Todd Bertoson, Republican Staff Director
            Jarrod Thompson, epublican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

BILL NELSON, Florida, Chairman       JOHN BOOZMAN, Arkansas, Ranking
DANIEL K. INOUYE, Hawaii             JOHN ENSIGN, Nevada
JOHN F. KERRY, Massachusetts         ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           MARCO RUBIO, Florida
MARK PRYOR, Arkansas                 KELLY AYOTTE, New Hampshire
MARK WARNER, Virginia


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 14, 2011....................................     1
Statement of Senator Nelson......................................     1
Statement of Senator Rockefeller.................................     1
    Prepared statement...........................................     2
Statement of Senator Hutchison...................................     3
Statement of Senator Boozman.....................................     4
Statement of Senator Ayotte......................................     6
Statement of Senator Blunt.......................................     6
Statement of Senator Pryor.......................................    60

                               Witnesses

Chad A. Mirkin, Director, Northwestern University International 
  Institute for Nanotechnology, Rathmann Professor of Chemistry, 
  Professor of Medicine, Professor of Materials Science and 
  Engineering, Professor of Biomedical Engineering, Professor of 
  Chemical and Biological Engineering............................     8
    Prepared statement...........................................    10
Dr. Charles H. Romine, Acting Associate Director, Laboratory 
  Programs, National Institute of Standards and Technology, U.S. 
  Department of Commerce.........................................    13
    Prepared statement...........................................    15
Diandra L. Leslie-Pelecky, Ph.D., Director, West Virginia Nano 
  Initiative; Professor of Physics, West Virginia University.....    19
    Prepared statement...........................................    21
Dr. Thomas O'Neal, Associate Vice President of Research, Office 
  of Research and Commercialization, University of Central 
  Florida........................................................    24
    Prepared statement...........................................    26
Dr. George McLendon, Howard H. Hughes Provost and Professor of 
  Chemistry, Rice University.....................................    44
    Prepared statement...........................................    46

                                Appendix

Hon. Mark Pryor, U.S. Senator from Arkansas, prepared statement..    69
Response to written questions submitted to Dr. Chad A. Mirkin by:
    Hon. John D. Rockefeller IV..................................    69
    Hon. Bill Nelson.............................................    71
    Hon. Mark Pryor..............................................    72
    Hon. Mark Warner.............................................    72
Response to written questions submitted to Dr. Charles H. Romine 
  by:
    Hon. John D. Rockefeller IV..................................    73
    Hon. Bill Nelson.............................................    76
    Hon. Mark Pryor..............................................    77
    Hon. Mark Warner.............................................    80
    Hon. Roger F. Wicker.........................................    82
Response to written questions submitted to Diandra L. Leslie-
  Pelecky, Ph.D. by:
    Hon. John D. Rockefeller IV..................................    83
    Hon. Bill Nelson.............................................    85
    Hon. Mark Pryor..............................................    88
Response to written questions submitted to Dr. Thomas O'Neal by:
    Hon. John D. Rockefeller IV..................................    88
    Hon. Bill Nelson.............................................    89
    Hon. Mark Pryor..............................................    90
    Hon. Mark Warner.............................................    90
Response to written questions submitted to Dr. George McLendon 
  by:
    Hon. John D. Rockefeller IV..................................    91
    Hon. Bill Nelson.............................................    91
    Hon. Mark Pryor..............................................    92


                      THE NATIONAL NANOTECHNOLOGY
                       INVESTMENT: MANUFACTURING,
                  COMMERCIALIZATION, AND JOB CREATION

                              ----------                              


                        THURSDAY, JULY 14, 2011

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good morning. We are really looking forward 
to this hearing. Senator Boozman and I are quite honored to 
have the senior leadership of the full Commerce Committee here 
with us. And so I want to turn it over first to the Chairman of 
the Committee, Chairman Rockefeller, and then recognize the 
Ranking Member, Senator Hutchison.
    Mr. Chairman?

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. A most courteous gesture. I want to repeat 
what Senator Nelson said. I think the depth of knowledge that 
you have--I prepared for this hearing, and it was brilliantly 
prepared for me by a woman sitting behind me, and it was one of 
the best briefings I've ever gotten. And what it basically does 
is--because we were doing this 12 years ago, if you can 
remember. We had little demonstrations out here on the floor, 
and we didn't know what we were looking at. And the people who 
were explaining it didn't know how to explain it. And then here 
you come absolutely brilliant, top people in the country.
    So we're at a place today where big advances in technology 
are happening at a very small level, stunningly small. 
Everything from biotechnology tools to detect early stage 
Alzheimer's disease, which is extraordinarily interesting, to 
soon reducing your computer's entire memory to the size of a 
single tiny chip. I can't believe that.
    And, Dr. Mirkin, you're going to tell me why it's true.
    Just over ten years ago, the government created the 
National Nanotechnology Initiative to focus on this issue, and 
that was a very wise move. That early and sustained commitment 
has translated into U.S. global leadership in nanotechnology 
research, for the moment, and development and 
commercialization. So there are very significant economic 
incentives to maintain our lead in this field. We have had lots 
of leads in lots of areas, math and science and all kinds of 
things. But we don't have it any longer, and we don't want this 
to follow that path.
    Others are very aggressive on their own projections for 
commercialization of this technology. It was about $200 billion 
in 2009. You're projecting a trillion dollars by 2015. That's 
actually just two and a half years from now, maybe a little bit 
more than that.
    Nanotechnology has the potential to revolutionize such 
areas as health care, which is incredibly important to me, 
information technology; energy, also important; homeland 
security; food safety; and transportation.
    At a time when Americans and American businesses are 
struggling financially, we've got to do whatever we can. And 
all of a sudden, we're presented with this enormous gift which 
could employ millions of people, if they were trained to so do.
    Now, if Dow Chemical is telling me that they can't--because 
their engineers are retiring and that they can't replace them, 
in a chemical company, then that makes me really worry about 
nanotechnology and what we're actually doing about that in this 
era of budget cuts. And I want us to talk about that.
    Germany and Japan are hot after all of this. So are China 
and South Korea. They're commercializing investments to take 
advantage of this growing nanotechnology product market.
    I really look forward to hearing from you. I always say 
that every time I chair a hearing. But I really mean it. You're 
extraordinary people in your backgrounds and in the knowledge 
that you have.
    I have to put a plug, obviously, in for West Virginia, and 
I can do that very easily through Dr. Diandra Leslie-Pelecky, 
who is here, and has a whole group of researchers all over the 
state of West Virginia helping her on this subject. And she 
leads something called the West Virginia Nanotechnology 
Initiative, WVNano, which started back in 2004. It was started 
back in 2004, and the program focus is on stimulating research 
in nanoscience. I couldn't be more pleased to welcome the new 
director with us here today.
    She's an expert in the use of magnetic nanoparticles for 
medical diagnosis, treatment, and drug delivery. And one of the 
things which perks my imagination-- she's also known for making 
science accessible to everybody and, therefore, has even 
written a book called ``The Physics of NASCAR,'' which has to 
do with nanotechnology, I assume.
    In any event, I'm really proud that you're here 
representing our state.
    Mr. Chairman, I thank you for your more than good courtesy.
    [The prepared statement of Senator Rockefeller follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia

    I want to thank you all for being here today to discuss what some 
have referred to as ``the next industrial revolution.'' We are at a 
place today where big advances on technology are happening at a very 
small level--everything from bio-technology tools to detect early stage 
Alzheimer's disease, to soon reducing your computer's entire memory to 
the size of a single tiny chip.
    Just over 10 years ago, the government created a National 
Nanotechnology Initiative to focus on this issue. That early and 
sustained commitment has translated into U.S. global leadership in 
nanotechnology research and development and commercialization.
    There are significant economic and societal incentives to maintain 
our lead in this field. The global market for nanotechnology-related 
products was more than $200 billion in 2009, and projections suggesting 
that it will reach $1 trillion by 2015. With this growth, comes demand 
for workers with nanotechnology-related skills.
    Nanotechnology has the potential to revolutionize such areas as 
health care, information technology, energy, homeland security, food 
safety, and transportation.
    At a time when Americans and American businesses are struggling 
financially, we must do whatever we can to stimulate the economy. This 
Committee has spent a lot of time this Congress focusing on job 
creation and manufacturing. I believe nanotechnology plays a key role 
in boosting the economy and creating jobs.
    Like all science and technology efforts, however, our international 
competitors are catching up and increasing their investments in this 
area. China, South Korea, Germany, Japan and others are commercializing 
their investments to take advantage of the growing nanotechnology 
product market. If we wait too long, these countries will surpass us.
    I look forward to hearing from our witnesses on the best ways to 
turn our nation's early research lead into successful commercialization 
to create businesses and jobs here in the United States.
    Realizing the potential of nanotechnology, my own state of West 
Virginia established the West Virginia Nanotechnology Initiative--or 
WVNano--back in 2004. The program focuses on stimulating research in 
nanoscience, and I couldn't be more pleased to welcome the new director 
here with us today.
    Dr. Diandra Leslie-Pelecky is an expert in the use of magnetic 
nanoparticles for medical diagnosis, treatment, and drug delivery. In 
her role as director of WVNano, she works with about 40 researchers 
throughout the state at West Virginia University, Marshall University, 
and West Virginia State University to advance nanoscale science, 
engineering, and education.
    Dr. Leslie-Pelecky is also known for making science accessible 
everyone--including explaining physics through a book she authored 
titled, The Physics of NASCAR. As I'm sure you know, not every student 
is found in a classroom, and I think you will find my colleagues and I 
ready to learn from you today.
    I'd like to thank you all again for being here today and look 
forward to your testimony.

    Senator Nelson. My pleasure.
    Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you very much, Mr. Chairman, 
for recognizing Chairman Rockefeller and me. And I hope you 
realize that holding this hearing means we think it is a real 
priority for this Committee to reauthorize the National 
Nanotechnology Initiative.
    Nanotechnology is one of the few growing sectors of the 
economy. And the United States must do more to take advantage 
of this great growth and our own leadership in this field. For 
example, the Nobel Laureates who discovered the buckyball 
molecule, which is a building block of nanotechnology, were 
Rice University professors Dr. Richard Smalley and Dr. Bob 
Curl.
    And so I am very pleased that we have with us today the 
Provost of Rice University, Dr. George McLendon. And thank you, 
Mr. Chairman, for granting my request to have him come and 
testify, because I do feel like Texas has taken a leadership 
role in this field.
    I hope that we can go forward and reauthorize the National 
Nanotechnology Initiative with the same spirit that we have had 
in Texas. We must share information and collaborate with the 
different centers of excellence to go into the many different 
fields of nanotechnology. And if we prioritize the consortia 
and the collaboration, that's how we will really keep our 
preeminence in this vital field.
    Just as an example, Rice University houses the Consortium 
for Nanomaterials for Aerospace Commerce Technology which 
includes other universities such as the University of Texas. 
And it is developing nanotechnology applications to recharge 
personal digital assistants and to power unmanned aerial 
vehicles, which are increasingly used by our military. And so 
these are some of the outgrowths of this nanotechnology 
research that have come about through a consortium of engineers 
as well as scientists coming together to make the products with 
the research.
    But as we are going forward on the National Nanotechnology 
Initiative, we've got to realize that America led because of 
our pro-innovation incentives. We started the R&D tax credit 
that has really put America in the forefront. But other 
countries have now adopted our successful formula, and the R&D 
tax credits in other countries are now stronger and better than 
America's. Ours is more incremental and is not permanent. So 
every couple of years, we have to come back and reauthorize the 
R&D tax credit. One of the things that we should recommend out 
of this committee is that we make the R&D tax credit permanent, 
because it has been a foundation of our innovation and has 
helped us so much. So I look forward to working with all of you 
on this.
    I thank you, Senator Nelson, for making it a priority for 
your Subcommittee to hold this hearing so we can gain the 
knowledge from the researchers on the ground to know how better 
to utilize our resources and what the future promises.
    Thank you.
    Senator Nelson. Senator Boozman?

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman, and I am very 
much looking forward to hearing from these witnesses and 
working with you on this important issue of nanotechnology 
research and development.
    There's no doubt that advances in science and engineering 
are essential for ensuring America's economic growth and global 
competitiveness. Amongst these advances, the Federal investment 
in basic research in nanotechnology has been a striking success 
story. From its original beginnings as a niche science, 
nanotechnology R&D now spans across disciplines and has a 
burgeoning global market.
    The field continues to have great potential in addressing 
some of the grand challenges facing our Nation in energy, 
defense, healthcare, water, and agriculture. Both industry and 
academia have acknowledged the effectiveness of the National 
Nanotechnology Initiative. And over time, the NNI has 
established a track record and reputation as a successful and 
cooperative organization. A great part of that success is that 
the NNI has leveraged the strengths of our scientific agencies, 
focusing primarily on the development of fundamental scientific 
knowledge through basic research while at the same time 
interfacing with industry and universities.
    The NNI's effectiveness is increasingly necessary. Analysts 
have forecast that by 2014, products incorporating 
nanotechnology will rise to 15 percent of all global 
manufacturing, worth $2.6 trillion. All states, big and small, 
should be able to supply the growing market for nano-enabled 
products. And while nanotechnology R&D is more broadly 
distributed geographically than other scientific disciplines, 
the growth in nanotechnology R&D in EPSCoR states should be, 
and could be, greater.
    Fortunately, my home state of Arkansas has laid the 
groundwork of research infrastructure to take advantage of 
market growth. The University of Arkansas system now has a 
nationally recognized Nanotechnology Center and Institute for 
Nanoscience and Engineering. And the university system has 
committed to build a regional institute for nanoscale material 
science and engineering in the near future.
    The university system helped to develop NanoMech, whose 
primary products, TuffTek, which allows tools to last three 
times longer, and NanoGlide, which makes oil 30 to 50 times 
more efficient, are part of the $20 billion market Arkansas 
will now have access to. Furthermore, considering that Arkansas 
is home to major business entities, corporate, agriculture, and 
retail that would be excellent customers for nanotechnology 
businesses, it becomes clear that any state, regardless of 
their size, should be capable of building their innovation 
infrastructure to be able to conduct cutting edge 
nanotechnology R&D.
    The President's proposed signature initiatives in solar 
energy, nanomanufacturing and nanoelectronics should not become 
bi-coastal research and commercialization consortia. The very 
interdisciplinary nature of the nanotechnology research 
suggests that signature initiatives should be national 
collaborations involving a wide variety of research 
institutions. In fact, in the report on the NNI, the 
President's Council of Advisors on Science and Technology 
acknowledged the need for the NNI to improve its outreach to 
states, stating the need for engaging in closer and more 
frequent interactions with states which could provide important 
leverage of resources for the NNI.
    As competition for leadership in nanotechnology has 
intensified with Brazil, Russia, India, China, and the EU all 
matching U.S. investments in nanotechnology research, we must 
align nanotechnology R&D stakeholders and use our Federal 
dollars efficiently and effectively. Ultimately, we all want 
the U.S. to continue to be a nanotechnology leader and a place 
where talented people engage in cutting edge research, where 
companies can develop products, and where graduate students can 
learn.
    I very much look forward to hearing from the witnesses. We 
appreciate you being here. We appreciate the hard work and the 
fact that today we truly are going to hear about a success 
story.
    Thank you. And with that, I yield back, Mr. Chairman.
    Senator Nelson. It's my understanding that Senator Ayotte 
wants to make a comment.
    Please.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you Mr. Chairman for calling this 
hearing. In my state of New Hampshire, we are fortunate to have 
two companies doing innovative work in the nanotechnology 
field. Nanocomp Technologies in Concord is the nation's leading 
manufacturers of advanced carbon nanotube materials. They are 
leveraging Federal and private dollars to build the Nation's 
leading center for the manufacturing of 21st century products.
    In the next 2 years, the company expects its workforce to 
increase by a factor of seven. For the past 14 years, Swanzey, 
New Hampshire has been the home of Moore Nanotech, which has 
quickly become a leader in state-of-the-art, ultra-precision 
manufacturing systems and advanced optics.
    With so much innovation in my state and across the country, 
I'm excited about this hearing today. I want to drill down on 
this rapidly growing field and have a discussion about how our 
Federal research dollars are being invested, so that we can 
help continue to foster a positive climate to create jobs in 
this exciting field. I also want to align myself with the 
comments of Ranking Member Hutchison regarding the R&D tax 
credit. I firmly believe we should make them permanent and 
would further encourage investment not only in this field but 
in other fields of manufacturing across this country.
    So thank you for being here today. I look forward to 
hearing the witnesses.
    Senator Nelson. Senator Blunt?

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Chairman. I'm glad to be here. 
I'm looking forward to the witnesses.
    We do have a significant nanotech effort in Missouri at 
Missouri State University in Springfield, where I live, and, in 
fact, at the Jordan Valley Innovation Center, lots of nanotech 
work focused on seeing what we can do to harden our satellites 
and other things that may be able to replace big equipment that 
would be really hard to replace, square inch for square inch, 
with equipment that does the same job that's much more 
resistant to electro pulse, magnetic pulse attacks and things 
like that.
    This is an important hearing, and I'm glad to be here to 
listen and learn. And thanks for holding it.
    Senator Nelson. Thank you, Senators. And I've reserved my 
comments, mainly to introduce our very distinguished panel.
    But this is quite extraordinary. We're talking about gold 
nanoparticles that can detect prostate cancer. We're talking 
about ``buckypaper'' that can end up being 250 times the 
strength of steel and 10 times lighter. We're talking about 
carbon nanotubes put directly on a metal surface that results 
in much longer life batteries and powerful energy storage 
devices.
    And so what we want to do is examine--now that we have this 
interagency initiative called the National Nanotechnology 
Initiative--what we need to do to keep this going so that the 
genius of America can blossom to continue this research, and 
then so the genius of America can be encouraged to take that 
research and development and get it out into the commercial 
sector. And we want to look at things like international 
standards, understanding that the absence of standards could 
also be a hindrance to commercialization, because if venture 
capitalists don't have something that they consider to be 
certain, then that could delay the commercialization of these 
products.
    This is a distinguished panel. I'll take the parochial 
privilege of pointing out Dr. Tom O'Neal from my home area of 
central Florida, from our university there, that heads up the 
business incubation program, and they're just doing great 
things there.
    We also have the jurisdiction under this subcommittee of 
America's space program. We know that the space program is 
transitioning, and we're going from one set of rockets that 
have been so reliable for us called the Space Shuttle for 30 
years, not without tragedy. Now we're going to two new 
different lines of rockets, one to and from the Space Station, 
and another, the big rocket. But in the process, we're going to 
be more efficient, and what we need to do is diversify.
    This subject area of nanotechnology is another opportunity, 
Dr. O'Neal, of taking your expertise in your incubator and 
expanding a lot of the role in and around the Kennedy Space 
Center with the extraordinary talent that is available to put 
them to use on this.
    Dr. Chad Mirkin is the Director of the International 
Institute for Nanotechnology at Northwestern and a member of 
the President's Council of Advisors on Science and Technology. 
He's the founder of three nanotechnology companies that are 
commercializing the fruits of his research.
    Dr. Charles Romine is the Acting Associate Director for 
Laboratory Programs and the Principal Deputy in the Office of 
the Director of the National Institute of Standards and 
Technology.
    And we want you to talk about those standards, Dr. Romine.
    And he's going to discuss the work of the NIST Center for 
Nanoscale Science and Technology and NIST's broader role. And 
then Dr. Diandra Leslie-Pelecky who Senator Rockefeller has 
already introduced--she is the Director of the West Virginia 
Nanotechnology Initiative and a professor of physics.
    We're looking forward to your testimony.
    Dr. George McLendon is the Hughes Provost and Professor of 
Chemistry at Rice. His testimony will discuss how 
nanotechnology can help address our nation's challenges in 
energy independence--does that sound familiar?--healthcare--
does that sound familiar?--economic growth--does that sound 
especially sound familiar?--and, of course, keeping America 
competitive in a changing global marketplace.
    So we welcome all of you here. I thank the chairman and the 
ranking member for their presence. And shall we just start from 
that side of the table and just go right on down?
    Instead of just sitting there and reading a speech, as much 
as you can, talk it. And then keep it about 5 minutes so that 
we can really get into some good give-and-take.
    Dr. Mirkin?

      STATEMENT OF CHAD A. MIRKIN, DIRECTOR, NORTHWESTERN

             UNIVERSITY INTERNATIONAL INSTITUTE FOR

        NANOTECHNOLOGY, RATHMANN PROFESSOR OF CHEMISTRY,

         PROFESSOR OF MEDICINE, PROFESSOR OF MATERIALS

        SCIENCE AND ENGINEERING, PROFESSOR OF BIOMEDICAL

 ENGINEERING, PROFESSOR OF CHEMICAL AND BIOLOGICAL ENGINEERING

    Dr. Mirkin. Thank you. Chairman Nelson, Ranking Member 
Boozman, and members of the Committee, thanks for the privilege 
and honor to provide testimony today regarding the NNI.
    As Chairman Nelson said, I come from Northwestern 
University, where I run one of the largest institutes for 
nanotechnology in the country. We have hundreds of students and 
post-docs working in this area and contributing to the 
development of the field.
    In addition, I have been involved in two of the largest 
policy reports that evaluated the NNI and also the U.S.'s 
position in the world in nanotechnology. We just finished a 
very large study where we traveled all over the world--to four 
different countries, where we brought together 35 different 
countries, or representatives from 35 different countries, to 
tell us about what they've been doing, some of the strategies 
they've been taking, and we learned a lot from that. And we 
learned a lot about where we stand compared to them and how far 
we have to go and some of the great things that are happening 
not only in the U.S. but also in the rest of the world.
    I've also been involved in starting three companies, one of 
which has gone public--it's traded on the NASDAQ--called 
NanoSphere. The other two are private companies, AuraSense and 
NanoInk. They employ hundreds of people and, hopefully, 1 day 
soon, thousands of people. And they represent, I think, some of 
the first real dividends from the early investments in the NNI, 
and I'm very proud to be a part of them.
    Consequently, I have a pretty broad view of the field and 
an understanding of some of the issues facing it. If we step 
back and look at what's happened over the last decade, I don't 
think anybody would argue that the first 10 years of the NNI 
has been an overwhelming success. The visibility and societal 
importance of nanoscale science and engineering and technology 
have been confirmed, while extreme predictions--and I'm sure 
you remember in the early days, they were extreme, both pro and 
con--they've receded. And so we've gotten down to the serious 
business of real science, finding out what we can really do 
with this field and making real advances in the development of 
important technologies.
    The field has been recognized as revolutionary and 
comparable with the introduction of the biotechnology and 
digital information revolutions. And the U.S. is positioned to 
make extraordinary strides over the next 10 years. But, as I 
said, it's clear the rest of the world now understands the 
importance of the field, and many countries are building 
efforts that rival what has been established by the NNI. This 
includes dozens of institutes throughout Asia, the Mideast, and 
Europe.
    If the United States does not act now and aggressively 
pursue development of nanoscience and nanotechnology, we will 
lose our position as a global leader in this transformative 
field. Moreover, and maybe more importantly, we will lose the 
opportunities it can afford us to build our economy and new 
manufacturing base.
    So why is there so much interest in nanotechnology? The 
reason is simple and we've heard allusions to it: it really has 
the potential to transform almost every aspect of our lives by 
providing rapid routes to addressing some of the most pressing 
problems in healthcare, electronics, energy, and the 
environment, just to name a few. Anywhere where materials are 
important, nanotechnology is going to play a big role.
    Take, for example, a technology like gene regulation. A few 
decades ago, this technology held the promise of treating and 
potentially curing some of the most debilitating diseases, 
including cardiovascular disease, neurological disorders like 
Alzheimer's disease, and many forms of cancer. As scientists 
and doctors, we have learned that it is not an easy technology 
to implement and requires materials that can deliver the 
genetic drugs effectively and without toxicity.
    The good news is that researchers are now discovering all 
sorts of nanomaterials through NNI funded efforts, like the 
National Cancer Institute's Centers of Cancer Nanotechnology 
Excellence, that show extraordinary promise for the effective 
use of such therapies in humans. I'm convinced that 
nanotechnology will play a lead role in finding the cures to 
many of these diseases and not just in the long term--but in 
the short term. I think there are real major inroads that have 
been made in the last decade that will contribute to that goal.
    On the diagnostic side, meaning medical diagnostics, the 
NNI funded efforts like the NSF's Science and Engineering 
Centers have discovered powerful new ways of detecting and 
tracking disease markers at very early stages, stages that 
cannot be detected with conventional tools and when 
therapeutics can be more effective. Several of these 
technologies are FDA cleared and commercialized. And after only 
a decade, it is just simply remarkable to see what scientists 
would call basic science, the early stages of science, already 
transitioned into meaningful commercial successes.
    That is an incredible feat, to do that in only 10 years. If 
you follow technological development and commercialization, it 
usually takes much longer. Innovation and the related job 
creation will likely continue at an accelerated rate if we 
maintain a well coordinated and implemented NNI.
    What are the challenges going forward? In my opinion, we 
should not be discussing the renewal of the NNI but rather its 
expansion. That's a tough but critical decision in troubled 
economic times. The United States simply cannot afford to lose 
its competitive edge in nanotechnology over the next decade.
    There are three primary areas which need to be addressed 
over the next decade, and they pertain to management of the 
NNI, which is a big beast to navigate and steer, and to do it 
effectively; developing strategies for future investment in 
both research and education and training--that's really the 
core; and then dealing with environment, health, and safety 
(EHS) issues potentially posed by nanotechnology. I'm going to 
only share my recommendations with respect to one of these. We 
have other experts that are going to talk about the EHS issues, 
and I've testified in my written testimony on some of the 
management issues.
    With regard to strategies for future investments, the NNI 
should maintain a parallel focus on basic research, the 
discovery part of research, and its translation into 
commercializable products and processes. You can't have the 
latter without the former. So it would be crazy to not invest 
heavily in basic research while we begin to translate the early 
fruits of that basic research into commercializable 
technologies that can lead to companies that will create jobs 
and build our economy.
    With a budget planning process coordinated by OSTP, each 
agency should continuously reevaluate its NNI balance of 
investments among the program component areas. There are 
several program component areas if you look at the reports. 
Each area should enhance its focus on commercialization and--
this is key--double its investment in nanomanufacturing over 
the next 5 years, while maintaining the current level of 
investment in basic research. So, again, we harvest what we 
initially planted a decade ago.
    The NNI should have a focus on signature initiatives in 
areas such as nanomedicine, advanced nanomanufacturing, 
nanoelectronics and photonics, nanomaterials for energy 
applications, and environmental monitoring and remediation. 
Each signature initiative's lead agency should develop 
coordinated milestones, promote strong educational components, 
and create public-private partnerships to leverage the outcomes 
of the initiatives.
    The opportunities in this field are immense, but we need a 
way to identify and coordinate national centers of excellence 
to act as international hubs to attract and keep the best and 
the brightest in the field and train the next generation of 
workers and leaders in nanomanufacturing in the U.S. That's 
central here, taking advantage of the whole pool, in this case.
    In conclusion, advances in nanotechnology will continue to 
play a critical part on the world economic stage. And it is 
imperative that the U.S. continue to support, strengthen, and 
expand the NNI in order to maintain its competitive edge.
    I thank you for your time, attention, and service to the 
country, and I'm happy to answer any questions that you may 
have.
    The prepared statement of Dr. Mirkin follows:]

Prepared Statement of Chad A. Mirkin, Director, Northwestern University 
   International Institute for Nanotechnology, Rathmann Professor of 
 Chemistry, Professor of Medicine, Professor of Materials Science and 
Engineering, Professor of Biomedical Engineering, Professor of Chemical 
                       and Biological Engineering

    Chairman Nelson, Ranking Member Boozman, and Members of the 
Committee, Thank you for the privilege and honor to provide testimony 
today regarding the National Nanotechnology Initiative (NNI). This 
testimony provides my personal perspective on the issue that is the 
subject of this hearing, and does not necessarily reflect that of any 
organizations with which I affiliated.
    I am Chad Mirkin, a Professor at Northwestern University and 
Director of the Northwestern University International Institute for 
Nanotechnology, one of the largest university nanotechnology centers in 
the world. I also am a member of the President's Council of Advisors on 
Science and Technology (PCAST) and contributed to their report titled, 
``Report to the President and Congress on the Third Assessment of the 
National Nanotechnology Initiative.'' In addition, I served as a co-
chair on the science policy report committee, coordinated by the World 
Technology Evaluation Center, which produced ``Nanotechnology Research 
Directions for Societal Needs in 2020,'' an analysis of world 
accomplishments in nanotechnology during the first ten years of the NNI 
and an assessment of the prospects for the next ten years. This report 
had input from leading experts from academia, industry, and government 
from over 35 countries in forums held in four different countries last 
year. In addition, I have started three nanotech companies, Nanosphere, 
NanoInk, and AuraSense, which have commercialized NNI-sponsored 
university-based inventions, generated hundreds of new jobs, and begun 
to build a new economic and manufacturing base for the Nation. 
Consequently, I have a fairly broad view of the field and an 
understanding of some of the issues facing the United States as it 
tries to maintain a leadership position within it.
    The first ten years of the NNI have been an overwhelming success. 
The visibility and societal importance of nanoscale science, 
engineering, and technology have been confirmed, while extreme 
predictions, both pro and con, have receded. The field has been 
recognized as revolutionary and comparable to the introduction of the 
biotechnology and digital information revolutions. The worldwide market 
for products incorporating nanotechnology is significant and reached 
about a quarter of a trillion dollars in 2009. This is just the ``tip 
of the iceberg'', and the U.S. is positioned to make extraordinary 
strides over the next ten years. However, the rest of the world now 
understands the importance of this field, and many countries are 
building efforts that rival what has been established by the NNI. This 
includes dozens of institutes throughout China, Japan, Singapore, 
Taiwan, Saudi Arabia, and many countries in Europe, including Germany, 
Switzerland, and Great Britain. If the United States does not act now 
and aggressively pursue the development of nanoscience and 
nanotechnology, we will lose our position as the global leader in this 
transformative field; moreover, we will lose the opportunities it can 
afford us to build our economy and new manufacturing base.
    Why is there so much interest in nanotechnology? The reason is 
simple; it has the potential to transform almost every aspect of our 
lives by providing rapid routes to addressing some of the most pressing 
problems in health care, electronics, energy, and the environment. One 
of the lessons learned over the first ten years is that every material, 
when miniaturized, has new properties, and many of these properties can 
be used to create applications and technologies that solve these 
problems.
    Take for example, a technology like gene-regulation--a few decades 
ago, this technology held the promise of treating and potentially 
curing some of the most debilitating diseases, including cardiovascular 
disease, neurological disorders like Alzheimer's disease, and many 
forms of cancer. As scientists and doctors, we have learned that it is 
not an easy technology to implement and requires materials that can 
deliver the genetic drugs effectively and without toxicity. The fastest 
way to new materials is through the miniaturization of existing 
materials (a tenet of nanotechnology). Researchers are now discovering 
all sorts of nanomaterials (through NNI-funded efforts like the 
National Cancer Institute's Centers of Cancer Nanotechnology 
Excellence) that show extraordinary promise for the effective use of 
such therapies in humans. I am convinced that nanotechnology will play 
a lead role in finding cures for these diseases.
    On the diagnostic side, NNI-funded efforts like the National 
Science Foundation's Nanoscale Science and Engineering Centers have 
discovered powerful new ways of detecting and tracking disease markers 
at very early stages--stages that cannot be detected with conventional 
tools and when therapeutics can be more effective. They have created 
ways of differentiating patient populations to determine which ones 
will respond to a given therapeutic and which ones will not. This not 
only improves patient care but also substantially lowers the cost of 
healthcare, since many costly therapeutics are now often broadly (and 
needlessly) distributed to the American population, when their 
effectiveness is in question for a significant portion of it.
    In the area of energy, we need new advances in solar energy 
technologies, batteries, and biofuels. Meaningful advances in these 
areas have been hampered over the last decade because existing 
materials do not offer the properties required for a given application. 
Again, nanotechnology is leading the way to solving these problems. New 
plants are being built and jobs are being created. Companies like A123 
have used nanotechnological approaches to create powerful new batteries 
that are being built in Michigan and will go into some of the current 
and future lines of electric cars and commercial vehicles. After only a 
decade, it is simply remarkable to see basic science already transition 
into meaningful commercial successes. Innovation and the related job 
creation will likely continue at an accelerated rate if we maintain a 
well-coordinated, and implemented NNI.
    What are the challenges going forward? Based upon my personal 
observations and the Committee that wrote the world overview report, we 
should not be discussing the renewal of the NNI but rather its 
expansion--a tough but critical decision in troubled economic times. 
The United States cannot afford to lose its competitive edge in 
nanotechnology over the next decade, and an expanded, well-coordinated 
and targeted NNI is the only effective way to accomplish this 
objective.
    There are three primary areas, which need to be addressed, 
including:

  1.  Strengthening the NNI management structure,

  2.  Developing strategies for future investment in both research and 
        education/training, and

  3.  Dealing with environment, health, and safety (EHS) issues 
        potentially posed by nanotechnology.

    I would like to share with you my recommendations in two of these 
three areas. I will not focus on EHS since we have other experts 
providing testimony on this topic.
    In the management area, the National Nanotechnology Coordination 
Office (or NNCO) should broaden its impact and efficacy and improve its 
ability to coordinate and develop NNI programs and policies related to 
those programs. The OSTP should facilitate these improvements by taking 
the following actions:

  <bullet> First, require each agency in the NNI to have senior 
        representatives with decision-making authority participate in 
        coordination activities of the NNI.

  <bullet> Second, strengthen the NNCO to enhance its ability to act as 
        the coordinating entity for the NNI.

  <bullet> Third, mandate that the NNCO develop metrics for 
        nanotechnology-specific program outputs and that it work with 
        the Bureau of Economic Analysis to develop meaningful metrics 
        and to collect data on the economic impacts of the NNI. PCAST 
        estimated that 0.3 percent of NNI funding should be dedicated 
        to the NNCO in order to ensure the appropriate staffing and 
        budget to effectively develop, monitor, and assess NNI 
        programs.

    With regard to strategies for future investments, the NNI should 
maintain a parallel focus on basic research and its translation into 
commercializable products and processes. We cannot have the latter 
without the former.
    With a budget planning process coordinated by OSTP, each agency 
would continually re-evaluate its NNI balance of investments among the 
Program Component Areas. Each area should enhance its focus on 
commercialization and double its investment in nanomanufacturing over 
the next five years, while maintaining the current level of investment 
in basic research.
    The NNI should have a focus on signature initiatives such as the 
development of nanomaterials to enable the development of nanomedicine, 
advanced nanomanufacturing, and nanomaterials for environmental 
monitoring and remediation. Each Signature Initiative's lead agency 
should develop coordinated milestones, promote strong educational 
components, and create public-private partnerships to leverage the 
outcomes of the Initiatives. Each lead agency also should develop 
strategies for monitoring, evaluating, and disseminating outcomes. The 
opportunities in this field are immense, but we need a way to identify 
and coordinate national centers of excellence that act as international 
hubs to attract the best and the brightest in the field, and train the 
next generation of workers and leaders in nanomanufacturing.
    In the area of education, the agencies of the NNI should continue 
making investments in innovative and effective education, and the NNCO 
should consider commissioning a comprehensive evaluation of the 
outcomes of the overall investment in NNI education. As products are 
being commercialized and nanotech industries are being built, we must 
have a parallel effort in student training and education. These are the 
folks who will become the workers and leaders in these new companies. I 
just visited one of our companies, NanoInk, and they are producing 
products that are very important to the pharmaceutical industry for 
high throughput drug screening applications. Pharmaceutical companies 
want to use these tools in-house immediately, but they do not have a 
competent workforce available to handle them. Universities need to 
train a new workforce and retrain an old one, so that these positions 
can be filled with highly qualified individuals at the pace of the 
nanotechnology industry development. The NNI should play an important 
role in making this happen for the field at large.
    In conclusion, I strongly believe that advances in nanotechnology 
will continue to play a critical part on the world economic stage and 
that it is imperative that the U.S. continue to support, strengthen, 
and expand the NNI in order to maintain its competitive edge. I thank 
you for your time, attention, and service to the country, and am happy 
to answer any questions that you may have.

    Senator Nelson. Thank you. Dr. Romine?

              STATEMENT OF DR. CHARLES H. ROMINE,

        ACTING ASSOCIATE DIRECTOR, LABORATORY PROGRAMS,

        NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Romine. Chairman Nelson, Ranking Member Boozman, and 
members of the Subcommittee, thanks for the opportunity to 
appear before you today to testify about NIST's role in 
nanotechnology and nanomanufacturing.
    The administration has aggressively worked to promote the 
growth of basic and applied nanotechnology. In February 2011, 
the National Science and Technology Council released the 
National Nanotechnology Initiative Strategic Plan. NIST has a 
key role in this initiative. As the benefits of the NNI 
continue to accrue, the role of NIST and the breadth of its 
innovation-related programs will become even more important in 
ensuring that the end results match the promise in terms of new 
jobs and revolutionary technologies that benefit the Nation's 
economy and the American people.
    NIST is uniquely equipped to develop the improvements in 
measurements and standards that are essential for the adoption 
of advanced technologies needed by U.S. manufacturers to 
compete more effectively in the global technology-intensive 
products market. The nanotechnology-related research conducted 
in NIST's laboratories and user facilities develops 
measurements, standards, and data crucial to a wide range of 
industries and Federal agencies.
    NIST has a history of serving the needs of manufacturing 
sectors. One high-profile area of current support is in the 
measurements of a nanoscale material, graphene. Graphene, the 
subject of the 2010 Nobel Prize in Physics, is one of the most 
promising materials for the next generation of semiconductor 
devices needed to make electronic devices ever smaller and 
faster.
    Working closely with academic and industrial partners, NIST 
has recently completed the most advanced ultra-low temperature 
scanning probe microscope in the world, allowing an 
international team of researchers to measure key properties of 
graphene. As a result of NIST research, multiple components of 
this microscope are now products being sold by U.S. companies.
    NIST has a history of working with industry through public-
private partnerships and other consortia. For example, NIST's 
partnership with the Nanoelectronics Research Initiative, the 
NRI, a consortium that brings together the semiconductor 
electronics industry, government agencies, and universities, 
has leveraged a modest NIST investment, $2.75 million per year, 
by $5 million per year from industry partners and $15 million 
per year from states to support projects at 30 universities to 
work in 4 regional centers. The partnership has attracted state 
and private funding to support business development and 
commercialization. NIST-NRI interactions are currently 
supporting over 100 graduate students and have produced 
scientific publications as well as patented technologies.
    The President's 2012 budget request outlines 
nanomanufacturing research priorities at NIST that include 
developing measurement capabilities for large-scale 
nanomanufacturing and the manufacture of cost-competitive solar 
technologies that incorporate nanoscale structures. As part of 
the Materials Genome Initiative announced recently by the 
President, NIST will work together with other agencies to 
develop the design tools needed to accelerate materials 
development for industry.
    NIST will also continue close and targeted interaction with 
other agencies in NNI's signature initiative, Sustainable 
Manufacturing. In February 2011, NIST hosted a workshop in 
support of this initiative on the topic of technical challenges 
to the commercial development of high-performance carbon-based 
nanomaterials.
    Nanotechnology standards foster greater industry and 
consumer confidence, resulting in accelerated deployment of new 
products. NIST actively leads the development of international 
nanotechnology standards and guidelines. An understanding of 
the environmental, health, and safety of nanomaterials and 
nanotechnology-based products, known as NanoEHS, is critical 
for the responsible development and oversight of 
nanotechnology. NIST research in NanoEHS provides the 
underpinning science and measurement needed for a science-based 
approach to risk management. In Fiscal Year 2012, NIST plans to 
further develop validated measurement methods, tools, 
standards, and protocols that help to enhance understanding of 
the safety of nanomaterials.
    NIST's Center for Nanoscale Science and Technology is the 
nation's only nanotechnology user facility established with a 
focus on commerce. An important goal of the NIST's CNST is to 
reduce measurement barriers to innovation by providing access 
to world-class nanoscale measurement and fabrication methods 
and technologies. Industry access to these resources will help 
accelerate nanotechnology transfer to the marketplace. The 
number of commercial users has roughly doubled on an annual 
basis over the past three years.
    The nanofabrication facility at the CNST is a world-class 
shared resource, home to major commercial measurement and 
processing tools. The NanoFab has streamlined the process to 
obtain access to the facility. In Fiscal Year 2010, the CNST 
hosted nearly a thousand researchers, including a small company 
whose entrepreneur needed the tools to turn an invention into a 
working prototype, to a large company, using the CNST resources 
to develop future supercomputing technologies.
    The President's 2012 budget request includes $5.18 million 
to replace and update the equipment in the CNST so that it can 
continue to meet the needs of growing numbers of industry 
customers and other stakeholders.
    In conclusion, the breadth of the programmatic activities 
uniquely positions NIST to provide the underpinnings that will 
foster the transfer of new technologies into products for 
commercial and public benefit.
    Thank you for the opportunity to discuss NIST's 
nanomanufacturing activities, and I'm happy to answer any 
questions you may have.
    [The prepared statement of Dr. Romine follows:]

Prepared Statement of Dr. Charles H. Romine, Acting Associate Director, 
 Laboratory Programs, National Institute of Standards and Technology, 
                      U.S. Department of Commerce

Introduction
    Chairman Nelson, Ranking Member Boozman, and members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to testify about the Department of Commerce's National Institute of 
Standards and Technology's (NIST) role in nanotechnology and 
nanomanufacturing.
    The Administration has aggressively worked to promote the growth of 
basic and applied nanotechnology. In February 2011, the National 
Science and Technology Council (NSTC) released the National 
Nanotechnology Initiative (NNI) Strategic Plan. The goals of this plan 
are to advance a world-class nanotechnology research and development 
program, move nanotechnology discoveries from the laboratory into new 
products for commercial and public benefit, encourage more students and 
teachers to become involved in nanotechnology education, create a 
skilled workforce and the supporting infrastructure and tools to 
advance nanotechnology and to support the responsible development of 
nanotechnology.
    NIST has a key role in this initiative, consistent with its mission 
to promote U.S. innovation and industrial competitiveness by advancing 
measurement science, standards, and technology in ways that enhance 
economic security and improve our quality of life.
    Specifically, in the area of nanotechnology, NIST has a number of 
existing and planned programs that support the development, adoption, 
manufacture, commercialization, and use of nanotechnology-based 
innovations and products. Furthermore, the NIST efforts in the area of 
nanotechnology have been a key element of the NNI, of which NIST is one 
of 25 participating agencies. As the benefits of the NNI continue to 
accrue, the role of NIST and breadth of its innovation-related programs 
will become even more important in ensuring that the end results match 
the promise in terms of new jobs and revolutionary technologies that 
benefit the Nation's economy and the American people.

Providing Industry with the Measurements and Technology to Support 
        Innovation
    NIST is uniquely equipped to develop the improvements in 
measurements and standards that are essential for the adoption of 
advanced technologies needed by U.S. manufacturers to compete more 
effectively in the global technology-intensive products market. The 
nanotechnology-related research conducted in NIST's laboratories and 
user facilities develops measurements, standards, and data crucial to a 
wide range of industries and Federal agencies.
    NIST has a history of serving the needs of manufacturing sectors. 
NIST's work with the semiconductor electronics industry provides one 
compelling example. The 2007 ``Economic Impact of Measurement in the 
Semiconductor Industry'' report estimated that the $12 billion spent on 
advancing measurement capabilities during the decade beginning in 1996 
will have saved that sector more than $51 billion in scrap and rework 
costs by 2011--a net benefit of $39 billion \1\.
---------------------------------------------------------------------------
    \1\ http://www.nist.gov/director/planning/upload/report07-2.pdf
---------------------------------------------------------------------------
    One high-profile area of current support to this industry is in 
measurements of the nanoscale material graphene. Graphene, the subject 
of the 2010 Nobel Prize in Physics, is one of the most promising 
materials for the next generation of semiconductor devices needed to 
make electronic devices ever smaller and faster. Working closely with 
academic and industrial partners, NIST has recently completed the most 
advanced ultra-low temperature scanning probe microscope in the world, 
allowing an international team of researchers to measure key properties 
of graphene with unprecedented resolution. This unique instrument 
includes multiple components developed jointly with NIST that are now 
products being sold by U.S. companies.
    Measurements and modeling by NIST researchers are helping 
electronics industry manufacturers to develop improved and new 
processes for the nanofabrication of electronics components like 
microprocessors and memory chips. For example, following on a 
semiconductor industry roadmap determination that copper interconnects 
would be needed to manufacture smaller and faster devices, NIST 
researchers identified critical technical barriers and developed a new 
predictive modeling tool. The model helped lower the cost of R&D and 
reduced the time to production, resulting in an estimated NIST benefit-
to-cost ratio of 5.8 and a net benefit for industry of over $9 million, 
according to a NIST 2008 economic analysis.\2\
---------------------------------------------------------------------------
    \2\ http://www.nist.gov/director/planning/upload/report08-1.pdf
---------------------------------------------------------------------------
    NIST employs a number of tools to enable technology and knowledge 
transfer from NIST to promote U.S. competitiveness, including 
cooperative R&D agreements, facility use agreements, and intellectual 
property tools such as NIST inventions, patents, and licenses. NIST is 
home to a significant number of Associates and Guest Researchers, 
including summer undergraduate students and postdoctoral researchers, 
who develop technical expertise at NIST before continuing in their 
scientific careers.
    NIST has a history of working with industry through public-private 
partnerships and other consortia. These groups help drive manufacturing 
research priorities and leverage investments. For example, NIST's 
partnership with the Nanoelectronics Research Initiative (NRI), a 
consortium that brings together the semiconductor electronics industry, 
government agencies, and universities, has leveraged a modest NIST 
investment ($2.75 million per year) by $5 million per year from 
industry partners and $15 million per year from states to support 
projects at 30 universities to work in 4 regional centers. The 
partnership has attracted $110 million over 5 years in state and 
private funding to support business development and commercialization. 
NIST/NRI interactions are currently supporting 111 graduate students 
and have produced 159 scientific publications as well as patented 
technologies (3 issued and 2 filed). NIST is also engaged with industry 
consortia in the areas of flexible electronics and neutron-based 
measurements for the manufacture of soft materials such as chemicals, 
petroleum products, and pharmaceuticals.
    The President's 2012 budget request outlines research priorities at 
NIST that are specific to needs in nanomanufacturing. This includes 
developing the measurement knowledge and capabilities to enable cost-
effective in-line measurement techniques for closed-loop process 
control, thereby overcoming a major obstacle to large-scale 
nanomanufacturing. In addition, NIST researchers are planning to 
develop and demonstrate measurement capabilities required to overcome 
barriers to the manufacture of cost-competitive third-generation solar 
technologies, which incorporate molecular films, quantum dots, 
nanoscale crystals, and other nanoscale structures. As part of the 
Materials Genome Initiative announced recently by the President, NIST 
will work together with other agencies to develop the computational and 
design tools needed to accelerate materials development for industry.
    Also in Fiscal Year 2012, NIST will continue close and targeted 
interaction with other agencies in the three NNI Nanotechnology 
Signature Initiatives: Sustainable Nanomanufacturing, Nanotechnology 
for Solar Energy Collection and Conversion, and Nanoelectronics for 
2020 and Beyond. In February 2011, NIST organized and hosted a workshop 
in support of the Sustainable Nanomanufacturing initiative, on the 
topic of carbon nanostructured materials. This event brought together 
stakeholders from industry, academia, and government to identify the 
technical challenges to the commercial development of high-performance, 
carbon-based nanomaterials, and discuss potential pathways to 
establishing a public-private consortium to address these challenges.

Providing the Scientific Basis to Support the Safe and Responsible 
        Deployment of Nanotechnology
    Nanotechnology standards foster greater industry and consumer 
confidence, resulting in accelerated deployment of new products. NIST 
staff members actively lead the development of international 
nanotechnology standards and guidelines conducted through international 
fora and coordinated with other agencies through the NSTC. Altogether 
these activities create favorable conditions for the responsible 
transfer of nanotechnologies into products for commercial and public 
benefit.
    An understanding of the environmental, health and safety aspects of 
nanomaterials and nanotechnology-based products (NanoEHS) is critical 
for the responsible development and oversight of nanotechnology. NIST 
research in NanoEHS provides the underpinning science and measurement 
needed for a science-based approach to risk management. Policymakers 
and regulators can use the information to ensure that the U.S. is 
supporting innovation, encouraging new technologies, and not creating 
trade barriers.
    NIST's NanoEHS activities provide information and data for research 
institutions, regulatory agencies, the public, and industry. NIST 
activities include the development of reference materials for widely 
produced nanomaterials used in a broad range of applications, including 
electronics, personal care products, and construction materials. 
Examples include the first gold nanoparticle standard reference 
material; providing technical support and help to lead development of 
documentary standards that enable consistent and reproducible 
measurements of nanomaterial properties; and developing instruments and 
transferable methods to measure key properties of nanomaterials as 
needed by industry and regulatory agencies to make sound, science-based 
risk assessments.
    NIST's Fiscal Year 2012 request will increase NIST's ability to 
further develop validated measurement methods, tools, standards, and 
protocols that help to enhance understanding of the safety of 
nanomaterials and their mechanisms of interaction with the environment 
and humans with a focus on nanomaterials of greatest concern based on 
such factors as production volume, widespread use in products, and the 
potential for hazard or likelihood of exposure.
    NIST will continue to coordinate its NanoEHS program with other 
Federal agencies' activities through the nanotechnology subcommittee of 
the NSTC, using the 2011 NNI Environmental, Health and Safety Research 
Strategy \3\ as a framing document.
---------------------------------------------------------------------------
    \3\ Draft publicly available; awaiting final clearance.
---------------------------------------------------------------------------
Providing Industry and Academia Access to Advanced Nanofabrication 
        Facilities
    NIST's Center for Nanoscale Science and Technology (CNST), is the 
Nation's only nanotechnology user facility established with a focus on 
commerce. An important goal of the NIST CNST is to reduce measurement 
barriers to innovation, by providing industry, academia, and other 
government agencies with access to world-class nanoscale measurement 
and fabrication methods and technology. NIST has undertaken a sustained 
effort to reach out to industrial researchers whose access to these 
resources will help accelerate nanotechnology transfer to the 
marketplace; the number of industry users has roughly doubled on an 
annual basis since Fiscal Year 2008.
    The NIST CNST mission is guided by an understanding that rapid 
commercial development of nanotechnology--in particular, the speed with 
which industry can bring a specific new nanotechnology from discovery 
to production--depends critically on the availability and efficacy of 
applicable metrology tools and processes at each stage of the 
transition. Developing these tools and processes will have an immediate 
and significant impact on the commercial viability of nanotechnologies 
in a diverse array of fields, such as electronics, computation, 
information storage, medical diagnostics and therapeutics, and national 
security and defense.
    The Nanofabrication facility (NanoFab) at the NIST CNST is a world-
class, 60,000 square foot shared resource for nanofabrication and 
measurement--with over 19,000 square feet of cleanroom laboratory space 
and over 90 major commercial measurement and processing tools. To meet 
specific needs of industry, the NIST NanoFab has created a rapid, easy 
process for users to obtain equitable access to the facility, whether 
or not they are doing proprietary research. Research at the NIST 
NanoFab can be done by individual users or alongside a technical expert 
from the NIST NanoFab staff, imparting flexibility to industry users 
depending on the nature of the research and individual competencies.
    In the few years since its inception, the NIST CNST has become a 
major national resource for nanoscale science and the development of 
nanotechnology. Having now completed its initial ramp up in staff, 
equipment, facilities, and processes, the NIST CNST is continuing to 
expand on its strategic relationships and collaborations with 
industrial and academic partners.
    In Fiscal Year 2010 the NIST CNST hosted nearly 1,000 researchers 
from companies, government institutions, and universities from across 
39 states and the District of Columbia; during the same period NIST 
NanoFab tool use increased by 90 percent. Corporate researchers ranged 
from a small company, needing the tools to turn an invention into a 
working prototype, to a large company, using the NIST CNST resources to 
reduce the development cycle time of future supercomputer technologies.
    The President's Fiscal Year 2012 Budget Request includes $5.18 
million for the recapitalization of the NIST CNST. This funding is 
needed to replace and update the equipment and instrumentation in the 
NIST CNST so that it can continue to meet the nanoscale measurement and 
fabrication needs of growing numbers of industry customers and other 
stakeholders.

Accelerating the Development of Transformational Technologies
    NIST external partnership programs provide a coordinated set of 
activities to meet manufacturing challenges. The Technology Innovation 
Program (TIP) funds small companies and joint ventures comprised of 
businesses, institutions of higher education and other organizations 
such as national laboratories or nonprofit research institutes to 
support high-risk transformational R&D. The 2010 TIP competition 
focused on manufacturing technologies, resulting in awards to small 
companies and joint ventures producing a range of nanotechnology-
enabled products in areas including flexible liquid crystal displays, 
organic photovoltaics, and lithium-ion batteries.
    In its Fiscal Year 2012 budget request, the Administration proposed 
the creation of the Advanced Manufacturing Technology Consortia Program 
(AMTech) at NIST. AMTech was also included in the President's recent 
Advanced Manufacturing Partnership (AMP) initiative that is aimed at 
strengthening support for U.S. manufacturing. The AMTech program will 
address a critical need for early stage technology development by 
providing incentives for the formation of, and providing resources to, 
industry-led consortia that will support precompetitive R&D, thereby 
enabling technology development and creating the infrastructure 
necessary for more efficient transfer of technology. AMTech builds on 
lessons learned from NIST's partnership with the NRI, which I mentioned 
previously. In addition, although similar to TIP in the pursuit of 
high-risk, high-reward research, the AMTech program brings together 
multiple players in the innovation cycle, under a single consortium, to 
accelerate the pace of innovation in a particular industry sector. This 
strategy has the potential to drive economic growth, enhance 
competitiveness and spur the creation of jobs in high-value sectors of 
the U.S. economy.
    Finally, the nationwide network of Hollings Manufacturing Extension 
Partnership (MEP) centers helps small and medium manufacturers 
strengthen their competitive positions. The MEP system does this by 
accelerating the adoption of technological innovations, facilitating 
the adoption of environmentally sustainable business practices, 
providing training and assistance to increase exports, promoting 
renewable energy initiatives, fostering market diversification, and 
connecting domestic suppliers to manufacturers. All of these services 
are to assist manufacturers in successfully competing over the long 
term in today's complex global manufacturing environment.

Conclusion
    In conclusion, there is a breadth of programmatic activities at 
NIST covering scientific discovery, measurement science, standards 
development, and technology transfer relating to nanomanufacturing. 
NIST programs span all stages of the innovation ecosystem that enable 
the development and implementation of advanced technologies. These 
programs will help U.S. industry become more efficient and competitive. 
NIST is uniquely positioned to provide the scientific underpinnings for 
these emerging technologies that will foster the transfer of new 
technologies into products for commercial and public benefit.
    I thank the Subcommittee for allowing me to discuss NIST's 
nanomanufacturing activities and I welcome the opportunity to answer 
any questions you may have.

Dr. Charles (Chuck) H. Romine
    Dr. Charles (Chuck) H. Romine serves as the Acting Associate 
Director for NIST Laboratory Programs. He is responsible for oversight 
and direction of NIST's six laboratory programs and is the principal 
deputy to the NIST Director. The position of Associate Director for 
Laboratory Programs was created in October 2010 as part of the first 
major realignment of NIST programs in 20 years.
    NIST's six laboratories include the Physical Measurement 
Laboratory, Material Measurement Laboratory, Engineering Laboratory, 
Information Technology Laboratory, the Center for Nanoscale Science and 
Technology, and the NIST Center for Neutron Research. The NIST 
Laboratories collaborate with U.S. industry and universities to conduct 
measurement, standards, and technology research that advances the 
Nation's R&D infrastructure. The overarching goal of the NIST 
laboratory programs is to accelerate U.S. innovation, which is a major 
driver of economic growth and job creation.
    Prior to his appointment as the Acting Associate Director for 
Laboratory Programs, Romine served as the Senior Policy Advisor to the 
NIST Director and as the Associate Director for Program Implementation 
within the NIST Information Technology Laboratory. He joined NIST in 
2009 after serving for 5 years in the White House Office of Science and 
Technology Policy as the Senior Policy Analyst responsible for 
providing expert technical and policy advice to the President's Science 
Advisor for all areas related to information technology.
    Romine began his career in 1986 with the Department of Energy after 
receiving a Ph.D. in applied mathematics and a B.A. in mathematics, 
both from the University of Virginia. He spent 15 years conducting 
research at Oak Ridge National Laboratory on advanced algorithms for 
supercomputers and 4 years at the Department of Energy Office of 
Science as program manager for the Office of Advanced Scientific 
Computing Research.

    Senator Nelson. Thank you.
    Dr. Leslie-Pelecky?

         STATEMENT OF DIANDRA L. LESLIE-PELECKY, Ph.D.,

       DIRECTOR, WEST VIRGINIA NANO INITIATIVE; PROFESSOR

              OF PHYSICS, WEST VIRGINIA UNIVERSITY

    Dr. Leslie-Pelecky. Thank you very much. I'd like to echo 
my colleagues' thanks for the invitation to testify here today. 
And I want to emphasize this really isn't an abstract thanks, 
because the NNI has had a huge impact on moving my own research 
from very fundamental to more applied.
    Just to give you an idea of what I do, I think most of you 
in the room are old enough to remember a toy called Wooly 
Willy. It's a picture of a guy's face with iron filings. You 
use a magnet to make a beard and hair and things. I do the same 
thing with magnetic nanoparticles.
    What we do is we attach chemotherapy drugs to the magnetic 
nanoparticles. We inject them, and then I use a magnet to hold 
them where I want them, which is near cancer tumors. By doing 
this, we concentrate the chemotherapy drugs. That allows them 
to be more efficacious and also decreases side effects.
    Now, our work has been funded by the National Science 
Foundation and the National Institutes of Health. We've also 
run into situations where our work is too disease-focused for 
NSF but not quite disease-focused enough for NIH. Funding 
agencies have started having coordinated funding--calls for 
funding, but more coordination is necessary to ensure that 
these ideas that are sort of out of the funding box don't get 
lost and they can move from that eureka moment to actual 
applications.
    One of those interesting concepts that I've been learning 
about is called bioactivity. And that characterizes how 
nanomaterials interact with living organisms in the 
environment. It should seem like bioactivity of a nanomaterial 
is something we really ought to be able to predict. But it 
turns out that the same surprising properties of nanomaterials 
that make them so useful often sometimes surprise us when we 
look at how they interact with the biological systems.
    We can create new nanomaterials in a matter of days. It can 
take us up to months to really understand the bioactivity of 
those materials. We've developed an amazing ability to make new 
materials. Now we need to advance the understanding of 
bioactivity to catch up with our ability to make materials.
    I moved to West Virginia recently in part because of the 
proximity of West Virginia University to the National 
Institutes of Occupational Safety and Health. Collaborations 
between our two organizations are making exciting progress on 
understanding the bioactivity of nanomaterials. One of those 
lines of research is developing microfluidic devices for real-
time analyses. These devices could allow a researcher or a 
company to learn within minutes how a brand new nanomaterial 
would interact with different types of cells. These sensors 
could be used to monitor the presence of nanoparticles in the 
work environment. They could be used for homeland security 
purposes. There are really exciting opportunities for companies 
that are capable of doing rapid, accurate bioactivity 
screening.
    This knowledge is extremely valuable for industries. 
Companies need the data to convince them to invest in new 
technologies. They want to know that their products are safe, 
and they want to know how to keep their workers safe. Even more 
importantly, those companies which are developing new nano-
enabled products would benefit from better guidance as to the 
likely bioactivity of new materials.
    Now, the situation of not being able to predict bioactivity 
greatly complicates regulation. It's basically like being asked 
to referee a game for which you didn't know all the rules. 
Consequently, nanomaterials have to be regulated on a case-by-
case basis according to their actual properties, not some 
potentially superfluous characteristic such as size. That means 
the regulatory agencies must be nimble and able to adapt as our 
knowledge changes.
    Let me conclude by briefly addressing a topic that 
sometimes gets lost in all of our excitement about the 
possibilities of nanomaterials, and that's the need for 
education. So when I was in graduate school, I studied physics. 
I worked with physicists. Now I study nanomedicine. I work with 
medical doctors, biologists, toxicologists, pathologists, not 
to mention chemists, engineers, and occasionally the odd 
physicist or two.
    Nanomaterials transcends boundaries. It's a very different 
type of training than the discipline-based education that all 
of us went through. We need to invest in developing the most 
effective and efficient ways of educating the next generation 
of scientists and engineers who will lead the way.
    But we also need to educate lawyers and business people, 
elected officials, regulatory officers, and venture capitalists 
about the realities of nanotechnology, especially as they 
pertain to specialized sectors of the economy, like energy, 
health, and the environment.
    Most importantly perhaps, in my view, is educating all 
citizens to be able to make informed decisions about 
nanotechnology. Nanomaterials will eventually affect all facets 
of our lives, and some of them have been pointed out--
everything from medical care to the cars we drive and the food 
we eat. Consumer understanding of nanomaterials is a 
prerequisite to their acceptance and thus realizing the huge 
potential of nanotechnology to improve our country, our 
economy, and our quality of life.
    The NNI has facilitated the growth and development of this 
very important field. Reauthorization of the NNI must include 
coordination of effort among multiple government agencies; 
increasing understanding of nanomaterials bioactivity to 
facilitate safe and responsible use; and supporting 
infrastructure necessary for future research, development, and 
commercialization.
    Finally, the NNI must promote education at all levels, from 
the future scientists and engineers that will enable us to 
maintain global leadership in nanotechnology to helping the 
public make informed decisions about the role nanotechnology 
will play in their lives.
    Thank you again for the opportunity to address you about 
this very important issue.
    [The prepared statement of Dr. Leslie-Pelecky follows:]

Prepared Statement of Diandra L. Leslie-Pelecky, Ph.D., Director, West 
     Virginia Nano Initiative; Professor of Physics, West Virginia 
                               University

  <bullet>  The National Nanotechnology Initiative has had a tremendous 
        impact in producing new materials for potential commercial 
        applications, advancing fundamental knowledge, and developing a 
        scientific and engineering workforce that has made the United 
        States a global nanotechnology leader. Re-authorization of the 
        NNI will ensure that the U.S. retains this leadership and will 
        promote the transfer of basic knowledge to applications with 
        important economic and societal impacts in energy, health and 
        medicine, environmental monitoring and remediation, and 
        homeland security.

  <bullet>  Nanotechnology is highly interdisciplinary and ranges from 
        basic research to applications, making it critical for funding 
        agencies to coordinate their efforts. Recent interagency calls 
        for proposals in targeted areas involving nanotechnology must 
        be continued and expanded upon to ensure that important 
        research areas receive the necessary support.

  <bullet>  Realizing societal and economic benefits depends critically 
        on establishing scientifically valid principles for responsibly 
        developing and using nanotechnology.

    <ctr-circle> We have much to learn about nanomaterial bioactivity: 
            how a material interacts with biological organisms and the 
            environment. In particular, we need to understand the 
            relationships between physicochemical properties of 
            nanomaterials and their bioactivity to enable ``safety by 
            design''.

    <ctr-circle> Regulation of nanomaterials is important to corporate 
            and consumer adoption of this new technology. Companies 
            need confidence that their products and manufacturing 
            methods are safe for consumers and workers, while the 
            development of new nanomaterials and nanotechnologies will 
            benefit from being able to focus effort in the directions 
            that are most likely to produce safe products.

    <ctr-circle> Nanomaterials are a unique form of matter and we do 
            not yet have all the knowledge we need to develop complete 
            regulations for nanomaterials. Acquiring this knowledge 
            must be a priority and nanomaterials regulation must remain 
            flexible enough to adapt to our evolving understanding.

    <ctr-circle> A potentially large market exists for products and 
            services that determine nanomaterial bioactivity quickly 
            and precisely. Sectors that would benefit include 
            nanomanfacturing, homeland security, health and medicine, 
            and a wide spectrum of basic and applied research.

  <bullet>  Nanotechnology research requires significant infrastructure 
        for its continued development. Once-exotic instruments like 
        electron microscopes are now basic tools for research and 
        development. Funding opportunities to acquire these basic tools 
        (some of which cost a half-million to a few million dollars) 
        need to be developed. New state-of-the-art tools need to be 
        invented and made available on a regional basis.

  <bullet>  Education is a priority to ensure our continuing world 
        leadership in nanotechnology, to transfer basic discoveries to 
        applications, and to ensure public acceptance of 
        nanotechnology.

    <ctr-circle> Educating the next generation of scientists and 
            engineers requires new models at undergraduate and graduate 
            levels that focus on integrating diverse fields without 
            sacrificing depth of knowledge in core disciplines;

    <ctr-circle> Lawyers, businesspersons, venture capitalists, elected 
            officials, and government regulators need to acquire 
            knowledge about specific nanomaterials and their 
            applications to allow informed decision making;

    <ctr-circle> Basic science and engineering education at the K-12 
            level is a pre-requisite for future scientists and 
            engineers--but more importantly, it is critical for all 
            citizens to develop fundamental scientific literacy so that 
            they can make informed decisions about the roles 
            nanomaterials will play in their lives.

    Mr. Chairman and Members of the Subcommittee, my name is Diandra 
Leslie-Pelecky and I am the Director of the West Virginia Nano 
Initiative and Professor of Physics at West Virginia University. Thank 
you for the opportunity to testify today regarding the impact of the 
National Nanotechnology Initiative (NNI) and its reauthorization.
    This is not an abstract thanks, as I am one of literally thousands 
of scientists and engineers who have had the opportunity to contribute 
in some small way to the huge advances in our understanding of 
nanomaterials because of the government's commitment to nanotechnology 
and its potential impact on our country's future through the NNI. 
Reauthorization of the NNI will further our basic understanding of 
nanomaterials, and help transform that knowledge into products and 
services that will benefit the people of the United State and our 
economy.
    The idea that one can change the basic properties of a material 
simply by changing its size introduced a major paradigm shift in 
science and engineering. The possibilities for using nanomaterials to 
solve some of the country's most important problems--like more 
efficiently transforming and storing energy, or detecting diseases like 
cancer when there are only a few cancerous cells present--are moving 
ideas from the realm of science fiction to reality.
    Despite having worked in nanomaterials my entire career, I had a 
very traditional preparation to become a physicist. I started out 
studying the fundamental properties of magnetic nanoparticles--
particles about a thousandth the width of a human hair--trying to 
understand how their magnetism changes as their size varies. About 
eight years ago, I was inspired to consider how these magnetic 
nanoparticles might be applied.
    You may remember a toy called Woolly Willy--a drawing of a man's 
face in a container that also contained iron filings. You use a magnet 
to move the iron filings around to create a beard or hair. I do 
something analogous with magnetic nanoparticles. I attach chemotherapy 
drugs to the nanoparticles, inject them, and then use magnets outside 
the body to hold the nanoparticles where I want them--which is at 
cancer tumors. This magnetic targeting approach allows us to 
concentrate the chemotherapy drugs near the tumor, increasing efficacy 
and decreasing side effects.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This is how I entered the field of nanomedicine, which uses the 
unique properties of nanomaterials to detect and treat disease. Like 
many of the hybrid fields that have evolved from nanomaterials 
research, nanomedicine sometimes finds itself at the edges of two or 
more funding agency mandates. Our work has been funded by the National 
Science Foundation and the National Institutes of Health, but we've 
also found that some aspects of the research are too disease focused 
for NSF, but not focused enough for NIH. Funding agencies have started 
to issue joint calls for proposals in the last few years, but more 
coordination is necessary to ensure that ideas that don't fit neatly in 
a funding ``box'' can still move from the eureka moment to application. 
It is especially important to address the gap between the basic 
research pursued in most universities and the very applied work that 
immediately precedes commercialization.
    As I continued working in nanomedicine, I've learned about a 
concept called `bioactivity', which characterizes how nanomaterials 
interact with living organisms and the environment. My nanoparticles 
are designed to enter the body, locate near the tumor and release their 
chemotherapy drugs. After their mission is accomplished, the 
nanoparticles are metabolized by the body into oxygen and iron, both of 
which can be used or easily removed by the body. We do extensive tests 
to ensure that our nanoparticles' bioactivity is limited to cancer 
cells.
    It might seem like the bioactivity of a material is something that 
we ought to be able to predict; however, the same surprising properties 
that we want to utilize to treat diseases and use energy more 
efficiently also sometimes surprise us when we look at how the 
materials interact with biological systems. Some materials have a 
threshold size, below which they start having undesired consequences. 
We can combine two materials that are fine on their own, but produce an 
undesired bioactivity when combined. Bioactivity has to be 
experimentally determined nanomaterial by nanomaterial.
    We can create new nanomaterials in a matter of days; however, it 
takes several months for us to investigate and really understand the 
bioactivity of just one of those nanomaterials. Nanomaterials have 
turned the basic tenets of toxicology on their heads. We must support 
the basic research necessary to develop predictive capabilities for 
nanomaterials bioactivity. We have exceptional abilities in producing 
new nanomaterials of all kinds. Now, we need to advance our 
understanding of bioactivity to catch up with the rapid development of 
new nanomaterials.
    I moved to West Virginia last year in part because of the proximity 
of West Virginia University to the National Institutes of Occupational 
Safety and Health (NIOSH). Collaborations between our organizations are 
producing some of the most exciting progress on understanding the 
bioactivity of naturally occurring and human-made nanomaterials. As the 
production of nanomaterials increases from lab quantities to 
nanomanufacturing-scale amounts, companies and regulatory agencies are 
going to need the type of information we collect on the intended and 
unintended environmental, health and safety impacts of nanomaterials.
    Companies are uneasy about investing in new technologies that have 
so many unanswered questions. Companies need to know that their 
products are safe, and what steps they need to take to ensure that 
their workers have a safe environment. Even more importantly, companies 
developing new products would benefit significantly by being able to 
access a broad database of knowledge of environmental health and safety 
effects that could help predict the behavior of new nanomaterials and 
combinations of nanomaterials.
    The ability to develop appropriate guidelines and regulations are 
hampered by lack of basic knowledge about nanomaterials bioactivity. 
Imagine being asked to referee a game for which you didn't know all the 
rules. The rules for nanomaterials are not likely to be simple, either. 
Nanomaterial bioactivity doesn't depend simply on size or shape or 
chemical composition. Nanomaterials must be regulated on a case-by-case 
basis according to their actual properties, not simple and possibly 
superfluous characteristics such as size. Regulatory agencies must be 
knowledgeable and nimble, willing to change as our knowledge increases.
    There's an unfortunate perception that emphasis on understanding 
the environmental health and safety aspects of nanomaterials is a 
hindrance to using nanomaterials to drive the economy. Understanding 
nanomaterials bioactivity is a critical component of developing safe 
products and building consumer confidence in nanotechnology. It's also 
a potential business opportunity.
    For example, researchers at West Virginia University and NIOSH are 
working on a microfluidic device that uses different types of cells as 
sensors to perform a real-time analysis of nanomaterials bioactivity. 
This device could allow a researcher or a company to learn within 
minutes how a new nanomaterial interacts with each different type of 
cell. There are industrial possibilities for developing sensors that 
monitor the presence of nanoparticles in the work environment or for 
homeland security purposes, and opportunities for companies capable of 
doing rapid, accurate bioactivity screening.
    Realizing these opportunities requires advancing our basic 
understanding of nanomaterials bioactivity, which in turn requires 
infrastructure. The multifaceted nature of nanomaterials demands 
multiple characterization measurements, many of them pressing at the 
boundaries of what we are able to measure. The government has done an 
outstanding job making high-cost instrumentation available on a 
regional basis at national laboratories, such as the NSF-funded 
National Nanotechnology Infrastructure Network. These facilities make 
important contributions to research, but also provide unique 
educational opportunities for nanotechnology students.
    Once-exotic instruments like electron microscopes are now basic 
tools that are required for nanomaterials research. There are a very 
limited number of funding opportunities for universities to acquire 
instruments in the half-million dollar to few million dollar range. 
These instruments do far more than facilitate research--they provide 
training opportunities for the next generations of nanotechnology 
researchers and developers.
    Let me conclude by briefly addressing an aspect of nanotechnology 
that often gets lost: the need for education at many different levels. 
In graduate school, I studied physics and I worked with physicists. Now 
I study nanomedicine and I work with medical doctors, biologists, 
toxicologists, and pathologists--not to mention chemists, engineers and 
other physicists. I've learned almost an entirely new vocabulary in the 
last eight years. The undergraduate and graduate students working in my 
labs need to learn very different things than I learned when I went 
through school. Nanomaterials transcends disciplinary boundaries, 
requiring students to develop breadth of knowledge while still gaining 
expertise in their core discipline. Today's students won't be working 
in a small group of like-minded people in a single lab: they need to 
learn how to work with groups of people from very different 
backgrounds, on a wide spectrum of instrumentation. They need to learn 
about the importance of fundamental research, but they also need to 
learn about industrial applications of nanomaterials and 
entrepreneurship. This is a major departure from the discipline-based 
education most of us are used to and we need to invest in developing 
the most effective and efficient ways of educating the next generation 
of scientists and engineers.
    Perhaps more importantly, we need to educate lawyers and 
businesspeople, elected officials, regulatory officers and venture 
capitalists about the realities of nanotechnology, especially as they 
pertain to specialized sectors of the economy like energy, health, and 
the environment. They need to utilize a principle of science that we 
often fail to communicate: cutting-edge scientific knowledge is dynamic 
and constantly evolving. Patent examiners, policy makers and the 
government scientists responsible for creating a stable and predictable 
regulatory climate will have learn how to adapt to our changing 
knowledge in a proactive and not reactive way.
    Most importantly, in my view, is educating all citizens to make 
informed decisions about nanotechnology. This education starts in the 
K-12 system by building fundamental science and math literacy--
something we are not doing very well at present. Our efforts need to be 
focused beyond developing curricula that define and explain 
nanomaterials. We need to emphasize the more fundamental objective of 
teaching people how to think critically. We need to switch the focus of 
education from memorizing information that any teenager can pull up in 
a microsecond from her phone to teaching that student how to synthesize 
and use that information to make valid decisions.
    As the author of a science book written specifically for non-
scientists, I have a lot more contact with the public than your average 
physics professor. What surprised me most was how hard the average 
person is willing to work to learn about science--if you can show them 
how it affects something they care about. Nanomaterials will eventually 
affect all facets of our lives, from our medical care to the cars we 
drive and the food we eat. Consumer understanding of nanomaterials is a 
pre-requisite to realizing the huge potential of nanotechnology to 
improve our country, our economy and our quality of life.
    The National Nanotechnology Initiative has facilitated the growth 
and development of this very important field. Re-authorization of the 
NNI must include coordination of effort among multiple government 
agencies, increasing understanding of the environmental health and 
safety impacts of nanomaterials to facilitate their safe and 
responsible use in consumer products, and supporting the infrastructure 
necessary for future research and development. Finally, the NNI must 
promote education at all levels, from the future scientists and 
engineers that will enable us to maintain global leadership in 
nanotechnology, to developing the scientific literacy of the public so 
that they can make informed decisions about the role of nanotechnology 
in their lives. Thank you again for the opportunity to provide input on 
this very important issue.

    Senator Nelson. Thank you.
    Dr. O'Neal?

         STATEMENT OF DR. THOMAS O'NEAL, ASSOCIATE VICE

         PRESIDENT OF RESEARCH, OFFICE OF RESEARCH AND

        COMMERCIALIZATION, UNIVERSITY OF CENTRAL FLORIDA

    Dr. O'Neal. Let me echo my thanks for the opportunity to 
speak with you, Mr. Chairman, and the Committee about this very 
important issue. Again, I'll state from the start that I'm 
fully in support of renewing and expanding the National 
Nanotechnology Initiative. And I think that it has made us a 
global leader in the development of nanotechnology, and I 
really think we need to maintain that effort.
    I'm from UCF. It's a growing university. If you're not 
familiar with it, we're actually the second largest university 
in the country now, just over 40 years old. So we're a new 
growing entity, if you will, and we've done a lot of 
experiments.
    One thing we did was take a look at our ecosystem in terms 
of how to commercialize technologies and realized, in one 
sense, there were a lot of resources on land or air, but we're 
kind of like a sixth grade dance where all the girls and boys 
shut up and nobody's really dancing. So we try to figure out 
ways to bring people together.
    And we created our incubator initially to commercialize 
technology. But we ended up doing a whole lot more than that. 
We ended up being the neutral site, if you will, for folks to 
come together and kind of act like a magnifying glass, if you 
will, to bring the community together to commercialize 
technologies.
    I want to certainly say today that I think we need to 
continue this investment. It will keep us competitive and 
dominant in the world for years to come. And by that, I mean, 
you really need to almost consider doubling the university--the 
Federal investment in research.
    We need to make sure we have the dominant supply of 
intellectually derived raw materials to supply our 
commercialization stuff. Then we need to create the 
commercialization stuff with the same kind of excitement we get 
about the science. And it really has the same challenges, if 
you will. There's tremendous scale-up properties that are 
problems that nano people face when they're taking things off 
the bench top, if you will, into commercial productivity.
    So what can we do? I have some suggestions. Certainly, we 
need to really encourage universities and industry to partner 
more. Maybe we can increase the amount of the small--the STTR 
portion of the Small Business Innovative Research Program that 
requires universities and industry to partner before they can 
do Federal research. That would be an incentive for folks to 
start learning how to work together.
    We could consider stipends, if you will, for really 
profound research that would go toward the commercialization 
and any kind of gap found of a really promising technology 
being developed in the research lab. We can also begin to think 
about an open call for the SBIR program, so we can do funding 
in real time, if you will, to companies that really have great 
discoveries they need to commercialize.
    We have a matching grants program in Florida, High Tech 
Corridor, that provides additional money for when universities 
and industry do research together, and with the industry 
providing research, so we know it's something that's important 
to them--but additional money to help the faculty, incentivize 
them to work with things. I would consider creating proof of 
concept centers, where faculty and industry can come work 
together, share equipment, share space, share stuff with 
investors--really to figure out how we're going to get the 
commercialization out in the marketplace. They also need help 
with the manufacturing, and the scale-up issues we talked about 
earlier need to be addressed and, hopefully, some help to do 
that.
    I'd offer that we provide help with compliance, too, for 
these entrepreneurs. Make it user friendly, you know. These--
it's very daunting for faculty to start companies when they 
have to figure out all this compliance stuff and in real time. 
And it's a mine field, so, again, maybe a tour guide to help 
them get through that stuff would be great.
    Industry can share space in each place. It can--when you 
think about ways to enhance university tech transfer, funding 
for university tech transfer offices and commercialization is 
sparse, usually taken out of the F&A recovery--cost recovery 
from the university--so ways to help them get the 
commercialization out of the technology, in supplements, maybe, 
again, from really exciting research to do the 
commercialization part, or they can go directly to a tech 
transfer office or incubators or the college of business and 
maybe even the company itself. That's where the money needs to 
go.
    The last thing we really need to address is the capital 
problem--maybe a fund of funds for technology investment funds. 
Maybe we could create a fund like the CI did to help 
commercialize their technologies--figure out ways to 
incentivize angels to get off the sidelines and really start 
investing in these companies.
    With that said, I'd like to conclude. Think about--we use 
the term ecosystem a lot--but think about ecosystem as a coral 
reef or a rain forest. Certainly, a coral reef and a rain 
forest are very different ecosystems, but they're both very 
complex in nature, and lots of things going on at the same 
time.
    Communities and entrepreneurs and different areas of 
technology are also very different and they all need different 
support. So I really would include bringing, you know, city and 
industry and government and states together to solve their 
local community problems as well as addressing a national 
issue, if you will.
    With that, certainly, I think that entrepreneurships need 
to be really considered. The last statistic I saw showed 90 
percent of the companies in the United States have nine 
employees or less. So I think entrepreneurs and small 
businesses will be leading or have a major role in this effort.
    And with that, I thank you for your time.
    [The prepared statement of Dr. O'Neal follows:]

 Prepared Statement of Dr. Thomas O'Neal, Associate Vice President of 
   Research, Office of Research and Commercialization, University of 
                            Central Florida

    Distinguished members of the Subcommittee on Science and Space of 
the Senate Committee on Commerce, Science, and Transportation: Please 
let me thank you for the opportunity to provide testimony related to an 
area that holds great potential to make a significant contribution to 
the U.S. economy. I wholeheartedly support the renewal and expansion of 
the National Nanotechnology Investment: Manufacturing, 
Commercialization, and Job Creation.
    My testimony will focus on the commercialization aspects of 
nanotechnology:

  <bullet>  Industry potential

  <bullet>  Technology transfer

  <bullet>  University/Industry Interaction

  <bullet>  Economic Development

The Potential of NanoScience
    Nanotechnology has been recognized as a revolutionary field of 
science and technology, comparable to the introduction of electricity, 
biotechnology, and digital information revolutions. Between 2001 and 
2008, the numbers of discoveries, inventions, nanotechnology workers, 
R&D funding programs, and markets all increased by an average annual 
rate of 25 percent. The worldwide market for products incorporating 
nanotechnology reached about $254 billion in 2009. (Lux Research)
    Nanoscience or Nanotechnology, the study and design of materials at 
the nanoscale (on the order of billionths of a meter) truly has the 
potential to address untold challenges and market opportunities because 
nanomaterials have fundamentally different chemical and physical 
properties than bulk materials. Understanding and exploiting these 
properties will allow scientists to tailor materials for specific uses 
that will create new market opportunities and commercial success.
    In its comprehensive publication, Societal Implications of 
Nanoscience and Nanotechnology, the National Science Foundation (2001) 
suggested that among the expected breakthroughs [in nanoscience and 
nanotechnology] are orders-of-magnitude increases in computer 
efficiency, human organ restoration using engineered tissue, 
``designer'' materials created from directed assembly of atoms and 
molecules, and the emergence of entirely new phenomena in chemistry and 
physics (p. iii). The authors added that the effect of nanotechnology 
on the health, wealth, and standard of living for people in this 
century could be at least as significant as the combined influences of 
microelectronics, medical imaging, computer-aided engineering, and man-
made polymers developed in the past century (p. 2). This should not be 
ignored in terms of the economic development policy and practice in the 
U.S.
    A report by Lux Research (2006) showed that the industries most 
impacted by nanotechnology will be Aerospace and Defense, Chemicals, 
Computer Peripherals, Computers, Office Equipment, Electronics, Energy, 
Medical Products & Equipment, Metals, Pharmaceuticals, Scientific, 
Photo, Control Equipment, Semiconductors and Other Electronic 
Components.
    While the U.S. is a dominant player in the nanotechnology sector, 
Japan, Germany, and South Korea are also major players that are gaining 
ground.
    There are things to consider when discussing the commercialization 
of nanotechnologies.

  1.  Nanoscience is an enabling, general purpose technology. It is a 
        key building block for multiple applications across many 
        sectors.

  2.  It represents a mixed bag of incremental improvements and 
        disruptive technology breakthroughs.

  3.  Processes and products in the sector are key to the innovation 
        process.

Things that affect the commercial potential include:

  1.  It is a new field and the average incubation time for a discovery 
        to make it through the patent and licensing process is 7 years. 
        Add to this the fact that the emphasis on nanoscience is 
        relatively new and scientific research is often a slow hard 
        road, especially in tight budget times.

  2.  We learned from microelectronics that the flip side of Moore's 
        law is that the smaller the feature size the larger the 
        machines that are often needed to make these features and the 
        larger the increase in cost. For example, the initial printed 
        circuits could be made with standard photographer's equipment 
        available at any photo hobby store. Whereas now the light 
        sources can cost up to a billion dollars and individual pieces 
        of optics can easily exceed a million dollars in cost. This 
        trend continues on the nano-scale.

  3.  As an enabling technology, nano often ``disappears'' from view as 
        it is integrated into a system. Just one example, photonic band 
        gap materials are nano devices that can enhance telecom but one 
        does not think of the telecom device as either a nano device or 
        a photonics device. Another specific example is photo-thermal-
        refractive (PTR) glass, which, at its heart, is a nano 
        structure material. PTR glass is used to bend light at 
        different angles by using nanoparticles and Bragg gratings.

  4.  In summary, nanoscience has already `infiltrated' or enabled new 
        devices or improvement in older devices, but their identity as 
        nano enabled products disappears.

Commercialization Hurdles and Risks
    The commercialization of nanotechnology has non trivial technical 
and business issues. Key problem areas are Manufacturing and Scale-up, 
FDA Issues, Business Investment Capital, and the decreasing Investments 
in Research.
    Manufacturing and Scale-up phenomena runs rampant in nanoscale 
materials. For example, thin films/surface treatment deposition 
techniques, traditionally require expensive, large vacuum chambers that 
do not accommodate large scale production. Metallic and ceramic 
nanoparticles become non-uniform in high volume manufacturing. In other 
words, the physics of things change drastically at the nano-scale. 
Things don't do what they do in bulk.
    FDA hurdles for nanoparticles are also a key issue. Dendrimers is 
the only FDA approved therapeutic in the market, and any non-dendrimer 
nanoparticle is susceptible to poor uniformity in bulk production. FDA 
scientists fear that sub-100 nm particles could interact with DNA or 
cause cell damage. The environmental, health, and safety issues 
associated with nanosocience must be examined and addressed in order to 
proceed with the technology in this arena.
    Business capital must flow into this venue to ensure success in the 
market. Venture capitalists are investing in nanotech, but not 
aggressively due to the long cycles it takes from discovery to 
commercial viability. It should also be noted that U.S. investors are 
now putting more new money into international stock funds than into 
U.S. stock funds by a substantial margin. As recently as 6 years ago, 
only 8 percent of the money newly invested in U.S. stock funds went 
overseas; now the fraction has reached 77 percent. This hurts U.S. 
investment in nanoscience.

Commercialization of NanoTechnologies
    To increase the commercialization of nanotechnology innovations, I 
submit for consideration the following:

  1.  Invest in research at a level that will make a difference.

  2.  Spur university and industry interactions.

  3.  Address the capital problem.

Investment in Research
    Research results supply the raw materials for new emerging fields 
such as nanotechnology. To increase the commercial throughput, increase 
the supply of raw materials. Conversely, reducing the available 
innovative technologies available for commercialization reduces the 
amount of economic benefits available.
    Norman Augustine in his National Academy of Science essay, ``Is 
America Falling off the Flat Earth'' makes the point that while 
``America remains extremely productive, ample warning signs are to be 
found in considering the future. For example,''

  <bullet>  In 2004, Federal funding of research in the physical 
        sciences as a fraction of GDP was 54 percent less than in 1970. 
        In engineering, it was 51 percent less.

  <bullet>  By the end of 2007, China and India will account for 
        31percent of the global R&D staff, up from 19 percent as 
        recently as 2004.

  <bullet>  The share of U.S. post-doctoral scientists and engineers 
        who are temporary residents has grown from 37 percent to 59 
        percent in two decades.

  <bullet>  In 2005, only four American companies were among the top 10 
        in receiving U.S. patents.

  <bullet>  The National Intelligence Council reports that in 2003 
        ``foreigners contributed 37 percent of the research papers in 
        Science, 55 percent in the Journal of Biological Chemistry, and 
        71 percent in the journals of the American Physical Society.''

  <bullet>  For the first time, the world's most powerful particle 
        accelerator does not reside in the United States; this 
        virtually ensures that the next round of breakthroughs in this 
        fundamental discipline will originate abroad.

  <bullet>  In the recent ranking by the Organisation for Economic Co-
        operation and Development (OECD), the United States is in 22nd 
        place in the fraction of GDP devoted to nondefense research.

  <bullet>  Federal annual investment in research in the physical 
        sciences, mathematics, and engineering combined is equal to the 
        increase in U.S. health care costs experienced every 6 weeks.

    These statistics are included in this testimony not to insinuate 
that the sky is falling but show a trend that needs to be reversed if 
the U.S. is to maintain the current dominant position it enjoys now and 
more. It is an undeniable fact that, in the foreseeable future, the 
U.S. will have to have the best scientists and engineers in sufficient 
supply. However, that alone will not ensure America's ability to 
compete in the 21st century. Funds must be available to underwrite the 
efforts of scientists and engineers who conduct the cutting edge 
research that creates business opportunities that in turn creates new 
jobs. The funds must provide for modern laboratories and 
instrumentation as well as the research enterprise itself. It is 
research that will keep the United States prosperous in the long term.

Recommendations
    At a minimum, double the amount of Federal research expenditures 
overall within the next 5 years and consider an even higher increase in 
Nanotechnology. Simply put, we can't afford not to.
    The Federal Government should also take steps to retain scientific 
and engineering talent trained in the United States by developing a 
program to provide U.S. Permanent Resident Cards for foreign 
individuals who receive an advanced degree in science or engineering at 
an accredited institution in the United States and for whom proof of 
permanent employment in that scientific or engineering discipline 
exists.

Spur University and Industry Interactions
    Universities typically receive no funding for technology transfer 
or commercialization activities. Most are funded from Facilities and 
Administrative (F&A) cost (indirect cost) recovery. This is often 
problematic in that there is limited funding to pursue patent 
protection and even less resources to proactively commercialize 
technology developments. That means that most technology transfer 
offices protect a fraction of their technologies and then hope someone 
will discover it and take a license. Also as state budgets decline, 
universities must use the F&A cost recovery to fund facility 
construction, provide bridge funding for faculty competing for Federal 
grants, provide capitalization for labs, etc. This creates too much 
pressure on too little money!
    A few home run hits have also created the notion that tech transfer 
activities are a source of income for universities. Truth is that less 
than 10 percent of tech transfer offices break even, much less generate 
income. The premise of income though often creates very adversarial 
license negotiations and can jeopardize fruitful, long term 
partnerships.
    Lastly, resources for the commercialization activities are also 
difficult to obtain. Incubators and entrepreneurship centers are on the 
rise but often are office spaces, not suited for high tech ventures, 
operated on shoestring budgets, and are often not woven into an overall 
innovation ecosystem. Proof of Concept Centers that help move 
technologies from ideas to viable commercial product are needed for 
nanoscience as well as manufacturing centers that can help resolve the 
scale up problems that thwart technology exploitation.

Create a University Entrepreneurship and Technology Commercialization 
        Initiative
    It should be funded at a level comparable to the very successful 
SBIR program (2 percent of Federal R&D budget). Tasks to be undertaken 
include:

  (1)  Enhance the STTR Program to catalyze university and industry 
    collaboration
    (a)  Significantly increase the amount allocated

    (b)  Provide supplements to projects for:

       (i)  Translation grants

      (ii)  Gap funds to move technology or venture forward

      (iii)  Provide matching grants to universities to further 
            research efforts on company's behalf (company funding 
            required and possibly university match)

    (c)  Create open application deadline program option (SBIR and 
        STTR)

       (i)  Updated as needed

      (ii)  Ability to make awards for promising opportunities quickly 
            (weeks, not months)

  (2)  Create Proof of Concept and Manufacturing Centers

    (a)  Provide shared facilities to bring technology to commercial 
        viability

    (b)  Enable industry and university partnerships

    (c)  Access provided on a competitive basis

    (d)  Scale-up assistance and manufacturing expertise to move 
        technologies into production

  (3)  Enhance University Entrepreneurship Infrastructure

    (a)  Support for University Affiliated Incubators and Accelerators

       (i)  Facility development and enhancement

      (ii)  Operational and program support

      (iii)  Client support

      (iv)  Support for networking events between startups, university 
            personnel, investors

       (v)  Development of support infrastructure for second stage 
            companies (10 + employees)

    (b)  Student ventures and entrepreneurship support such as:

       (i)  Linking senior design classes to entrepreneurship and 
            business classes

      (ii)  Business plan competitions support and promotion

      (iii)  Entrepreneurship curriculum development

      (iv)  Internships with startups

       (v)  Technology based entrepreneurship for technical students

    (c)  Entrepreneur support

       (i)  Federal assistance for faculty/staff sabbaticals to start 
            companies

      (ii)  Assistance with conflict of interest management

      (iii)  Market research support

      (iv)  University Presidents, Provosts, other senior staff, and 
            faculty members should be rewarded in appropriate ways for 
            entrepreneurial activities.

  (4)  Regulatory Support

    (a)  Relax faculty ownership regulations for SBIR and STTR programs

    (b)  Conflicts of Interest

       (i)  Need to allow faculty to start companies without fear. 
            Current mechanisms create a mine field that is difficult to 
            navigate. Clear guidance documents should be created and 
            shared liberally. Assistance should be provided to help 
            people stay in compliance while spinning off companies.

    (c)  Provide incentives that spur investment in new companies and 
        relax rules and regulations that thwart it

    Overall, a growing problem is increased `compliance' demands that 
divert critical resources and destroys initiative (faculty are zapped 
for working extra hours, perhaps on the commercialization part of their 
work). It makes no sense to penalize a faculty member who put in their 
40 hours and then some.

  (5)  Patent Reform

    (a)  Patents need to be issued quicker (months not years)

    (b)  Patent reform should not hurt small business

Entrepreneurs Should Be Celebrated
    Universities and other government officials should recognize and 
reward entrepreneurs. Faculty should be given credit towards tenure and 
promotion, as well as help with compliance (COI). The system should 
create openness that encourages these activities, and sabbaticals to 
start companies should be accommodated. Take action to remove the 
barriers and confusion. University Presidents, Provosts, senior staff, 
and faculty should be rewarded in appropriate ways for entrepreneurial 
activities.

Address the Capital Problem
    The lack of access to capital is a huge problem. As pointed out 
earlier, the time lag between discovery and commercialization in 
nanoscience is long, typically 3--10 years. Patient money is required 
and incentives should be considered to increase this investment.

  <bullet>  Establish a Fund of Funds to increase the number venture 
        capital investments

  <bullet>  Establish a National Nano Investment fund similar to the 
        CIA fund to move promising technologies firms forward.

  <bullet>  Provide incentives for Angel investors

Conclusion
    Advances in the field of nanoscience present a tremendous 
opportunity to improve the quality of life and create economic wealth. 
It represents a long term investment with large returns. We must 
continue to press forward in nanotechnology development with a sense of 
urgency. One could liken this to President Kennedy's call to land a man 
on the moon by the end of the decade. A strong, concerted effort to 
accelerate the potential of nanoscience and technology by the end of 
this decade is warranted. It should be a prominent national agenda that 
the country can rally around. It must be done by increasing the level 
of discovery, creating strong partnerships between academia and 
industry, and by filling the gaps in the commercialization ecosystem. 
An entrepreneur-centric approach is needed even when large commercial 
entities are involved.
    The commercialization of nanoscience, as with many technology 
companies, is a messy business. If you've met one entrepreneur with 
their business needs, you've met one entrepreneur with their business 
needs. The entrepreneur must be at the center of the innovation 
ecosystem. Identifying them, engaging them, and supporting their needs 
in real time are key to increasing their success rates and helping them 
reach their full growth potential.
    Universities are increasingly ``getting it'' in terms of 
commercialization but have very limited resources and need their 
rewards systems to align with commercialization. Faculty that start new 
companies to commercialize their research should be helped and guided 
through the process to make sure everything is done properly and 
compliance becomes a service as opposed to a policing action. The 
entrepreneurs (faculty or not) should be celebrated and given the time 
they need to be successful. Faculty members have full time jobs when 
they start a commercialization activity--teaching, conducting research, 
and doing service tasks. They need to be relieved of some of these 
responsibilities to increase chances of commercial success or, at a 
minimum, not be penalized by time and effort reports if they chose to 
work extra time on the commercialization activities!
            Sincerely,
                                             Thomas O'Neal.
                                 ______
                                 

         Auxiliary Information on 2011 Testimony--July 12, 2011

       Commercialization and Potential for NanoScience Technology

 Prepared by: Dr. Thomas O'Neal, University of Central Florida, Office 
                    of Research & Commercialization

             NANOTECHNOLOGY IMPACT: Global, U.S., & Florida

Nanotech Workforce
--  The National Science Foundation estimates that up to one million 
        nanotechnology workers will be needed in the U.S. itself (Roco 
        and Bainbridge, 2001)
--  The referenced paper provides information on an interesting study 
        on nanotechnology training programs previously implemented in 
        NY, PA, CA and Mexico: ``Training California's New Workforce 
        for 21st Century Nanotechnology, MEMS, and Advanced 
        Manufacturing Jobs'' (Koehler, 2006)

Global Trends
--  Total worldwide sales revenues for nanotechnology were $11.6 
        billion in 2009, and are expected to increase to more than $26 
        billion in 2015, at a CAGR of 11.1 percent (``Nanotechnology: A 
        Realistic Market Assessment'', BCC Research, 2010)
--  The largest nanotechnology segments in 2009 were nanomaterials, 
        followed by nanotools (shows largest growth potential) and 
        nanodevices (``Nanotechnology: A Realistic Market Assessment'', 
        BCC Research, 2010)
--  Various governments have appropriated $40 billion in global 
        nanotechnology funding over the last decade and almost $10 
        billion more was added in 2010 (``Nanogeopolitics 2009: The 
        Second Survey'', ETC Group, 2009)
--  In 2009, the combined European Union member states spent 27 percent 
        of the global nanotechnology funding, Russia spent 23 percent, 
        U.S. spent 19 percent and Japan spent 12 percent 
        (``Nanogeopolitics 2009: The Second Survey'', ETC Group, 2009)
--  The International Association of Nanotechnology (IANT), is a non-
        profit organization with the goals of fostering scientific 
        research and business development in the area of Nanoscience 
        and Nanotechnology http://www.ianano.org/
--  Countries with extensive nanotech programs, both in private and 
        government spending and research efforts include: Russia, 
        Japan, Korea, Singapore, and UK

Russia
    Rusnano, the state-sponsored nanotech investment arm founded in 
2007, provides funding for research and commercialization of 
nanotechnology in an effort to revitalize the economy. As a direct 
result of the formation of Rusnano, Russia drastically improved its 
government funding, nanotech initiatives, nanotech R&D center scores, 
and publication counts. Rusnano has received more than 2,000 proposals 
for research products and centers, and approved 111 projects to date, 
in the categories of medicine and pharmaceuticals, energy efficiency 
and clean technologies, optics and electronics, coatings and surface 
modification, and nanomaterials. Rusnano is investing $500 million into 
Russian nanotechnology companies as well. (DiChristina, 2011)

Japan
    Though not as well coordinated or as well-funded as its U.S. 
counterpart, Japan has a healthy government program and network of 
research centers for supporting nanotech, and its technology-oriented 
private sector helps to make up the funding gap. Patents and 
publication counts are healthy, and giant conglomerates like Toray and 
Sumitomo are very active in nanotech research and commercialization. 
Over 60 companies in nanotechnology are thriving throughout the 
country. These companies currently dominate in three markets--
nanotubes, food, and semiconductors. The country and private sector 
have invested over $1 billion in funding towards nanotech (Haxton & 
Meade, 2009).
    http://www.nanonet.go.jp/english/aboutus/
    http://www.nanowerk.com/nanotechnology/Nanotechnology_Companies_in_
Japan.php

China
    Nanotech is a recurring theme in many of China's technology 
economic development plans, and both public and private funding has 
grown quickly over the years. The number of publications grew as an 
effort of Chinese scientists pursuing nanotechnology, but the patent 
count has remained similar to previous years. The nanotech companies 
that do exist in China are usually generic nanomaterial producers (such 
as Shanghai Huzheng Nano Technology Co. or developer Tianjin 
Tianhezhongxin Chemicals Co.), supporting the notion that China's 
research has produced little proprietary, and therefore, hardly 
commercial technology, to date.

India
    India's Prime Minister has voiced concerns that India may be 
missing the nanotechnology wave (The Economic Times, 2011)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        (``Ranking the Nations on Nanotech: Hidden Havens and False 
        Threats'', LUX Research, 2010)
U.S. Trends
--  The U.S. market is responsible for more than 50 percent of the 
        nanoproducts currently sold throughout the world 
        (``Nanogeopolitics 2009: The Second Survey'', ETC Group, 2009)
--  President Obama's 2011 budget approved nearly $1.8 billion for the 
        National Nanotechnology Initiative (NNI) (Sargent, 2011)
--  The U.S. Department of Energy is making the largest investment 
        among the various NNI agencies, with $424 million in 2011. 
        (Harvey, 2011)
--  U.S. companies spent a total $3.2 billion on nanotech-related 
        research and development in recent efforts. (Harvey, 2011)
--  From January 2008 to July 2010, U.S. venture capitalists invested 
        nearly $1.3 billion in nanotech-related startups (Harvey, 2011)
--  Corporations (i.e., 3M and IBM), researchers, and private equity 
        investors funded the National Nanotechnology Initiative, 
        funneling billions of dollars into nanotech and attributing to 
        thousands of patents filed on nanotechnology in 2009. 
        (``Ranking the Nations on Nanotech: Hidden Havens and False 
        Threats'', LUX Research, 2010)
--  The top 4 nanotechnology ``economy-established'' states, reported 
        on parameters established by the Project on Emerging 
        Nanotechnologies, are: California, Massachusetts, New York, and 
        Texas. (Project on Emerging Nanotechnologies, 2011)
--  All 50 states and the District of Columbia have at least one 
        company, university, government laboratory, or organization 
        working in the field of nanotechnology. (Project on Emerging 
        Nanotechnologies, 2011)
--  The top 6 Nano Metros (also based on criteria from the Project on 
        Emerging Nanotechnologies) are: Boston; San Francisco; San 
        Jose, Calif.; Raleigh; Middlesex-Essex, Mass.; and Oakland, 
        Calif. (Project on Emerging Nanotechnologies, 2011)
--  The number of U.S. universities and government laboratories working 
        in nanotechnology is still substantial, with 182 identified as 
        of 2011. (Project on Emerging Nanotechnologies, 2011)

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                    State-Specific Nanotech Programs

Oklahoma NanoInitiative
    The Oklahoma Nanotech Initiative (ONI) is a project coordinated by 
The State Chamber of Oklahoma and funded by the Oklahoma Center for the 
Advancement of Science and Technology (OCAST). In 2006, Oklahoma had 
over 50 scientists who were doing research in the nanotech field. The 
program appears weaker than its inception in 2005. Nearly all of the 50 
Oklahoma-based companies with product lines involving nanotechnology 
are still in business since the initiative began. They cover a broad 
range of applications including medicine, sporting goods, cosmetics, 
textiles and optics.
    In 2006, state legislation pushed the Oklahoma Nanotechnology 
Sharing Incentive Act established the Oklahoma Nanotechnology 
Applications Project (ONAP) which provides $2 million to state efforts 
(Oklahoma Nanotech Initiative) to be used to promote and provide 
incentives to further ``applications of nanotechnology''. The ONI 
program has proved successful: ``for the last three years, the return 
on the state's investment has been about 37 to one--for every dollar 
the state spent, we brought $37 into the state.'' (Fairchild, 2010). 
The state also created ``nano technician'' jobs and education, as 
courses at universities and community colleges include: Nano 
Instrumentation, Nanotechnology and MEMS. The Oklahoma State Dept. of 
Career and Technology and OSU Okmulgee are partnered on an NSF grant to 
create the Oklahoma Nanotechnology Education Initiative that is 
currently being rolled out. Additionally, this nanotech initiative also 
has some of the most comprehensive K-12 education tools/multimedia in 
the country.
    Notable, recently funded companies and research efforts include: 
Southwest Technologies (high-volume CNT production); Charlesson 
(improved eye disease drops); Amethyst Research (hydrogenation process 
for fire fighting, thermal mapping and border security); Caltech Global 
(hydrogen sulfide granular scavenging for oil/gas/landfill gas 
filtration); NanoBioMagnetics (drug delivery); University of Tulsa 
(nanobatteries); OK State U has $51 million nanotech center, 40 
faculty/staff, and 100 grad students (nanofood/ag; nanowires, energy).
    http://www.oknano.com/research.html
    http://www.oknano.com/oklahoma_companies.html
    http://www.ok.gov/ocast/Programs/
Oklahoma_Nanotechnology_Applications_
Project_%28ONAP%29/index.html

Texas NanoInitiative
    Dallas/North Texas initiatives developed after donations to the 
University of Texas at Dallas to create the Alan G. MacDiarmid NanoTech 
Institute. The donor was the founder of Zyvex Labs, claimed the world's 
first nanotech company. Several large corporations in the area have 
since started nanotech programs in the area including: Texas 
Instruments, Raytheon, and Lockheed Martin. These companies have 
initiated these programs in the local universities, rather than 
internally, to reduce R&D financial risks.
    VCs invested $57 million in Texas-based nanotech companies (Harvey, 
2011). From April 2006 to October 2010, the state-run Texas Emerging 
Technology Fund (ETF) funded about $22 million in grants for 
nanotechnology-related research at Texas universities (Harvey, 2011). 
During the same period, the ETF invested about $14.6 million in 
companies (Harvey, 2011) looking to commercialize nanomedicine, 
nanoelectronics, and nanomaterials products.
    Major university players and associated projects/applications: U of 
Texas-Dallas (CNT airplane paint, superconductive power cables, Solarno 
PV spin-out, CNT artificial muscles); U of Texas--Arlignton (solar cell 
coatings, medicine toxicity/reaction biosensors).
    http://www.dmagazine.com/Home/D_CEO/2011/January_February/Technolo
gy_Issue/North_Texas_Research_Pushes_Future_of_Nanotechnology.aspx?p=1

Colorado Initiatives
    The Colorado Nanotechnology Alliance is not-for-profit economic 
development organization governed by a strong board of directors whose 
core represents nanotechnology companies in the state. The Alliance has 
more than 75 companies which employ 19,000 workers at an average salary 
$55,720.
    CU-Boulder has emerged as a significant academic nanotech player. 
The Nanoscale Science and Technology for Integrated Micro/Nano-
Electromechanical Transducers (iMINT) was built on a DARPA grant and 
now has more than $2.5 million in research funding from the govt, 
Lockheed Martin, GE and Raytheon (Nanotechnology Now, 2008). More than 
100 faculty in engineering, biology, chemistry, physics, dentistry, 
pharmacy, and medicine from CU-Boulder and the Anschutz Medical Campus 
in Denver are involved in micro/nano technology research in some way. 
(Nanotechnology Now, 2008).
    Major university players and associated projects/applications: CU 
at Boulder (electronics thermal management, nanoscale characterization, 
melanoma detection); ITN Energy (solar); Colorado State University 
(extreme UV pulse lasers); CO School of Mines (works 100+ companies in 
materials processing research).
    http://www.coloradonanotechnology.org/home/index.php
    http://www.colorado.gov/cs/Satellite/OEDIT/OEDIT/1167928387048
    http://ncf.colorado.edu/?p=news&sub=tinytech&id=63

California Initiatives
    The state has fragmented nanotechnology efforts. One of the state's 
main areas is in nanomaterial safety and hazards, under the California 
Department of Toxic Substances Control, which is partnering on these 
efforts with the U.S. EPA. The Northern California Nanotechnology 
Initiative, NCnano, is an economic development initiative focused on 
developing the nanotechnology and the nano-bio-IT convergence 
technology economy of Northern California. Started in 2003, the 
Initiative's goals included bringing $6B in nanotechnology investment/
grant money to the areas and to create 150,000 new local jobs (North 
California Nanotechnology Initiative).
    The state's nanotech efforts are dominated by the universities. 
Every major state university has nanotechnology centers, as do notable 
private institutions. The California Institute of Nanotechnology offers 
training and commits research entirely in the nanotechnology field. The 
center works with the Cleantech Institute in the areas of renewable 
energy and clean tech. The Institute is primarily working in energy 
storage (novel batteries and fuel cells) as well as drug delivery 
mechanisms.
    The national labs of Sandia and Lawrence Berkeley both have 
extensive nanotechnology programs in the particular areas of CNTs, 
nanocomposite alloys, and nanoporosity, and a molecular foundry focused 
on energy, respectively. Other university research efforts of note 
include: University of South CA (nanowires, graphene thin films); UC of 
Santa Barbara (NSF funded ``nanotech in society'' center which studies 
politics, economics, etc.); $100 million funded UCLA's NanoSystems 
Institute has $350 million in research and development grants from 
industry (nanotoxicology, carbon dioxide capture, drug delivery) (The 
New York Times, 2009); Librede (drug screening); NanoH<INF>2</INF>O 
(reverse osmosis/filtration); QuantumSphere (battery material 
enhancement); and CFX Battery Inc. (lithium ion batteries).
    http://www.ncnano.org/
    http://www.dtsc.ca.gov/TechnologyDevelopment/Nanotechnology/
nanoport.cfm
    http://www.dtsc.ca.gov/TechnologyDevelopment/Nanotechnology/
nanopartners
.cfm
    http://www.cinano.com/Training/index.html
    http://dealbook.nytimes.com/2009/07/16/californias-glimmer-of-hope-
nanotech
nology/
    http://foundry.lbl.gov/

New York Initiatives
    In 2010, the Empire State Development (ESD) and the New York State 
Foundation for Science, Technology and Innovation (NYSTAR) today 
announced the merger of two of New York State's Centers of Excellence-
Infotonics Technology Center (ITC) in Canandaigua and the Center of 
Excellence in Nanoelectronics and Nanotechnology at the College of 
Nanoscale Science and Engineering (CNSE) in Albany. Empire State 
Development and NYSTAR will invest up to $10 million to the merged 
operation, the Smart System Technology & Commercialization Center 
(STC), which will be managed and supported by CNSE.
    CNSE's Albany NanoTech Complex has $7 billion in investments and is 
an 800,000-square-foot complex (College of Nano Science and 
Engineering, University of Albany). The UAlbany NanoCollege houses the 
only fully-integrated, 300mm wafer, computer chip pilot prototyping and 
demonstration line within 80,000 square feet of Class 1 capable 
cleanrooms (``New York State Announces . . .'', Nanowerk, 2010). More 
than 2,500 staff the complex, from companies including IBM, AMD, 
GlobalFoundries, SEMATECH, Toshiba, Applied Materials, Tokyo Electron, 
ASML, Novellus Systems, Vistec Lithography and Atotech. A new goal is 
to expand the complex to 1,250,000 square feet of next-generation 
infrastructure housing over 105,000 square feet of Class 1 capable 
cleanrooms and more than 3,750 staff. In a $10 million joint 
development project, Apic Inc.'s photonics systems and devices will be 
combined with the CNSE's nanoelectronics resources, to result in at 
least 20 jobs over the next 18 months (College of Nano Science and 
Engineering, University of Albany). Moser Baer Technologies is 
investing more than $17 million at CNSE, acquiring state-of-the-art 
equipment for the pilot production line, creating more than 50 high-
tech jobs by 2013 (Smart Systems Tech, 2011).
    The Infotonics Technology Center of Excellence in Photonics & 
Microsystems is a technology commercialization center that maintains 
140,000 square-foot with over 25,000 square feet of cleanrooms for MEMS 
fabrication and packaging (``New York State Announces . . .'', 
Nanowerk, 2010). ITC works with industrial participants such as Corning 
Inc., Eastman Kodak Company, and Xerox Corporation. Academic 
participants include approximately twenty New York State colleges and 
universities, including the Rochester Institute of Technology and the 
University of Rochester.
    Notable research/commercial entities include: CNSE U of Albany (PV 
control/monitoring center, photonic integrated circuits, solid state 
lighting); IBM of Yorktown Heights (CNT); Rensselaer Polytechnic 
Institute (thin films novel planarization and metallization); Auterra/
Applied Nanoworks (specialty inorganic compounds); NanoMas 
(nanoparticles for printed electronics). Full database of NY research 
in nanotechnology:

    http://www.nystar.state.ny.us/rsch/nanotech.htm
    http://www.nanowerk.com/news/newsid=18133.php
    http://www.nylovesnano.com/industry/industry.php?m=5
    http://www.nynanobusiness.org/
    http://www.research.ibm.com/nanoscience/
    http://cnse.albany.edu/WorldClassResources.aspx
    http://cnse.albany.edu/LeadingEdgeResearchandDevelopment/
ResearchProfiles/
ProfilesArchive.aspx
    http://dpwsa.electroiq.com/index/display/photovoltaics-article-
display/247846
2125/articles/Photovoltaics-World/industry-news/2011/6/cnse-nanotech-
complex-plans-pv-control-center.html
    http://www.itcmems.com/news_June.html

Washington Initiatives
    The Washington Technology Center, Avogadro Partners, LLC, the 
University of Washington, Washington State University and Battelle's 
Pacific Northwest National Laboratory, with seed funding sponsored by 
Senator Maria Cantwell, have come together to launch the Washington 
Nanotechnology Initiative (WNI). The state has many expectations for a 
nanotechnology economy that are complementary to its current 
infrastructure. The graphs below show trends that exist or are 
anticipated in the state.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Microfabrication Lab Revenues (Washington Technology Center, 
        2005)

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        (Washington Technology Center, 2005)

    Notable research efforts: U of Washington (malaria testing, 
biomaterials, jointly work with PNNL).
    http://www.watechcenter.org/resources/washington-nanotechnology-
initiative
    http://www.avogadro.us/news/2005/05/new-washington-state-
nanotechnology
.html

South US/Georgia/NC Initiatives
    The National Science Foundation's National Nanotechnology 
Infrastructure Network has two facilities in the South: the 
Microelectronics Research Laboratory at Georgia Institute of 
Technology, and the Microelectronics Research Center at the University 
of Texas-Austin. The National Cancer Institute's Centers of Cancer 
Nanotechnology Excellence include the Nanotechnology Center for 
Personalized and Predictive Oncology, which is an Emory University-
Georgia Tech partnership, and the Carolina Center of Cancer 
Nanotechnology Excellence at the University of North Carolina.
    http://www.techjournalsouth.com/2010/11/coin-seeks-materials-from-
nc-nanotech
-firms-for-dc-conference/

Ohio Initiatives
    The Center for Multifunctional Polymer Nanomaterials and Devices 
(CMPND) was formed as a research and commercialization partnership in 
polymer nanotechnology. Centered at The Ohio State University, CMPND 
works with the University of Akron and the University of Dayton, three 
additional Ohio universities, 50 large and small Ohio companies, the 
National Composite Center, polymer organizations and national labs, all 
situated in Ohio. CMPND was awarded $22.5M from the State of Ohio Third 
Frontier Project and in return will contribute more than a total of 
$78M toward nanotechnology research and commercialization. CMPND seeks 
to have a statewide economic impact by expanding existing business and 
creating and retaining more than 5,000 high-paying `white collar' jobs 
and 20,000 to 25,000 skilled manufacturing jobs (Center for 
Multifunctional Polymer Nanomaterials and Devices).
    Over 50 small and large companies, serving the industries of 
automotive, aerospace, biomedical, consumer products, electronics, and 
materials engineering; have contributed nearly $49 million of support 
to develop CMPND. The Universities (OSU, UD, UA, KSU, UT and WSU) have 
added additional support of over $28 million, providing support to 
CMPND totaling more than $77 million, over three years (Polymer Ohio, 
2004). Along with names such as Honda, Delphi, Goodrich, Lockheed 
Martin, Goodyear Tire, MeadWestvaco, Boeing, Ashland, AES/Exxon Mobile, 
Milacron, Noveon, and Timken on the list, are the large companies of 
Ohio 's future: Applied Sciences, Cornerstone Research (R&D services), 
Nanosperse (design services), Maverick (hi-temp materials), Nanofilm 
(thin films for glass coatings and stain proofing), Sajar Plastics 
(injection micro-molding), Vector Composites (advanced composites), and 
WebCore Technologies (core composites).
    http://www.polymerohio.org/download/pdf/NanoVer2.pdf
    http://cmpnd.org/
index.php?option=com_content&view=article&id=45:polymer-industry-is-
ohios-largest-at-49-billion&catid=1:latest-news&Itemid=50

Pennsylvania Initiatives
    The Pennsylvania Initiative for Nanotechnology (PIN) is a statewide 
strategy that currently combines the efforts of the Pennsylvania 
Department of Community and Economic Development (DCED), the 
Commonwealth's research universities, the Pennsylvania State System of 
Higher Education, over 125 companies, and economic development 
organizations. PIN is leveraging Pennsylvania's clusters of research, 
industry, and workforce development assets to make Pennsylvania a 
global leader in nanotechnology research, commercialization and 
economic development activities. Using worldwide forecasts, 
Pennsylvania is projected to produce at least $7.75 billion worth of 
nanotechnology products by 2015 (Pennsylvania Commonwealth).
    The Pennsylvania NanoMaterials Commercialization Center is making 
available $700,000 in funds. The Center invites Pennsylvania university 
researchers and companies to submit proposals for funding early-stage 
commercialization of nanomaterial research for energy applications. The 
Center is particularly interested in technology development focused on 
renewable, clean and efficient energy solutions. The Center was founded 
in 2006 under the auspices of the Pittsburgh Technology Council by a 
consortium of four western Pennsylvania companies; Alcoa Technology, 
Bayer MaterialScience, PPG Industries and U.S. Steel. Today, the Center 
enjoys partnerships with Carnegie Mellon University, University of 
Pittsburgh, Penn State University, Lehigh University, the Department of 
Community and Economic Development for the Commonwealth of 
Pennsylvania, Air Force Research Labs and approximately 300 companies, 
organizations and individuals involved in nanotechnology.
    Since 2007, the Pennsylvania NanoMaterials Commercialization Center 
has provided seed grants to 15 companies to support 19 early stage 
prototype development projects using nanotechnology and three pre-
commercialization projects with universities. The total public 
investment has been $4,191,582, which has been matched by the recipient 
companies in the amount of $2,994,388. Recipients reported the 
following economic impact from this investment: 115 jobs created and 
retained, $43,219,000 leveraged investment by companies due to the 
Center's funding, and 17 new patents filed (NanoVIP, 2010).
    Notable research projects include: U of Penn (monitoring molecular 
motions, single molecule probes, biomolecular optoelectronics); Penn 
State U (buckyballs, acoustic tweezers, nanodomes, strong in nano 
education); Carnegie Mellon (atom transfer radical polymerization, 
conductive organic materials, magnetic nanocrystals); Metalon Inc. 
(molecular inks); Illuminex (Si nanowire solar equipment).
    http://www.gonano.psu.edu/facts/
    http://www.newpa.com/build-your-business/key-industries/high-
technology/nano
technology
    http://www.pananocenter.org/nano-center-about.aspx
    http://www.nanovip.com/pa-nanocenter-awards-250k-to-pa-based-
nanotechnology-companies-releases-industry-impact-data.html

Massachusetts Initiatives
    Most data, groups and websites are available before 2005. Here is 
what they started their initiative with. Massachusetts had over 100 
self-identified nanotechnology firms and over $110 million in venture 
capital was invested in nanotechnology firms in 2003. The existing 
industries of bio/pharma, medical devices, semiconductor equipment, and 
material innovations drove clusters within the nanotech start-ups. The 
state also has major nanotechnology research centers at most university 
campuses, and three of these are National Nanotechnology Initiative 
Centers of Excellence: MIT Soldier Nanotechnology Center, Harvard 
Center for the Science of Nanoscale Systems and their Device 
Applications, and Northeastern University/UMass Lowell/University of 
New Hampshire Nano Science & Engineering Center.
    http://www.masstech.org/mni/

Florida Trends
    Florida is also making strategic investments in the new and 
promising field of nanotechnology. The nanotechnology cluster in 
Florida includes at least three dozen companies. In addition, Florida 
universities are also busy building the infrastructure needed to 
conduct high-quality R&D in the field.
    http://www.eflorida.com/ContentSubpage.aspx?id=316
    Why the nanotechnology market is not necessarily worth $1.5 
trillion now: An article by Nanowerk regarding whether the market 
report numbers available on the industry thus far have been inflated.
    Estimates of the global nanotechnology market in 2010 ranged from 
about $15.7 billion to $1 trillion. By 2015, the market may be worth 
more than $2.4 trillion, according to different analysts. These 
differences reflect not only different analytical methods and 
assumptions, but also different definitions of the nanotechnology 
market (e.g., whether to include decades-old technologies such as 
carbon black rubber reinforcers and photographic silver, or whether to 
base the market value on nanotechnology inputs alone, as opposed to the 
total value of products that incorporate nanotechnology).
    In the latest Lux report, a trusted source amongst the 
nanotechnology industry, a pragmatic decision was made to exclude 
certain types of materials and devices from the report that technically 
fit the definition of nanotechnology. These exceptions include carbon 
black nanoparticles used to reinforce tires and other rubber products; 
photographic silver and dye nanoparticles; and activated carbon used 
for water filtration. These materials were excluded because they have 
been used for decades, long before the concept of nanotechnology was 
born, and their huge volumes (especially carbon black and activated 
carbon) would tend to swamp the newer nanomaterials in the analysis.
    Nanoscale semiconductors are also excluded from the study, although 
the tools used to create them are included. Unlike carbon black and 
activated carbon, nanoscale semiconductors are a relatively new 
development. However, they have been analyzed comprehensively 
elsewhere, and like carbon black and activated carbon, would tend to 
overwhelm other nanotechnologies by their sheer volume in the out-years 
towards 2015.
    http://www.nanowerk.com/spotlight/spotid=1792.php

Market Opportunities
    Applications of Most Promise:

  (1)  Thin films in solid state devices (i.e., energy, lighting, 
        semiconductors)

  (2)  Surface treatments/functionalizations (i.e., wet/stain proofing, 
        improving cell/DNA/molecular particle adhesion)

  (3)  Drug delivery

  (4)  Semiconductors/memory devices

  (5)  Wireless sensor networks (i.e., dust nodes)

  (6)  Printed/flexible electronics

  (7)  Smart textiles

    Other opinions--The following list provides applications of 
nanotechnology the Oklahoma Nano Initiative anticipated to be of great 
commercial success, by year ranges:

  <bullet>  2004-7 burn and wound dressings, water filtration devices, 
        paints, cosmetics, coatings, lubricants, textiles, memory/
        storage devices

  <bullet>  2008-10--medical diagnostics, displays, sensors, drug 
        delivery, composite materials, solid state lighting, bio-
        materials, nano arrays, more powerful computers, protective 
        armor, chem-bio suits, and chem-bio sensors

  <bullet>  2011-15--nanobiomaterials, microprocessors, new catalysts, 
        portable energy cells, solar cells, tissue/organ regeneration, 
        smart implants

  <bullet>  2016 and beyond--molecular circuitry, quantum computing, 
        new materials, fast chemical analyses

    (Oklahoma Nano Initiative)

    Big Players:

    Almost every technology based Fortune 100 company has some 
nanotechnology initiative. Several of these corporations have in-house 
venture arms or other mechanisms that would seek out nanoscale 
technology research from any source. Here are the larger players and 
what domain their nanotechnology programs belong to. That is then 
followed by specific profiles of companies with very specific, yet 
unique nanotechnology product lines.

    Defense/Security:

  --  Lockheed Martin

  --  Raytheon

    Health/Food/Cosmetics:

  --  Proctor & Gamble

  --  Kraft

  --  Nestle

  --  GlaxoSmithKline

  --  Johnson & Johnson

  --  Unilever

  --  Amgen

  --  Baxter

    Consumer Electronics:

  --  NEC

  --  Xerox

  --  Microsoft

  --  Nokia

  --  Fujitsu

  --  HP

  --  Canon

  --  Philips

  --  Samsung

  --  HItachi
    Semiconductors/Mfg Equipment:

  --  ST

  --  Intel

  --  Texas Instruments

  --  Lucent Technologies

  --  AMD

  --  ASML

    Chemicals:

  --  Sumitomo

  --  BASF

  --  Dupont

  --  Dow

  --  Degussa

  --  Cabot

  --  Air Products

  --  Praxair

    Agriculture:

  --  Monsanto

    Energy:

  --  ExxonMobil

  --  ConocoPhillips

  --  ChevronTexaco

  --  Siemens

  --  GE

  --  Mitsubishi

    Consumer Products:

  --  Wilson

  --  Easton

    Transportation:

  --  GM

  --  DaimlerChrysler

  --  BMW

  --  Caterpillar

  --  Boeing

Specific Corporate Nanotechnology Product Profiles
    Raytheon--Along with partners, DuPont and Partners Healthcare, 
Raytheon currently sponsors the Institute for Soldier Nanotechnology at 
Massachusetts Institute of Technology. They act as liaison to the 
Institute's Network Centric Systems group. The collective group is re-
designing body armor materials to mimic the iron sulfide rich, uniquely 
structured shell of particular snails.
    http://www.raytheon.com/newsroom/technology/rtn10_snail_armor/
index.html
    ExxonMobil--Sarnoff Corporation entered a five-year strategic 
agreement with ExxonMobil Research and Engineering Company (EMRE), in 
2005, to commercialize EMRE's groundbreaking portfolio of mesoporous 
materials. Sarnoff was tasked to market outside of the petrochemical 
industry. The materials, which include novel high surface area silicas, 
were among the first nanomaterials ever created and have been 
commercialized by ExxonMobil for its own use.
    http://www.nanotech-now.com/news.cgi?story_id=12688
    BMW--BMW established a group of a dozen plus materials scientists 
to scan the field of nanotechnology and its applications in various 
industries. The idea was to initiate projects which would lead to the 
use of nanotechnology in BMW automobiles. That resulted in BMW 
applyings applications of nanotechnology in some models. There are now 
rear window systems in the 5 and 7 series cars which feature a 
``nanolayer laminate.'' This ultra thin layer helps reflect the heat of 
the sun while at the same time allowing in electromagnetic signals for 
telephone and other applications.
    Johnson & Johnson--J&J concentrates on the areas of kidneys, 
diabetes, and cardiovascular systems and is looking towards 
nanotechnology for personalized medicine applications. J&J's biopharma 
interests include the areas of trophic, restore/replace, small 
molecules, and biological organisms. J&J recently invested in nanotech 
and in particular, start-up, Vesta Organano, though their partnership 
is not fully disclosed on all details.
    http://organano.com/
    Kraft--In 2000, Kraft Foods began sponsoring the NanoteK 
Consortium. The members of the Consortium include researchers from 15 
universities, three national labs and three start-up companies. Harvard 
University, the University of Nebraska, the University of Connecticut, 
Los Alamos and Argonne National Laboratories, the Universities of 
Seville and Malaga in Spain and Uppsala University in Sweden are some 
of the institutions involved in this collaboration. Some of the 
research areas identified by the consortium members are the development 
of low cost sensors that detect the presence of foodborne pathogens, 
filters for removing undesirable compounds from foods and beverages, 
and nanoparticles to store flavors and nutrients inside food and 
release them at designated organs in the body when they are needed.
    Nestle--Nestle's research center in Switzerland assigned a group of 
scientists to investigate the potential benefits of nanotechnology for 
food systems. Nestle was exploring nutraceuticals--nano-capsules that 
deliver nutrients and antioxidants to specific parts of the body at 
specific times. The technology turns previously insoluble nutrients 
into nano-sized particles that can be released into the body and 
properly absorbed, with big potential benefits for a whole new kind of 
health food.
    Lockheed--Lockheed Martin has had a corporate focus on 
nanotechnology for the past 7 years which has helped shape the 
development of nanotechnology applications in all of its four Business 
Areas. Nanotechnology is one of 15 strategic technology threads in 
Lockheed Martin which focus on technologies that enable strategic 
growth. There is an on-going corporate funded project to develop ultra 
light weight structures. This project includes the development of 
processes for growing carbon nanotubes and testing new substrates and 
materials. The expected outcome is higher performance, lighter weight, 
and lower cost materials for many of our subsystems. Furthermore, the 
company is hiring the best and the brightest in this space, creating 
job titles with ``nanotechnology'' in the name and job expectations.
    Caterpillar/Firefly Energy--In 2006, in a hushed deal between 
Caterpillar and Firefly Energy, a joint venture was struck to develop a 
battery comprised of an electrical current collector constructed of 
carbon or lightweight graphite foam. This foam exhibited a sizeable 
increase in surface area for chemical reactions to take place and 
eliminated the need for heavy lead plates found in traditional 
batteries. The graphite material resists corrosion and sulfation build-
up, thus contributing to longer battery life and is lighter in weight 
than today's lead acid batteries. The nanotechnology application at 
Firefly Energy pertains to the battery's grid coating process, which 
refers to the nanoscale nature of the coating.

Technology Background
Nanotechnology `Formats' Basics
    While each format of nanotechnology harbors different mechanical, 
optical and electrical properties, their cost to produce and 
feasibility of scale-up varies just as much. These unique formats with 
different process procedures include:

  (1)  Nanotubes (i.e., Carbon Nanotubes [CNT])

  (2)  Nanoparticles

  (3)  Thin films

  (4)  Self-assembled monolayers

  (5)  Sol-gels

    http://www.nanomagazine.co.uk/
index.php?option=com_content&view=article&
id=824&Itemid=139

  (6)  Nanocomposites

  (8)  Nanotools (i.e., nanolithography tools and scanning probe 
        microscopes)

  (9)  Nanodevices (i.e., nanosensors and nanoelectronics)

Commercialization Hurdles and Risks
  --  Manufacturing/scale-up is a challenge for nanotechnologies--Thin 
        films/surface treatment deposition techniques are often 
        expensive because they require large vacuum chambers and/or 
        complex chemical/gas vapor management systems. In high volume, 
        large surface area applications, the scale up of chambers and 
        vapor systems can increase costs by at least one order of 
        magnitude. Furthermore, such geometrically limited systems with 
        low vacuum pressure requirements, cannot accommodate the cost-
        effective manufacturing that is afforded by roll-to-roll 
        production. Other production complications are due to the sheer 
        scale-up of producing nanoscale products. Lastly, metallic and 
        ceramic nanoparticles are very difficult to produce in 
        uniformity, and are especially difficult to uniformly produce 
        in high volume manufacturing.

  --  Nanoscale devices operate in a new realm of physics. Known as 
        ``scaling phenomena'', scientists cannot predict how these 
        devices will operate when compared to macroscale systems. 
        Simulations and modeling techniques are still under 
        investigation as researchers delve further into 
        nanotechnologies.

  --  There are a number of FDA hurdles for nanoparticles, as the only 
        nanoparticles approved by the FDA for commercial use are 
        Dendrimers, a particular type of polymer-based nanoparticle 
        with a limited scope of attributes. The main reason by the FDA 
        for slow approval of all nanoparticles refers to the first 
        complication of unreliable uniform production. Any metallic or 
        ceramic nanoparticle is susceptible to poor uniformity in bulk 
        production, and if these particles should be less than 100 
        nanometers in diameter, FDA staff are not sure of the 
        consequences of live cells/tissue. The FDA fears that sub-100 
        nm particles could interact with DNA and/or cause cell damage.

  --  Because of many of the above hurdles regarding unknown 
        information on the technology, nanotechnology product 
        development cycles are very long.

  --  Venture capitalists, who typically invest in early stage start-
        ups, especially from university resources, are investing in 
        nanotech, but not aggressively, due to the long cycles it takes 
        from discovery to commercial viability.

  --  The U.S. stronghold on R&D talent across all science and 
        technology fields is diminishing. Compared to other developed 
        countries, students in the areas of science and technology are 
        not performing as well in their subjects are their peers in 
        other nations. Also, the number of graduates with tertiary 
        science and engineering degrees per capita in the U.S. is among 
        the lowest of the developed countries--less than half of that 
        of Taiwan, South Korea, and Singapore, and less than one-third 
        the amount in Russia--which is a grave concern for the US's 
        technology development strength in the long-term. (``Ranking 
        the Nations on Nanotech: Hidden Havens and False Threats'', LUX 
        Research, 2010)

Additional Resources/Sites
    http://science.house.gov/sites/republicans.science.house.gov/files/
documents/hear
ings/Tour%20Testimony.pdf
    http://www.nanotechproject.org/inventories/map/
    http://www.nanotechproject.org/news/archive/
putting_nanotechnology_on_
map/
    http://2020science.org/2011/01/04/us-national-nanotechnology-
initiative-draft-ehs-strategy-good-in-part/
    http://knowledge.wharton.upenn.edu/article.cfm?articleid=1413
    http://crnano.typepad.com/crnblog/2007/02/nanotechnology.html
    *** http://www.electroiq.com/articles/stm/2010/08/ranking-the-
nations.html
    http://www.austrade.gov.au/Invest/Opportunities-by-Sector/Advanced-
Manufac
turing/Nanotechnology/default.aspx
    http://grouper.ieee.org/groups/nano/initiatives.htm
    http://www.technologyreview.com/computing/13533/
Bibliography
    BCC Research. ``Nanotechnology: A Realistic Market Assessment''. 
Available from: http://www.bccresearch.com/report/NAN031D.html 
[Accessed: 08/07/2011]. July, 2010.
    California Institute of Nanotechnology. http://www.cinano.com/
index.html [Accessed: 08/07/2011]. 2009.
    Center for Multifunctional Polymer Nanomaterials and Devices. 
``Polymer Industry is Ohio's Largest, at $49 Billion''. http://
cmpnd.org/index.php?option=com_con
tent&view=article&id=45:polymer-industry-is-ohios-largest-at-49-
billion&catid=1:late
st-news&Itemid=50 [Accessed: 08/07/2011]. 2011.
    College of Nanoscale Science & Engineering University of Albany. 
http://cnse
.albany.edu/WorldClassResources.aspx [Accessed: 08/07/2011]. 2011.
    Colorado Nanotechnology Alliance. ``Doing Business in Colorado''. 
CO Nano Roadmap. Available from: http://www.coloradonanotechnology.org/
home/index.php?opt
ion=com_content&task=view&id=16&Itemid=28 [Accessed: 08/07/2011]. 2011.
    Colorado Official State Web Portal. ``Nanotechnology''. Office of 
Economic Development and International Trade. http://www.colorado.gov/
cs/Satellite/OEDIT/OEDIT/1167928387048 [Accessed: 08/07/2011]. 2011.
    Commonwealth of Pennsylvania. ``Pennsylvania Initiative for 
Nanotechnology''. http://www.newpa.com/build-your-business/key-
industries/high-technology/nano
technology [Accessed: 08/07/2011]. 2011.
    DiChristina, M. ``Big Plans for Nanotechnology in Russia''. 
Scientific American. Available from http://www.scientificamerican.com/
blog/post.cfm?id=big-plans-for-nanotechnology-in-rus-2011-05-30 
[Accessed: 08/07/2011]. May 30, 2011.
    Enterprise Florida. ``Nanotechnology''. http://www.eflorida.com/
ContentSubpage
.aspx?id=316 [Accessed: 08/07/2011]. 2011.
    ETC Group. ``Nanogeopolitics 2009: The Second Survey''. Available 
from: http://www.lawbc.com/other_pdfs/00048599.PDF [Accessed: 08/07/
2011]. July, 2009.
    Fairchild, P. ``Nanotechnology: The Art and Science of Manipulating 
Matter''. Distinctly Oklahoma. Available from: http://
distinctlyoklahoma.com/science/nanotech
nology-the-art-and-science-of-manipulating-matter/ [Accessed: 08/07/
2011]. August 1, 2010.
    Flanagan, J. ``Collaborating for Profits in Nanotechnology''. The 
New York Times. Available from: http://www.nytimes.com/2009/07/16/
business/smallbusiness/
16edge.html?dbk [Accessed: 08/07/2011]. July, 15, 2009.
    Harvey, P. ``Why Small is the New Big North Texas research is 
pushing the future of nanotechnology''. Special Report: DFW Technology 
2011. Available from: http://www.dmagazine.com/Home/D_CEO/2011/
January_February/Technology
_Issue/North_Texas_Research_Pushes_Future_of_Nanotechnology.aspx 
[Accessed: 08/07/2011]. January 4, 2011.
    Haxton, B.M. & F. Meade. ``21st Century Vision: Developing a Global 
Sustainable Science and Technology Park Strategy and Creating Economic 
Development Worldwide''. Available from: http://www.i2sl.org/elibrary/
documents/haxton_meade.pdf [Accessed: 08/07/2011]. 2009.
    IBM Nanoscale Science Department. http://www.research.ibm.com/
nanoscience/ [Accessed: 08/07/2011]. 2006.
    John Adams Innovation Institute. ``Massachusetts Nanotechnology 
Initiative''. http://www.masstech.org/mni/ [Accessed: 08/07/2011]. 
2008.
    Koehler, G. ``Training California's New Workforce for 21st Century 
Nanotechnology, MEMS, and Advanced Manufacturing Jobs'', Workforce 
Learning Initiative, Economic and Workforce Development Program, 
California Community Colleges. 2006.
    LUX Research. ``Ranking the Nations on Nanotech: Hidden Havens and 
False Threats''. Available from: https://portal.luxresearchinc.com/
research/document_
excerpt/6806 [Accessed: 08/07/2011]. August 17, 2010.
    Nanotechnology Now. ``CU-Boulder Wins $1.5 Million Contract To Aid 
In Cooling Of Electronic Devices''. Available from: http://
www.nanotech-now.com/news.cgi?
story_id=29236 [Accessed: 08/07/2011]. May 7, 2008.
    Nanotechnology Now. ``Sarnoff To Commercialize ExxonMobil's Nano 
Materials In Non-Petrochemical Markets''. Available from: http://
www.nanotech-now.com/news
.cgi?story_id=12688 [Accessed: 08/07/2011]. November 28, 2005.
    NanoVIP. ``PA NanoCenter Awards $250K to PA-Based Nanotechnology 
Companies; Releases Industry Impact Data''. Available from: http://
www.nanovip.com/pa-nanocenter-awards-250k-to-pa-based-nanotechnology-
companies-releases-industry-impact-data.html [Accessed: 08/07/2011]. 
December 7, 2010.
    Nanowerk News. ``New York State Announces Unprecedented High-tech/
nanotechnology Initiative''. Available from: http://www.nanowerk.com/
news/newsid=18133
.php [Accessed: 08/07/2011]. September 20, 2010.
    Nanowerk Spotlight. ``Debunking the trillion dollar nanotechnology 
market size hype''. Available from: http://www.nanowerk.com/spotlight/
spotid=1792.php [Accessed: 08/07/2011]. April 18, 2007.
    New York Loves Nano. http://www.nylovesnano.com/index.php 
[Accessed: 08/07/2011]. 2011.
    Northern California Nanotechnology Initiative. http://
www.ncnano.org/ [Accessed: 08/07/2011]. 2003.
    NYSTAR. ``New York State Research Centers by Discipline: 
Nanotechnology/Microelectronics''. http://www.nystar.state.ny.us/rsch/
nanotech.htm [Accessed: 08/07/2011]. 2011.
    Oklahoma Nanotechnology Initiative. http://www.oknano.com/
index.html [Accessed: 08/07/2011]. 2005.
    Pennsylvania NanoMaterials Commercialization Center. ``About the 
Pennsylvania NanoMaterials Commercialization Center''. http://
www.pananocenter.org/nano-center-about.aspx Accessed: 08/07/2011]. 
2011.
    Pennsylvania State University. ``Nano @ Penn State Fast Facts''. 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="753b141b1a3525101b1b">[email&#160;protected]</a> State. http://www.gonano.psu.edu/facts/ [Accessed: 08/07/
2011]. 2011.
    Photovoltaics World. ``CNSE nanotech complex plans PV control 
center''. Available from: http://dpwsa.electroiq.com/index/display/
article-display/2478462125/articles/Photovoltaics-World/industry-news/
2011/6/cnse-nanotech-complex-plans-pv-co
ntrol-center.html [Accessed: 08/07/2011]. June 7, 2011.
    Polymer Ohio. ``Center for Multifunctional Polymer Nanomaterials 
and Devices (CMPND)''. http://www.polymerohio.org/download/pdf/
NanoVer2.pdf [Accessed: 08/07/2011]. 2004.
    Ray, D. ``Smallest Science Becoming Big Industry''. University of 
Colorado-Boulder. Available from: http://ncf.colorado.edu/
?p=news&sub=tinytech&id=63 [Accessed: 08/07/2011]. January 4, 2009.
    Raytheon. ``NCS Engineer Studies Snail's Shell for Soldier Body 
Armor''. Available from: http://www.raytheon.com/newsroom/technology/
rtn10_snail_armor/index
.html [Accessed: 08/07/2011]. March 16, 2010.
    Roco, M.C. & W. Bainbridge eds., ``Societal implications of 
nanoscience and nanotechnology''. National Science Foundation Report. 
Kluwer Academic Publishers, Boston, MA. 2001.
    Sargent, J. ``The National Nanotechnology Initiative: Overview, 
Reauthorization, and Appropriations Issues''. Congressional Research 
Service Report for Congress. Available from: http://www.fas.org/sgp/
crs/misc/RL34401.pdf [Accessed: 08/07/2011]. January 19, 2011.
    Smart System Technology & Commercialization Center of Excellence. 
``Moser Baer Technologies wins $2.9M U.S. Department of Energy Award to 
Enable Green Energy Research and Pilot Production at CNSE's Smart 
System Technology & Commercialization Center of Excellence''. College 
of Nanoscale Science & Engineering University of Albany. Available 
from: http://www.itcmems.com/news_June.html [Accessed: 08/07/2011]. 
June 9, 2011.
    State of California. ``Welcome to the Portal for the California 
Nanotechnology Initiative''. California Department of Toxic Substances 
Control. Available from: http://www.dtsc.ca.gov/TechnologyDevelopment/
Nanotechnology/nanoport.cfm [Accessed: 08/07/2011]. 2007.
    State of Oklahoma. ``Oklahoma Nanotechnology Applications Project 
(ONAP)''. Oklahoma Center for the Advancement of Science and 
Technology. Available from: http://www.ok.gov/ocast/Programs/
Oklahoma_Nanotechnology_Applications_
Project_%28ONAP%29/index.html [Accessed: 08/07/2011]. March 28, 2011.
    The Economic Times. ``India in danger of missing 'nano bus': PM's 
scientific advisor''. Available from: http://
articles.economictimes.indiatimes.com/2011-07-06/ne
ws/29743451_1_nanotechnology-science-fiction-rao [Accessed: 08/07/
2011]. July 6, 2011.
    Washington Technology Center. ``Washington Nanotechnology 
Initiative.'' Available from: http://www.watechcenter.org/sites/
default/files/docs/nanotech_report
fnl_011005.pdf [Accessed: 08/07/2011]. January, 2005.
    Woodrow Wilson International Center for Scholars and the Pew 
Charitable Trusts. ``US NanoMetro Map''. The Project on Emerging 
Nanotechnologies. Available from: http://www.nanotechproject.org/
inventories/map/ [Accessed: 08/07/2011]. 2011.

    Senator Nelson. Thank you, Dr. O'Neal.
    Dr. McLendon?

STATEMENT OF DR. GEORGE McLENDON, HOWARD H. HUGHES PROVOST AND 
            PROFESSOR OF CHEMISTRY, RICE UNIVERSITY

    Dr. McLendon. Thank you, Chairman Nelson and distinguished 
Senators and guests and my distinguished colleagues here. I 
certainly appreciate the opportunity to speak with you today.
    In my career, I've taught thousands of students. I've 
published a number of scientific papers and books and, 
importantly, for what we're talking about today, a number of 
patents that supported the creation of new successful 
businesses. So that's the background that I'm bringing to 
discuss today--how Federally-funded nanotechnology research has 
been leveraged by private investment to produce new 
technologies and new commercial enterprises with 
transformational advances in energy, environment, and medical 
sciences, leading to the creation of new high-quality jobs.
    I'm going to give three examples. I've been at Rice for a 
year, and so my three examples are going to be drawn from one 
university over one year. And then you can do the math to scale 
that. These are Rice technologies, which was spawned by Federal 
funding, each of which led to new commercial enterprises.
    Let me start with energy. Both current and future energy 
technologies depend on the quality of the electric grid. One of 
my Rice colleagues, Matleo Pasquali, at the Smalley Institute 
and in the Department of Chemical Engineering, has partnered 
with private industry to improve the efficiency of the carbon 
nanotubes that some of you spoke of earlier to create much 
higher quality electricity conduction for both local and broad 
grid applications. Those kinds of materials, when fully 
developed, can accelerate and transform development of a smart 
grid. Similar stories could be told for battery technology, for 
solar power, for safe oil and gas recovery, all based on the 
foundation of these materials in nanotechnology.
    Let me turn to an environmental example. Professors Vicki 
Colvin and Pedro Alvarez have developed a nanorust which 
cheaply and safely removes toxic arsenic from water. This has 
been field tested in Guanajuato. It's being used to create safe 
drinking water where none was available previously to those 
folks. Similar approaches will be applicable in water 
remediation in many other contexts.
    As a third example, my colleagues, Jennifer West and Naomi 
Halas, have created nanoparticles which can bind to tumors and 
use light to selectively heat and destroy the tumor while 
minimally affecting surrounding tissue. This breakthrough 
depended on fundamental studies of the optical properties of 
those nanocrystals and resulted in a new venture-funded company 
that has clinical trials currently in progress and is helping 
people right now.
    So my point is that I hope you can see that nanotechnology 
really is remarkable, as Chad said, in its ability to translate 
fundamental discoveries on relatively short time scales into 
commercial practice, which improve lives worldwide and create 
new, high-technology, high-quality jobs right here in America. 
In supporting such research through the National Nanotechnology 
Initiative, we create opportunities to leverage that Federal 
investment. We're creating transformational technologies and 
associated jobs while we're educating the workforce to sustain 
and build on the U.S. lead in this rapidly developing field.
    I might note in passing, for example, that one way in which 
my Texas senator helped was to help create a way of sharing 
equipment across many institutions. The kind of equipment 
that's necessary to do these very difficult experiments would 
be difficult to recreate in many, many places or in many, many 
labs. By sharing that, you leverage that investment. And all 
three examples that I gave you used that kind of shared 
equipment that came out of SPRING funding.
    So at Rice, we've found that these public-private 
partnerships are a dynamic and growing opportunity to create 
new national wealth and global improvements in energy, 
healthcare, and the environment. So as we're all struggling to 
figure out how do we deal with the budgetary issues, one way 
that I would suggest is let's grow the pie rather than figure 
out how to slice it differently. And I hope that the kind of 
examples that I and my colleagues have given show ways in which 
we can grow that pie.
    I'm grateful to acknowledge the fruits of this public 
investment. I thank the citizens who created that public 
investment and thank you for this opportunity to share these 
small stories and for your service to the Nation that we all 
love. And I'll be happy to answer any questions.
    Thank you.
    [The prepared statement of Dr. McLendon follows:]

Prepared Statement of Dr. George McLendon, Howard H. Hughes Provost and 
                Professor of Chemistry, Rice University

    Chairman Nelson, Arkansas Senator Boozman, and Members of the 
Committee,

    I appreciate the opportunity to testify today about the developing 
impact of nanotechnology and the role of Federal support in maintaining 
U.S. leadership in this field. While my brief remarks will focus on 
research, education, and commercialization at Rice University, when 
combined with the testimony of colleagues, I hope you will see a 
picture of the vibrancy and future impact of this critical field.
    My name is George McLendon. I am the Howard H. Hughes Provost and 
Professor of Chemistry at Rice University in Houston, Texas. I have 
published hundreds of articles and hold a number of commercialized 
patents in areas ranging from nanotechnology to oncology. I am 
committed to insuring that the fruits of federally funded research 
translate into commercial products that create jobs at home, and 
improve lives in the U.S. and worldwide.
    In my brief remarks, I will highlight three examples of work from 
Rice University Smalley Institute for Nanoscale Science and Research. 
The Smalley Institute is named in honor of the late Richard Smalley, 
who received the Nobel Prize for the discovery (at Rice) of the 
buckminsterfullerene (a.k.a. C<INF>60</INF>, a.k.a. ``buckyball''). The 
Smalley Institute was the first university research institute devoted 
to nanoscience and nanotechnology, and is ranked among the world's 
best. We draw together colleagues independently from (15) different 
departments at Rice, alongside scientists from industries both large 
and small. The Institute also spawned CBEN, which pioneered 
investigation of biological and environmental implications of 
nanotechnology bringing state of the art research to stakeholders from 
industry to the Environmental Defense Fund. We are also deeply 
committed to translation of basic research to sustainable commercial 
practice, which allows such research to benefit the citizens who have 
supported it.
    Nanotechnology is a foundational technology that can create 
hundreds of thousands of new jobs to make new products and my 
colleagues help create . . . According to a presentation by Clayton 
Teague, former Director of the Federal National Nanotechnology 
Initiative, the nanotechnology industry currently employs over 150,000 
Americans and that number is expected to grow significantly. It is 
estimated that there could be as many as 800,000 jobs in nanotechnology 
by 2015. Nanotechnology can be the major driver of economic growth over 
the next two decades. The U.S. needs to make important decisions now to 
ensure that this growth occurs in the United States where it can be of 
greatest benefit to U.S. citizens who provided the resources to fund 
this technology.
    Rice does this in several ways. First, we have formed direct 
partnerships with major corporations (e.g., Lockheed Advanced 
Nanotechnology Center at Rice--LANCER), which performs basic research 
in support of the technology challenges posed by the state of the art 
(defense) technologies needed by Lockheed Martin. In the course of such 
research partnership, we have also educated over 200 Lockheed 
scientists in the basics of nanotechnology via targeted courses.
    This highlights a critical role of universities in sustaining U.S. 
leadership in nanotechnology: the education of the next generation of 
leaders.
    A second example addresses the U.S. need for energy independence. 
The Advanced Energy Consortium (AEC) includes ten major energy 
companies who support work on nanotechnology which helps increase 
domestic production of hydrocarbon resources, with decreased 
environmental impact: ``greener carbon,'' which ranges from ``down 
hole'' sensing, to advanced drilling technologies to mitigate 
environmental impacts of hydrocarbon production, to remediation of 
water which may be affected by energy production.
    Two specific examples may be germane. Professor Andrew Barron has 
developed ``green muds'' which enhance efficiency of oil by combining 
nano particles into drilling fluids. This technology has spun out into 
an independent company, which is currently producing and selling these 
advanced materials for conventional and unconventional enhanced 
recovery.
    A personal favorite example lies at the interface of chemistry and 
environmental science. Two of my colleagues, chemist Vicki Colvin and 
engineer Pedro Alvarez, are developing nanotechnologies to cheaply and 
safely remediate water pollution. For example in Guanajuato, Mexico 
much well water is hazardous, because of high local arsenic levels. 
Colvin and Alvarez showed how ``rust'' nanoparticles could cheaply, 
safely and effectively remove the arsenic to safe levels, making safe 
local drinking water available for the first time for many people. 
Similar approaches can remediate water, which has come in contact with 
other pollutants.
    Similar stories emerge in health care. My colleague on this panel 
Professor Mirkin, pioneered nanodiagnostics. Similar approaches have 
been further developed and engineered by my Rice colleague, John 
McDevitt, to produce ``labs on a chip.'' Technologies which allow point 
of care diagnostics from AIDS tests to drug screening at a fraction of 
current costs, and in ways that fully integrate health care with IT 
with huge potential. These novel technologies are being commercialized 
by a privately funded start-up, Force Diagnostics. The next generation 
of such technologies will depend on Federal private partnerships to 
reach their full potential.
    A second example draws from my own interest in oncology. Rice 
colleagues Jennifer West and Naomi Halas have used nanochemistry to 
engineer nanoparticles, which absorb light to which our bodies are 
transparent. This absorbed light heats the particles and destroys 
nearby tumors. These inventions have also spurred venture funding of a 
novel start up, and clinical trials are underway.
    Rice has worked diligently in these areas to develop an 
``innovation ecosystem,'' combining state, Federal and private funding 
for entrepreneurship. For example, in the life sciences, we are 
creating, in partnership with the state and private investors, a 
``think tank'' accelerator which combines venture funding, successful 
entrepreneurs and entrepreneurs in training, CRO support and 
foundational and applied science and engineering to serve the Texas 
Medical Center, the world's largest research medical center.
    Federal support for fundamental science is the critical first step 
in such partnerships, which, as noted, can translate these fundamental 
discoveries to commercial practice to provide sustainable social 
benefits.
    I have given only a few examples of many extraordinary advances in 
science and technology developed at Rice. These illustrate an approach 
in which initial government funding is highly leveraged again and again 
by private sector investment to produce new products and services that 
transform lives, whether in creating new energy resources or safer 
drinking water.
    To achieve such goals, the National Nanotechnology Initiative (NNI) 
should be reauthorized to help guide the translation of basic research 
to commercial practice. Currently, the NNI budget supports nanoscale 
science, engineering, and technology research and development (R&D) at 
15 agencies with 10 additional participating agencies. NNI helps to 
align these agencies so that they can work in a coordinated way to move 
this technology from discovery to commercialization. A new 
reauthorization will allow the Federal Government, universities, and 
the private sector to work to find creative ways to bring these 
promising technologies to the market more quickly and economically. In 
the absence of reauthorization, these agencies will be focused in 
different directions and the industry will struggle to transition into 
the next stage while other countries continue to close the existing 
gap.

    Senator Nelson. As I turn to my colleagues for their 
questions, let's get you to--as we want to grow this pie, as 
you say, Dr. McLendon, realizing that we're in a budget crunch 
and realizing that the U.S. got the jump on everybody else 10 
years ago, and we put $14 billion into this over that decade, 
but now we've got a whole bunch of other countries that are 
investing in nanotechnology research--so as we try to grow this 
pie, give us some of your blockbuster examples--so that we can 
disseminate it to the public--of the most important 
technological or market successes in this past decade on 
nanotechnology. Let's just start with you and just go down and 
quickly do it, and then I want to turn to my colleagues for 
their questions.
    Dr. Mirkin. OK. I'll talk about some of the ones that I'm 
very familiar with. So you mentioned at the start diagnostic 
tools, tools that now are commercialized, FDA cleared. Some are 
produced by a company called NanoSphere that I started 10 years 
ago. It's now traded on the NASDAQ. It's a public company, an 
example of roughly $20 million of investment in terms of 
Federal investment. This is a great example of basic research 
at the university level getting translated into hundreds of 
millions of dollars of investment in terms of venture capital--
--
    Senator Nelson. What's an example of a diagnostic tool?
    Dr. Mirkin. A diagnostic tool would be a medical diagnostic 
that would screen you for a disease marker so that we could 
diagnose disease much earlier, catch cancer at its earliest 
stages when you have a chance to treat it and ultimately cure 
it, or to catch the early stages of Alzheimer's disease. So you 
actually have a real diagnostic as opposed to one that is 
subjective or a subjective analysis of how you're behaving. We 
don't have a real diagnostic yet. The nanotech routes are 
actually leading to a real diagnostic, which is exciting. And, 
in fact, there are platforms that are commercialized and ready 
to go now.
    You mentioned prostate cancer. Being able to detect markers 
years earlier than we can with conventional tools is not only 
important for screening, but for looking at recurrence. When 
men have their prostates removed, PSA levels drop to below 
detectable. With these new tools, they're detectable and you 
can now look and see whether somebody's flat-lining and tell 
them they're cured. They don't have to wait 7 years to find 
that out. That takes the weight of the world off their 
shoulders.
    And then the other 52 percent of the people will be slow 
risers, and if you can catch them early, you can say now you 
can try experimental therapeutics, many of which are nano-
based, and you can use the diagnostic to validate those 
therapies. So it's not only going to be new ways of tracking, 
but it's going to lead to new ways of finding really important 
therapeutics that will lead to cures for many types of 
diseases.
    Senator Nelson. OK. Others?
    Dr. Romine. I can give you one significant example in the 
CNST, the Center for Nanoscale Science and Technology. We were 
approached by IBM to gain access to our systems in order for 
them to devise the prototype electronics for their new 
supercomputing capabilities. And so I've actually referenced 
that in the testimony that I have.
    In talking with them, they certainly had the resources that 
they could have used to procure some of the capabilities that 
we had already available at the CNST. But the fact that they 
could gain ready access to our facilities and to the unique 
capabilities that we provided there in terms of collections of 
capabilities, they tell us, cut at least 6 months off their 
development time. And six months, as you know, in the 
development of supercomputing technologies, is a lifetime. And 
so that kind of competitive advantage is something that I think 
the CNST was able to provide.
    Senator Nelson. Dr. Leslie-Pelecky?
    Dr. Leslie-Pelecky. One of my favorite ones I like to talk 
about is because people are hoarding 100-watt incandescent 
light bulbs right now. They're doing that because they don't 
like the way the compact fluorescents make you look. They make 
you look blue and sort of sickly. There's a company, QDVision, 
that's using nanotechnology--quantum dots--to make something 
that you put over the compact flourescent light bulbs that 
would change the spectrum of the light so it would more closely 
mimic natural light. And that's an incredible advantage, 
because if we could get rid of the incandescent light bulbs, 
the energy savings would be enormous.
    Senator Nelson. And to do that cheaply, and it saves a lot 
of electricity. Or are you talking about just something that 
goes over a regular incandescent bulb?
    Dr. Leslie-Pelecky. No. This would actually go over a 
compact fluorescent bulb or even an LED. And so you'd be able 
to use the energy saving technology and you basically wouldn't 
know that it was any different than an incandescent light bulb.
    Senator Nelson. I see.
    Dr. O'Neal?
    Dr. O'Neal. A couple of examples from UCF. There's a 
company we just spun off called Speckle Dot. Speckle Dot--one 
of our faculty members uses nanoscale particles to detect the 
coagulability of blood in real time and non-invasively. So that 
can actually go into the emergency room or in places where you 
can see--when someone has a stroke, and you can see if they 
need to have their blood thinned or thickened or whatever. So 
that really helps save lives. You can do it--bring it into 
operating rooms and really help--really just establish if the 
blood is, how coagulable it is.
    There's another thing called PTR glass, or photothermal-
refractive glass, and it's used to bend light. So it has got a 
lot of communications and things. So you can take lasers and 
you can split the frequencies out and you can broadcast them 
over and put them back together again in kind of a really neat 
way that's a passive device. Really, it's a piece of glass, and 
you can actually put holograms in there and store data. A lot 
of different things you can do. These are all the nanoscale 
particles and glass that make that happen.
    And there are interesting things being done with cerium 
oxide, everything from help with Alzheimer's to, actually, 
increasing the fuel efficiency in diesel. So there are very 
neat applications coming out of a broad range of nanoscale 
particles.
    Senator Nelson. Dr. McLendon?
    Dr. McLendon. I already gave a brief example----
    Senator Nelson. You did. Give us an example before you got 
to Rice. You gave us the ones----
    Dr. McLendon. Right. I'll give you a wonderfully Texas 
example that has to do with creating drilling mud. It turns out 
that to optimize the production of oil and gas, it matters--and 
to do that as safely and effectively and environmentally 
appropriately as possible, it matters enormously what your 
drilling materials are. And building in engineered 
nanoparticles, it turns out, can help you find out what's going 
on in real time and improve the efficiency of that. There's a 
company from Rice that is doing exactly that right now. It has 
huge implications for our energy security.
    One before I got to Rice--I was involved in helping start a 
company in California that uses extremely small amounts of 
picoliters of liquid to move around materials with exceedingly 
high precision. That turns out to be critical to the 
pharmaceutical industry when they need to create libraries of 
compounds that they use to test for new drugs and allows you to 
make copies of those libraries far more cheaply and efficiently 
than was ever possible before. That company now does about $40 
million in business a year, and it's been increasing at 30 to 
40 percent a year. That's a good example of something that came 
from very basic research, turned into something commercial, and 
is growing at a rate that exceeds the rate of growth of the 
U.S. economy by a substantial margin.
    Senator Nelson. Well, thank you for these examples. I 
assume that things like lightweight aircraft of the future is 
another example?
    Dr. McLendon. Absolutely.
    Senator Nelson. OK.
    Senator Rockefeller?
    The Chairman. Thank you, Mr. Chairman. I want to ask three 
questions if I can get away with it.
    The first will be to you, Dr. Mirkin, and you, Dr. Leslie-
Pelecky. You both talked about cancer and you both talked about 
Alzheimer's. I've paid a lot of attention to both. One of the 
extraordinary things is that the great teaching universities, 
including Rockefeller University, I have to say, and Howard 
Hughes Institute, and all these giant research people who have 
been putting hundreds of millions of dollars of research into 
Alzheimer's for years and years have basically hit a brick 
wall. Nothing has really happened. No cure--diagnostics are 
being worked on, but no cure is in sight.
    The same for cancer. And there's an incredible book, 
incidentally--wasting your time--called The Emperor of All 
Maladies, which you ought to read. It just won the Pulitzer 
Prize. It's the best book on cancer that, I think, has ever 
been written.
    But with cancer, let's say you've discovered a little spot 
in the liver. And, traditionally, what you'd do to make sure of 
the whole situation--you do chemotherapy. Then you do 
radiation. Radiation is what I have in mind, because radiation 
goes directly to the spot, wherever that may be, and you may 
pay a hellacious price for that radiation.
    Now, can nanotechnology, through--because you've said it 
can--these gold-plated little tiny particles--can you focus 
that in two ways, one, on the spot in the liver? You talked 
about magnetizing it and then holding it over a certain place. 
Is that like radiation, or is that just identifying it? Is that 
just saying this is a marker?
    Also, in Alzheimer's, one of the big problems is getting 
through the blood brain barrier so that you can put a curative 
medicine, if we had one, on a particular synapses or plaque or 
whatever within the brain. Otherwise, you have to wait until 
the person is dead, really, and then do an autopsy and find out 
what happened, which is not a fast way of doing things.
    So how does nanotechnology apply in each of those two 
examples, potentially?
    Dr. Mirkin. OK. I'll take a crack at that. So those are 
great questions. First of all, you have to recognize these are 
big problems. And so it's, I think, wrong to oversimplify the 
solutions, from our perspective. But the bottom line is much of 
what you're saying is correct. I mean, these are enormous 
challenges. Nanomaterials offer, though, the ability to 
overcome a lot of those challenges.
    We have, for example, the first types of particle 
constructs that will cross the brain blood barrier and affect 
gene regulation in glioblastoma type tumors. That's really 
exciting. That's very, very exciting, because----
    The Chairman. How?
    Dr. Mirkin. Because they're small, and they've been 
chemically modified in such a way that they can pass the brain 
blood barrier by virtue of size and then target the cancer 
cells based upon sticky groups that we've put on them that go 
exclusively for those cells. And the other thing they have is 
the ability to penetrate tissues better than anything that's 
ever been studied before. And that's really exciting, because 
that means if you get things close, they can diffuse to the 
disease site.
    And, for example, for a brain tumor, that's one of the 
problems. One of the reasons the prognosis is so bad is that 
the surgeon can remove the tumor in certain cases, but they 
leave a few cells behind, and it's those few cells that are 
left behind that kills the patient. And so having particles 
that can get in and then diffuse and then selectively target 
those cells and cause them to die and not touch the healthy 
cells is the trick. And there are a lot of promising results, 
in fact, this year that suggest that that is going to happen 
and going to happen soon.
    The problem is even worse, though, than what you say in 
terms of, you know, detecting a little speck. I had a 
colleague--I won't mention her name, but she had a tumor 
growing in her the size of a softball. This is a 34-year-old 
lady. It is amazing that we don't have technologies that can 
tell us that's growing in her--you know, when it's the size of 
a golf ball or a pea, let alone a softball. When she went to 
try to get screened, the only thing they could do was an 
imaging technique, which then, of course, told her that she had 
a softball--there was nothing about the regular checkup that 
would allow you to diagnose that she has something radically 
different from a healthy person and something that big growing 
inside of her.
    We need technologies that allow us to catch these things at 
early stages and therapeutic interventions that allow us to 
ultimately treat them and stop the damage they cause. And 
that's where nanotech is really going to play a role, because 
these materials do things that conventional materials can't do, 
and I mentioned a couple of those in the start of the 
statement.
    The Chairman. Dr. Leslie-Pelecky, my time has run out. So 
can you do this in about 30 seconds?
    Dr. Leslie-Pelecky. Certainly. You talked about radiation, 
for example. There's a number of people who are attaching 
radioactive materials to nanoparticles and then delivering 
those nanoparticles to the places where the tumors are. So 
instead of going through the body, you're actually going in and 
getting to exactly where you need to go. I think about a tumor 
as sort of like a puzzle piece, and each type of cancer has 
different types of puzzle pieces. Our job is is to take our 
nanoparticles and find a way to make them fit into that 
particular type of puzzle piece.
    So as Dr. Mirkin mentioned, specificity is really the 
issue. Chemotherapy drugs work by basically killing the fastest 
dividing cells, which include hair follicles. That's why your 
hair falls out. The more specific we can make these drugs and 
the more accurately we can deliver them, the more effective 
they're going to be with fewer side effects.
    The Chairman. Thank you both very much.
    Senator Nelson. I leaned over to Senator Boozman and said, 
``This is really exciting.'' All right.
    Senator Hutchison?
    Senator Hutchison. Well, thank you. It really is exciting.
    And I think that you have all identified specifics that we 
can understand where nanotechnology has done wonderful things 
in the past. And I want to mention also that the idea that both 
Dr. Pelecky and Dr. McLendon have both mentioned is that we 
really do need to have the collaboration in the funding area. 
And if we can get this bill through, what you have suggested 
will be part of this bill; that if there is not a clear agency 
function there would be some discretion in giving worthy 
research to something that's a little bit out of the box. So we 
will handle that.
    But the other thing that Dr. McLendon mentioned that I 
think we need to also prioritize is the sharing of information 
and equipment, because putting the same piece of equipment in 
two places is not efficient, especially when you can 
collaborate either through the technology or communications. I 
think that sharing is something that we should also promote in 
the reauthorization.
    So here are the questions that I want to throw out to all 
of you. Number one, has the National Nanotechnology 
Coordination Office ever assisted in commercialization efforts 
that any of you would be making at your respective 
institutions, and, if so, was it effective in helping 
transition your research to the marketplace? And, if not, what 
can we do to ensure that is a part of our efforts? If we are 
going to put Federal funding into this research, we certainly 
need to take it to the next step, with some reward going back 
to the researcher and the institution, but also some sort of 
reward that would spur other Federal investments. In other 
words, some reward back to the government funding agency and 
some to the research institution that would be a win for both 
when you commercialize the project.
    So I would throw it open to any of you on those questions.
    Dr. O'Neal. I can start. We have not worked with the 
institute to commercializing currently. But certainly one of 
the things I like to talk about--when you've got research 
rewards or commercialization, you know, most tech transfer 
offices really--never really break even, much less make a lot 
of money. And so I think you need to keep that in mind. It's an 
investment in something where sometimes the return on 
investment doesn't come back directly to the university or a 
tech transfer office. But we need to make a way so it really 
becomes an incentive for folks to continue that behavior 
regardless. And how we do that needs to be understood better. 
But, again, we'd love to work more with them, and I would like 
to talk with someone about how to do it.
    Senator Hutchison. Well, what's the right entity? Where 
should we be focusing? Is it the National Nanotechnology 
Coordination Office? Is that the right entity that would be 
able to be helpful, or is there something else?
    Perhaps, Dr. Romine, you might have a view?
    Dr. Romine. Yes. I can certainly say that the NNCO is, I 
think, indirectly extremely helpful in terms of coordination 
across the Federal Government programs in nanotechnology. And 
so, indirectly, it provides kind of support for emphasizing and 
sharing best practices with respect to technology transfer, and 
I think the agencies do that. We have different ways of going 
about it.
    Senator Hutchison. What about helping on commercialization 
and establishing a reward?
    Dr. Romine. Right. I'd have to think some more about that. 
It's not obvious how a coordinating function like that 
represented by the NNCO would take on the added responsibility 
of commercialization except through, again, the coordination of 
the Federal agencies involved.
    Senator Hutchison. Are there any other thoughts on that?
    Dr. Leslie-Pelecky. I would echo something that was said 
about the STTR and SBIR programs. Those are outstanding ways of 
bringing together the academicians and the people who want to 
do commercialization. I'd also echo something that Dr. O'Neal 
said about the problems of just getting through starting a 
business and compliance. There need to be some guides. Faculty 
members are all busy. They're doing a thousand things. Having a 
way to help them into that entirely new world would be very 
useful.
    Senator Hutchison. I hear complaints from all sectors about 
how long it takes to take an idea or a research project or a 
product through the systems at the FDA. Is there anything there 
that you have experience with or suggestions on how we could 
help shorten those wait times?
    Dr. McLendon. Yes, but not in minus 30 seconds.
    Senator Hutchison. And that's exactly where I am. Well, why 
don't I just ask you to submit for the record----
    Dr. McLendon. I would be delighted.
    Senator Hutchison.--suggestions as we are writing this 
reauthorization? That's why we're having the hearing; so we can 
do the right thing with the Federal dollars. So I would----
    Dr. McLendon. Thank you.
    Senator Hutchison.--invite all of you to submit 
suggestions.
    Dr. McLendon. Thank you, Senator.
    Senator Hutchison. Thank you.
    Senator Nelson. Thank you, Senator.
    Senator Boozman?
    Senator Boozman. Thank you, Mr. Chairman.
    I'd like to follow up a little bit with Dr. Mirkin, you and 
Dr. Leslie-Pelecky talked about the tremendous advances--and 
potential that we have for as medical health, but there are 
also some concerns that it could go the other way. That perhaps 
we don't understand quite enough yet.
    The FDA has not yet identified particular safety issues 
related to nanotechnology applications and FDA-related 
products. But, nevertheless, they recently released draft 
guides with criteria to determine whether nanotechnology is 
used in an FDA-regulated product. So I would like for you two 
to comment on that. And what effect has that had? Is that a 
chilling effect? How do we sort that out and go forward?
    Dr. Mirkin. OK. I'll take a stab at that. You know, this is 
an issue with any technology. Any new technology can have 
positive impact and it can have negative impact. There is 
nothing to fear here in terms of size. That doesn't make things 
special in this regard. It's a combination of the size of the 
particles, the shape of the particles, and, as I said, the 
chemical attachments that we add to the particles that make 
them ultimately effective.
    I think the FDA is actually thinking about this fairly 
proactively, not perfectly, but proactively. A lot of the 
agencies have been thinking about this proactively and have 
been taking a pretty healthy view toward developing methods for 
screening new constructs and determining whether they have 
potential negative consequences that you're alluding to.
    You can't do that at the start, in terms of taking all of 
these materials and running them through screens, because it'll 
just bankrupt the system and it doesn't make sense, because 
many of them will be made and then never be used. They're just 
an entry into the encyclopedia of knowledge.
    But the ones that you take down paths that ultimately lead 
to real products that are either disseminated in the 
environment or used by people--you have to raise the bar and 
apply many of the tools that we've developed for other types of 
chemical constructs with an understanding of what makes 
nanomaterials different to figure out whether or not they are 
safe, and those types of methods are being developed. There are 
a variety of centers around the country at universities that 
focus exclusively on developing those types of tools. And I 
think it's still very early. Those types of centers are going 
to become more important and the knowledge that they're 
producing is going to become more important as we get closer 
and closer to primetime in terms of using these as, for 
example, therapeutics.
    On the diagnostic front, though, you know, we have our 
diagnostic systems. We've got, I think, five different FDA-
cleared systems. So we've been able to work with the FDA and 
they've been able to--sometimes gives a lot of push-back, but 
ultimately get to systems that can do a lot of good.
    Senator Boozman. Very good.
    Dr. Leslie-Pelecky. The folks we work with at the National 
Institutes of Occupational Safety and Health are really working 
toward developing predictive capability. How do you correlate 
the physical and chemical properties of a nanomaterial with its 
bioactivity? And I think that's part of--one approach is what 
Dr. Mirkin said--looking at the products that are headed out 
for commercialization. I think the folks that we work with are 
really looking at it more as a function of how can we develop 
some basic rules that will help us predict the bioactivity of 
materials in the future.
    Senator Boozman. Very good.
    Dr. McLendon, do you think there's enough venture capital 
investment available to the nanotechnology companies, and, if 
so, why? Or if not, why?
    Dr. McLendon. Since I largely work with venture funded 
companies, I don't think there's enough venture investment 
available for anything. But----
    Senator Boozman. What factors?
    Dr. McLendon.--specifically, in nanotechnology, you know, 
it's a very tough investment climate right now. And in the 
absence of some sort of differential reason to put capital at 
risk--some of you alluded in your opening remarks to incentive 
structures and their advantages and disadvantages. I think 
that's a place where you, as senators, could do a lot in 
helping us think through what the best investment incentives 
and structures are. I can tell you right now that it's a very 
tight investment climate, not just for nanotechnology, but for 
many cutting-edge areas in science and technology.
    Senator Boozman. Good.
    Dr. McLendon. And that's a personal experience.
    Senator Boozman. Well, that's very helpful. And if you 
would give us some of the hurdles that you feel are out there 
and how we can help overcome them.
    Dr. McLendon. Absolutely, sir. Thank you.
    Senator Boozman Thank you, Mr. Chairman.
    Senator Nelson. Senator Ayotte, would you mind--Senator 
Rockefeller has to leave, and he has one additional question.
    Senator Rockefeller?
    The Chairman. Thank you, Senator.
    This is interesting--shortage of venture capital, all the 
rest of it. But given good times, given bad times, we tend to 
invest our dollars--a classically American thing to do--in 
basic research, in other words, go find something. But we only 
invest a very small fraction of that, 2 percent, in 
translational research.
    The Japanese and the Germans, for example, they're 
basically taking our basic research, and they're applying it in 
their countries through developmental applications. And I want 
to know if you think this is true. If we're going to do--it's 
just like doing anything. You can't sort of throw money out 
there and let people have at it. I mean, you've got to focus--
you want to take a shot?
    Dr. Mirkin. Yes, I will take it. I think what you're saying 
is in part true, and it was probably worse 20 years ago. With 
the patenting system that's in place and people honoring 
patents more now, it has become less of an issue. And it's 
important to remember that most of the patenting occurs at the 
early basic science and discovery portion of the research 
phase, and that gets you the protection that you want. And, 
oftentimes, it's not clear--why do you invest in basic research 
as opposed to just bet it all on one thing? Well, basic 
research has led to a lot of things that we didn't anticipate 
in terms of technology.
    Northwestern is sitting on the biggest technology transfer 
deals in the history of technology transfer. It's called the 
drug, Lyrica. It was developed 20 years ago by a guy named Rick 
Silverman. And he had some ideas of how it was ultimately going 
to be used. But it was protected and then developed by a 
company--Pfizer in this case--and it's now a blockbuster drug 
that's out there. And it's producing a lot of revenue that's 
coming ultimately back to Northwestern and going into research 
and building buildings and things like that that will keep 
pushing things forward.
    I think it's important now in this area of nanotechnology 
to have a balance. But I think it's really critical that we 
don't ignore the basic research side of things. We have to have 
it. That's really the engine that creates a lot of the ideas 
that lead to translation.
    The Chairman. I don't think I suggested ignoring it. But 
you have to admit if 2 percent goes into translational 
research, that's not very much.
    Dr. Mirkin. Oh, I know. That's why my recommendation was to 
expand the translational component and keep the basic research 
at a reasonable level so that we're constantly planting the 
seeds for the next stage. No, I agree there's an imbalance.
    Dr. McLendon. Can I add to that? I think there are multiple 
ways that I was alluding to in my answer to Senator Boozman to 
do that. You can do that by directing funding, and perhaps 
that's one way to do it. I think Chad would argue that if you 
use up all the seed corn, that may be a flawed strategy. 
Another way to do that is to create incentives for private 
industry to co-invest or for individual investors to co-invest. 
That's another way to build these public-private partnerships.
    There's no question in my mind, at least, that you need a 
public-private partnership to commercialize the nascent 
technologies that are invented in our national laboratories, in 
our universities, and elsewhere that the Federal Government has 
supported. We haven't done as good a job in translating those 
to commercial practice as I personally would like to see.
    Dr. O'Neal. I couldn't agree with you more. I mean, we 
really need to get excited about the commercialization part. 
Every time I hear a pitch by one of our scientists to a venture 
capitalist, they spend 25 minutes of a 27-minute presentation 
on the science. They get so excited, and it really is fun 
stuff. But they've really got to get excited about the business 
opportunity. We need to kind of complete the process here or 
the life cycle of the stuff and get it out. And efforts and a 
sense of urgency to get this stuff commercialized--we all need 
to kind of prepare ways to do it and get as excited about 
translation and commercialization as we do about the science.
    Dr. Leslie-Pelecky. I've actually just come from reviewing 
SBIR grants, and I can tell you that one of the things that we 
saw there is that because of the interdisciplinarity of these 
applications, you have materials companies trying to do 
biological things and biology-based companies trying to do 
materials things. You need that joint expertise. We have a lot 
of companies that really want to go in that direction, but 
they're heavy on one side or the other, and they need to expand 
before they can really move forward.
    The Chairman. I want to thank Senator Ayotte and you, Mr. 
Chairman, for your courtesy.
    And I apologize to the panel. You've more than lived up to 
your billing.
    Senator Nelson. Indeed.
    Senator Ayotte?
    Senator Ayotte. Thank you, Mr. Chairman.
    I wanted to follow up, Dr. Pelecky. You said you review 
SBIR grants. Can you help me understand how the Nanotechnology 
Initiative is interfacing with the SBIR grants? I'm a strong 
supporter of this program, and I think it provides what we're 
hearing about today. How does that all get coordinated? And can 
you help me understand--maybe Dr. Romine could jump in as 
well--how we are making sure that we're interfacing together 
here?
    Dr. Leslie-Pelecky. Well, for example, the programs that I 
normally review for are programs that are targeted calls for 
the use of nanotechnology to address diagnosis and treatment of 
cancer. They are specifically focused on nanotechnology, and I 
believe that's all done through the NNI.
    Senator Ayotte. This was one of the issues that arose in my 
mind when I was preparing for this hearing--because when you 
examine the National Nanotechnology Initiative, it's basically 
coordinating the activities of 25 agencies, 15 of which have 
specific budgets for R&D. And one of the issues that just came 
to my mind immediately, and I would love to hear from those who 
are applying for grants. When you're dealing with multiple 
agencies like that, how has your experience been, number one? 
And how has the coordination been? What can we do better to 
make sure that the money is in the right place? Should we be 
centralizing more? Are we making it too difficult for you? How 
can we make it easier?
    I'd start with Dr. Mirkin.
    Dr. Mirkin. Well, I mean, I think, in general, it's been 
pretty good. I mean, there has been a learning process. I think 
that the centers have been examples of Federal agencies cross-
coordinating with one another and learning from what worked 
with one group and imparting that into the next call with the 
other. I think the CCNE efforts that I alluded to from the NCI 
were based in part on some of the experience that the NSF had 
with the Nanoscale Science and Engineering Centers.
    This is a really tough thing to do, because in many 
respects, the NNI is kind of an influence that's making--not 
making, but incentivizing or telling agencies to invest in this 
particular area, and then it's left up to them to figure out 
how they are going to do it. And I think what's happened over 
the last decade is we've gotten a tremendous amount done, but 
we've lost some focus. And that's why I really think this 
signature initiative issue is really quite important in getting 
the agencies to come together and figure out what it is that 
we're going to go after, what bets we're going to make, and to 
create a theme of excellence in a few areas and really develop 
them extremely well.
    Senator Ayotte. I appreciate that. And as a follow-up, I 
certainly want to hear the rest of the panelists' comments on 
this issue, because I can see when we have 25 agencies involved 
with 15 different R&D budgets, we put a little bit in a lot of 
places, but not enough focus to make results the top priority.
    Dr. Mirkin. Right.
    Senator Ayotte. And that's one of the things I would like 
to see us address, certainly in this committee, as we look at 
the reauthorization.
    Dr. Romine. So if I could make a comment a little bit on 
this, one of the values and, in fact, one of the essential 
characteristics of an office like the Nanotechnology 
Coordination Office is precisely that issue that the 
investments that the Federal Government is making are 
distributed over quite a number of agencies. And left to their 
own devices, they would do exactly what they need to do in 
their mission space.
    By coming together and coordinating and acquainting each 
other with the kinds of investments that are made, two things 
happen. One is you get the kind of synergy that you would like 
to see with respect to optimizing the investments, that is, 
agencies will recognize when there are things that are going on 
that are relevant. But, more importantly, they can meet in a 
forum that allows this sort of development of the kind of 
strategic vision for the overall national program that's 
needed. And so the strategic initiatives is a tangible 
representation of that.
    Senator Ayotte. I really appreciate that initiative and 
what you're doing. But I'd also like to have us consider as the 
fundamental question, should all this money be in 25 
different--or 15 different R&D budgets? I think this issue is 
something that needs to be looked, because one of the concerns 
I have is that sometimes it's not so easy to deal with the 
Federal Government. Furthermore, when you're dealing with 
multiple agencies and different requirements, it can be quite 
challenging. Those of you who are applying for grants to try to 
develop these incredibly innovative ideas and research that we 
hope will lead to the great development of the economy as well 
as lifesaving devices and products will have to deal with this. 
If anyone has any insight on this, I'd appreciate that as well.
    Dr. Leslie-Pelecky. I really like the idea of the targeted 
calls for proposals that are between, say, NSF and NIH. It's 
much easier for me to deal with a request for proposals and let 
the two agencies coordinate, or the NNCO coordinate, than it is 
for me to try to figure out how I split my research and get 
this part of it funded by NSF and this part of it funded by 
NIH.
    Dr. O'Neal. I concur with that. These are all topic-driven, 
you know. When folks go scanning the periodicals for what they 
want to do, they go by agency and they look for very specific 
topics, and they try to match what they're doing with a problem 
someone wants solved in an agency. If you can solve a bigger 
picture problem by bringing agencies together and having 
multidisciplinary calls, that would probably be a really 
interesting way to fund some of this stuff.
    Dr. McLendon. Yes. I agree.
    Senator Ayotte. Thank you very much. And if I have just one 
more minute, I wanted to ask something of Dr. Mirkin who just 
talked to us about his experience of bringing in $20 million of 
research that was then translated into a successful company 
that produces diagnostic tools which venture capitalists 
invested in.
    I know Dr. McLendon talked about this in his testimony and 
is going to provide a supplementation for the record on some of 
the barriers for venture capital investment that don't just 
apply to this area but probably would apply across the board. 
However, you've had the experience of getting venture 
capitalists investing in research-based companies and how that 
is translated into success. Could you share that experience 
with us, what insight you might have on how we could help with 
that, and what would be best for how we're addressing these 
issues?
    Dr. Mirkin. It's an interesting question, and I guess I'll 
go back to--I think Professor McLendon answered Senator 
Rockefeller's question maybe better than I did, in the sense 
that my experience has been that nanotech was this incredible 
opportunity in terms of science. But if we really were to see 
the impact that everybody wanted out of it, you're going to 
have to create a way of not only making discoveries but 
translating those discoveries into technologies that could 
impact the masses.
    And early on, I realized that we'd have to build a 
structure that would allow us to get venture capital and begin 
to see these ideas in the form of startup companies. And so 
that's one of the reasons I started the institute at 
Northwestern. It's now grown to a half a billion dollar 
institute and brings the best and the brightest all over the 
world there to develop these types of ideas. It also brings 
venture capitalists in. It builds a structure that has enough 
critical mass that allows you to get people that are interested 
and that have the ability to invest to pitch ideas to. And so I 
used three examples for mine. We actually have 16 out of the 
institute and over $600 million now in terms of venture capital 
and related investment, which, to me, is extraordinary. If you 
look at that pre-nanotech, that just didn't happen at 
Northwestern.
    And so I think there's a model there, and the model 
probably isn't moving the dollars from basic research to 
translational research. It's using mechanisms that take what we 
discover on the basic science side and lowering the barriers to 
getting those investments in place. And the barriers exist 
because of interactions, so you have to have an ecosystem. You 
have to have good ideas, good technology, wealthy folks who 
want to invest and take risks--and then you have to have 
talent, and you have to have ways of bringing talent to a 
location that might ordinarily not have talent, for example, on 
the business side. And that comes from building a critical 
mass.
    So that's why I'm a believer. You alluded to--I think the 
U.S. has to have major arteries in these areas. And I think--
and that doesn't mean you have to put everything in one spot. 
But we have to have a few bets that we make where we have 
international presence and people know this is the best place 
in the world to do this, because that then satisfies a lot of 
the requirements that I just articulated in terms of what's 
required to take basic science and translate it into 
commercializable technology and startup companies.
    Senator Ayotte. Dr. O'Neal?
    Dr. O'Neal. Just a simple answer from the VCs I talk to 
when we try to introduce nanotechnology companies to them --the 
ones that are technology agnostic, if you will, view 
nanoscience as really a very high risk, you know, not a well 
understood area, and with long lead times, sometimes, before 
they can get their money back. They just want to know how 
they're going to get their money back--it really is that 
simple--in a reasonable amount of time. And the time lags on 
nanotechnology--usually three to 10 years, which is longer than 
a lot of appetites for VCs. And it's a little higher risk, and 
there are a lot of unknowns. So they go to something safer, and 
a lot of times, they go to stuff further downstream.
    Senator Ayotte. But it sounds like given the successful 
model at Northwestern, the venture capitalists were also well 
aware of some of the risk. They're getting a great return on 
their investment, based on some of the things you discussed, 
even though it is a longer amount of time to invest. Hopefully, 
we can encourage venture capitalists to engage in what is, I 
believe, a very exciting field. And I'm also looking forward to 
hearing Dr. McLendon's more detailed answer, and I hope you'll 
all feel free to supplement the record on this, in terms of 
what's impeding venture capital. We know it's obviously well 
beyond the issues we're talking about in this hearing, having 
to do with the regulatory context and the economic issues that 
are impacting our country right now. But I know I would 
certainly like to know your views on this.
    Thank you very much for being here today.
    Senator Nelson. Thank you, Senator Ayotte.
    The senior senator from Arkansas.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you. Thank you very much.
    I want to follow up on the Senator's questions and comments 
there as she concluded, and that is--I actually filed a bill 
earlier this year. It's S. 256, The American Opportunity Act. 
And what it would do is provide a 25 percent Federal tax credit 
to angel investors and venture funds that invest in early stage 
technology companies. And, really, I think the goal of that 
would be to help folks in this area, and other areas, but help 
folks in this area try to get that necessary capital to try to 
get these ideas out into the marketplace. And so while I have a 
captive audience here, I would like to just get a comment or 
two. I don't know if you all are aware of that bill--but 
certainly that concept. How does that strike you?
    Dr. McLendon. Let me start with that one. Like Dr. Mirkin, 
I've been involved in starting several companies that were 
funded by venture. And I think NanoSphere was started around 
2001. Isn't that right? Yes. So in 2000, it was easier to raise 
money than it was in 2007--trust me, 2007.
    Dr. Mirkin. That was the implosion of the bubble. It was 
not easy.
    Dr. McLendon. But I think it's a--you know, it's a very 
creative approach, and I think people look at total return. And 
total return includes things like investment credits. So it 
would certainly affect my own decisions, because I also 
reinvest now through some venture funds.
    Senator Pryor. Anybody--yes, sir.
    Dr. Mirkin. Actually, I think it's a very good idea. 
Professor McLendon really, I think, articulated the problem 
well in the sense that, ironically, in bad times, we're talking 
about cuts that might, you know, affect the research. But also 
the bar has been raised in terms of investment at the same 
time. So you've got two things that are not helping the 
translation of basic research into commercializable technology. 
So anything you can do to lower the bar to get investment 
either from individuals, venture capitalists, or partner 
companies into these small startup entities is a major bonus 
and something that will lead to more productivity in terms of 
startups and, I think, a greater success in terms of startup 
enterprises.
    And that's really the challenge, because if you can get up 
partners, obviously, you can get a significant investment, and 
you have a chance to really vet the idea and see if it has a 
shot of going primetime.
    Senator Pryor. Yes. The other thing that I've heard today 
is the panel and others have used the term, nanomanufacturing. 
And my working definition of that is just taking these ideas 
that you all come up with and just getting them out into the 
marketplace so they can help, as one of you said, the masses--
but make them available and, you know, to be able to actually 
manufacture them to scale in a way that they can actually get 
out and do all the things that they do.
    And so from my standpoint, I think the venture capital 
idea--what we're trying to do is try to incentivize that. I 
think that helps. But also these public-private partnerships 
help. And I would like to ask you all about public-private 
partnerships.
    Let me start with Dr. Romine.
    Dr. Romine. Yes.
    Senator Pryor. Start with Dr. Romine about that, because I 
know that NIST and others have been involved in public-private 
partnerships, and I'd just like to get your sense of the track 
record. Are we utilizing those enough? And is that something 
that makes sense down the road? So go ahead and talk to us.
    Dr. Romine. I think the track record is good. I talked in 
my testimony a little bit about the NRI, the Nanoelectronics 
Research Initiative, and I think that's been a very successful 
model in bringing together the various stakeholders and 
leveraging investments across the public and private sectors in 
a very effective way. Following up on your nanomanufacturing 
remark, we have a fairly robust nanomanufacturing activity at 
NIST, where we're investing in the development of 
nanomanufacturing technologies. Our proposal is to double that 
in the 2012 timeframe. So the president's request for 2012 for 
NIST in nanomanufacturing roughly doubles that amount.
    From NIST's point of view, one of the things that we do on 
behalf of industry for the U.S. is we provide sort of a 
coordinating role for the development of standards in this 
space. We produce standard reference materials. Our Technology 
Innovation Program has invested a substantial amount in 
nanomanufacturing as well. So I think those kinds of funding 
opportunities that do engage the private sector can be very, 
very effective.
    Dr. McLendon. Can I give one parochial example?
    Senator Pryor. Yes.
    Dr. McLendon. At Rice, we have something called LANCER. 
It's the Lockheed Advanced Nanotechnology Center at Rice. And 
that basically matches Federal dollars with Lockheed-Martin 
dollars so that they essentially look at the fundamental work 
that we're doing and say, ``Ah, there's something that we could 
use. Can we put one of our scientists and engineers alongside 
of one of your scientists and figure out how to take that 
material, integrate it into a much more complicated system in 
which that material will be useful?'' So by itself, it might or 
might not have been able to attain its full utility. In their 
hands, they can see how it will be extraordinarily useful. And 
in the process, we've helped educate a couple of hundred 
Lockheed-Martin scientists and engineers in nanotechnology. So 
that's been an extremely productive partnership on both sides. 
And I'm certain there are many opportunities to do things like 
that at Northwestern or UCF or other places across the country.
    Senator Pryor. Thank you.
    Mr. Chairman, I have several more questions for the record.
    But, if possible, I would like to ask one of Dr. Leslie-
Pelecky if you would grant me a little extra time.
    And that would be--I appreciate your testimony and what you 
did in your written testimony about research on bioactivity and 
toxicology of nanomaterials. And I'm just curious why you think 
it's important that we have a robust R&D program in 
nanotoxicology. Why is that so significant?
    Dr. Leslie-Pelecky. Well, if I'm going to start a company 
and I want to make a product that involves nanomaterials, I 
want to know that it's going to be safe. I want to know when 
people are working in my factory that they are working in a 
safe environment. And you can't do that without that basic 
knowledge.
    Senator Pryor. Yes. That's kind of where I am on that too. 
And I just want to make sure that we, as the government--and 
probably in this case, it would be FDA--would have the 
capability of doing the testing and the necessary analysis to 
make sure that these great, wonderful, amazing new products 
that are coming out are safe, not just for human consumption or 
what-not, but also for the environment. So I just think that we 
need to really make sure that FDA and others, whoever that may 
be, would have that capability to do that testing and assure 
the public that what we're doing is safe.
    Dr. Leslie-Pelecky. Well, if I may, there's actually a huge 
opportunity there for companies, because a company that can 
come up with ways of doing this testing quickly and in real 
time--there's a lot of need for that right now.
    Senator Pryor. Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Senator Pryor.
    Dr. McLendon, give us an example on that Lockheed case 
where there's a Lockheed scientist with one of your scientists. 
What are they developing?
    Dr. McLendon. Let me just be----
    Senator Nelson. Is it a secret?
    Dr. McLendon. No, no. It's not a secret, actually. I've got 
a picture in my mind and it's going to take me a minute to get 
at it. So if I can use that as a question for the record, I 
will get you----
    Senator Nelson. OK.
    Dr. McLendon.--exactly the information that you want in the 
way that will be most useful for you.
    Senator Nelson. Sure.
    Dr. McLendon. Is the OK?
    Senator Nelson. Sure.
    Senator Boozman?
    Senator Boozman. Thank you, Mr. Chairman.
    Dr. Romine, has NIST and NSF moved forward with 
implementing the President's signature initiatives? Does NIST 
have a plan for ensuring that R&D participation--participation 
with the EPSCoR universities?
    Dr. Romine. Senator, I'll have to double check. I don't 
have a specific recollection of EPSCoR universities being 
spelled out in the planning that we have. But I can certainly 
go back and take a look to make sure. I'd prefer to get back to 
you with an accurate answer rather than trying to wing it.
    Senator Boozman. Good. I would appreciate that, and I 
really do think that's very important.
    Dr. Romine. OK.
    [Dr. Romine provided the following information in 
response.]

    The NNI is moving forward with implementing the three 
nanotechnology signature initiatives on sustainable nanomanufacturing, 
nanotechnology for solar energy collection and conversion, and 
nanoelectronics for 2020 and beyond. Descriptions of these initiatives 
can be found in the 2011 NNI Strategic Plan, and agency-specific 
investments were reported in the NNI Supplement to the President's 
Fiscal Year Budget. Each of the initiatives has participation from a 
number of agencies in addition to NIST and NSF; NIST is an active 
participant in each of these groups, which are continuing to refine 
implementation plans. These plans identify research thrust areas and 
desired outcomes, including the formation of industry and academic 
partnerships. Though not explicitly stated in the initiative 
descriptions, the inclusion of EPSCoR universities as appropriate would 
be consistent with the spirit of the education and outreach goals 
expressed in the NNI Strategic Plan.

    Senator Boozman. With regards to nanotechnology, could you 
further clarify the difference between the strategy and goals 
for the administration's new proposed program, AMTech, and the 
work being done currently at NIST through the Technology 
Innovation Program?
    Dr. Romine. Certainly. The Technology Innovation Program is 
a funding program for small businesses through a cost-sharing 
environment to tackle some very challenging and difficult 
problems. With respect to the way that we envision the AMTech 
program, it's patterned much more along the lines of the NRI 
that I talked about earlier, it's a consortium model that 
involves bringing together collections of businesses in a 
particular sector of manufacturing to tackle some of the 
precompetitive challenges that are associated with specific 
technological barriers in manufacturing. And so I think, based 
on the experience that we've had with the NRI and our ability 
to play that kind of convening role with respect to industry 
representatives, this, in this case, would involve not just 
small businesses the way that the Technology Innovation Program 
does, but broad sector representation. And I think we'll have 
some dramatic successes in that area in driving manufacturing 
forward.
    Senator Boozman. Very good.
    Dr. Mirkin, I understand that you were an NSF post-doctoral 
fellow prior to becoming a professor. Could you share with the 
Committee the impact your federally funded fellowship had on 
your current success as a researcher and innovator?
    Dr. Mirkin. It had an incredible impact, because it gave me 
the opportunity to start my career post-Ph.D. at MIT, to get 
interested in how things are different when they're 
miniaturized, which led to then the development of the modern 
field of nanoscience and nanotechnology, and is in large part 
the reason I'm here today talking to you.
    Senator Boozman. That's really a great story. How do you 
think we should use scientific curriculum to better prepare 
students that want to go into nanotechnology?
    Dr. Mirkin. The good news is that a lot of kids do want to 
go into nanotechnology. I would say that right now, when I talk 
to young scientists and engineers, they want to either do 
nanotech or something environmentally related. They feel like 
there's something really special here and a way they can change 
the world and impact the world for the better.
    And what that means is that we need to rethink the way we 
teach a lot of the old disciplines, not that you get rid of 
them, but you teach them in the context of these new fields. 
And we were talking before this testimony started that at 
Northwestern, I've done that in courses as early as general 
chemistry, where you begin to talk about how nanotechnology 
pertains to chemistry and vice versa. And the kids absolutely 
love that. They begin to feel like they're learning something 
that's really part of the next 100 years, not the last 200 
years. And I think we're going to see a lot more of that over 
the next decade. A lot of the discoveries that we've made over 
the last decade are going to mandate that we begin to build new 
curricula that get incorporated into universities. And the good 
news is that that's happening, and the NSF has played a very 
big role in helping to make that happen.
    Senator Boozman. Good. Thank you. I think that myself and 
Senator Nelson also feel like there's something very special in 
this field, and we'll be very supportive.
    Thank you, Mr. Chairman. I yield back.
    Senator Nelson. Dr. O'Neal, you talked about the private-
public partnerships, especially with regard to our state. What 
states are doing a particularly good job of sustaining 
nanotechnology industries?
    Dr. O'Neal. I'd have to look that up and give you an 
intelligent answer. I could put that on the record. Certainly, 
I think about the common things in--California and the 
Northeast are the ones that come to mind. I think there's some 
good work going on in Texas and--a lot of people doing good 
work, but we really need to concentrate on, you know, the whole 
spectrum of basic to applied to translational research.
    Senator Nelson. And so the best practices that you think 
that other states ought to consider would be a lot of this 
bringing together of private partner--public partnerships? 
Standards--what do you think about the standards?
    Dr. O'Neal. I think that--yes, I think there needs to be 
some. Certainly, people need to be able to have a common 
vocabulary and know how they're going to work with each other.
    Senator Nelson. And, Dr. Romine, this is in your bailiwick. 
Do you think the current Federal efforts to support these 
standards are adequate?
    Dr. Romine. Adequacy is a tough question. I will say 
there's a substantial effort. NIST, under the authority in the 
NTTAA, the National Technology Transfer and Advancement Act, 
provides a coordinating role for the development of standards 
across this space, internationally and across the Federal 
Government. And I think that collection of activities at NIST 
that involves the coordination function but also the 
development of standard reference materials, of data that we 
make available, of testing methodologies and so on, I think is 
working well.
    Senator Nelson. Are other countries improving on the 
standards so that they're getting the jump on us to 
commercialize?
    Dr. Romine. I wouldn't characterize it that way. I would 
say other countries are certainly becoming more aware of the 
importance of participation in the international arena of 
standards. And so we are still engaging with, I'd say, more 
countries who are becoming more knowledgeable in this space. So 
that, obviously, represents some change in the landscape. But I 
think, overall, I wouldn't characterize it as being a threat.
    Dr. McLendon. I'm not sure about standards, but I do know--
I just got back from China and Brazil, where I spent a good bit 
of time talking to leading researchers there about 
nanotechnology. And each of those countries have their own 
functional equivalent to the National Nanotechnology 
Initiative, and they are pushing these initiatives really hard. 
And so I'm thrilled to be a citizen of the country that's the 
leader in this field, but it's not a God-given right that we 
will always be that leader.
    Senator Nelson. Amen to that. And isn't that typical of the 
U.S., that we get something started and then others pick it up? 
And we just don't--in this promising field, we do not want that 
to happen here.
    Dr. McLendon. Absolutely. Yes, sir.
    Senator Nelson. Would you all--just my curiosity--since a 
lot of you are physicists--the two of us are scientists, but 
we're political scientists. By the way, I was the first and 
only lawyer to go into space, and NASA has still not publicized 
that fact.
    [Laughter.]
    Senator Nelson. So our curiosity is what is it about these 
microparticles that will actually change composition? For 
example, I understand that color can be different in a 
nanoparticle. A particle may be hard or soft, and in a 
nanoparticle, it's the opposite.
    Dr. Mirkin?
    Dr. Mirkin. As I said, I think that's really one of the 
interesting things about the field and the real opportunities, 
and that is that everything old becomes new and miniaturized. 
If you take gold and shrink it down to a 10 nanometer particle, 
it's no longer gold in color. It's red. If you turn that 10 
nanometer spherical particle into a triangular prism--it's a 
little nanoDorito--it's now blue in color. And so the beauty of 
nanotech is you don't have to take what nature gave you in 
terms of bulk form. You can begin to take the raw materials and 
shape them, if you're a good nanoarchitect, and get the 
properties you want for a given application. And that's why 
it's so powerful, because whether you're talking about 
nanomedicine, energy, developing tools to study the 
environment, all of those require new types of materials, and 
the fastest way to new materials is through this 
miniaturization effort. And I think that's what we have to 
capitalize upon.
    Dr. McLendon. You're at that unique interface between 
single molecules, which behave according to quantum mechanics, 
and bulk systems that behave according to Newtonian mechanics. 
And you're in that funny space where things are starting to 
transition.
    When Professor Mirkin was talking about some of the 
nanogold shells in response to Senator Rockefeller's question, 
it turns out that another way--this is the way that I alluded 
to from my research colleagues--by creating--whether they're 
nanospheres or nanoDoritos or whatever your favorite snack food 
is--that you can tune the color to a place where only the 
nanoparticle absorbs and the body doesn't absorb. And that 
allows you, instead of using ionizing radiation, to use 
infrared lights. And infrared lights are basically pretty 
benign things. But they'll heat up the particles which have 
been directed to the tumors in ways that Dr. Pelecky talked 
about. So you only heat up the tumor. You don't heat up the 
body, and that allows you to destroy things without using any 
of the ionizing radiation at all.
    So there are really extraordinary things that can be done, 
but only if you've invested in the fundamental research which 
allows you to understand all those optical properties which was 
all done without thinking about, ``Ah, we're going to use this 
knowledge to create a unique tumor destroying missile.'' It was 
done to understand the fundamental properties, and once you 
understood that, then a next generation of people could come in 
and say, ``That is so cool. Now we can destroy tumors 
selectively.'' So that's why it's so important to do that basic 
investment.
    Senator Nelson. Does the nanoparticle get to the 
submolecule level, or is it at the molecule level?
    Dr. Mirkin. No. A nanoparticle is actually in between a 
molecule and a bulk material. And it's this in-between scale 
that is so interesting.
    Senator Nelson. Is it a combination of molecules?
    Dr. Mirkin. Yes. It can be a combination of molecules. It 
can be a collection of atoms. That's what is often confused, I 
think, in the popular press. The size is not the issue. We've 
been working with molecules for a long time. They're smaller 
than the nanostructures that we're talking about. It's this in-
between region that is so fascinating, where the properties are 
different from molecules and different from the bulk materials, 
where you can find these fantastic ways of tailoring those 
properties to get what you want in terms of a given 
application.
    Senator Nelson. Does the research into the subatomic 
particles ever spill over into nanotechnology?
    Dr. Mirkin. Not really. That's nuclear chemistry, nuclear 
physics.
    Dr. McLendon. Some of the high-energy technologies, like 
synchotron-based radiation, turn out to be incredibly useful 
tools for investigating these unusual materials, however.
    Senator Nelson. Senator, any more?
    Senator Boozman. No. Thank you, Mr. Chairman.
    And I just want to thank the panel for being here and your 
hard work. You can be very proud of pushing forward in such an 
important field. Thank you all.
    Senator Nelson. Indeed, this has been most illuminating. 
Thank you. Have a great day. The meeting is adjourned.
    [Whereupon, at 12:02 p.m., the hearing was adjourned.]

                            A P P E N D I X

   Prepared Statement of Hon. Mark Pryor, U.S. Senator from Arkansas
    Chairman Nelson and Ranking Member Boozman:

    The National Nanotechnology Initiative is at an important 
crossroad. The future holds exciting opportunities to apply 
nanotechnology to medicine, defense, energy, and the environment. To 
date, our focus has been on scientific discovery. I believe in the next 
five years we need to make it a priority to move nanotechnology from 
the laboratory to the marketplace.
    In December 2003, President Bush signed into law the 21st Century 
Nanotechnology Research and Development Act. This law authorized $809 
million in Fiscal Year 2005 for nanotechnology research by five Federal 
agencies. Since then, the NNI program has grown to include 25 Federal 
agencies with a requested research budget of $2.13 billion in Fiscal 
Year 2012.
    The United States remains the world leader in nanotechnology 
research and development. Our universities and companies are producing 
the most significant scientific discovery, our technical papers are the 
most widely cited, and our patents are the most valuable.
    However, the world nanotechnology pie is evenly divided among the 
United States, Europe, Asia (Japan, China, South Korea, and Singapore), 
and the rest of the world. It is not clear which countries will be the 
fastest to commercialize the research being conducted.
    Many people in the United States believe the Federal Government 
should only fund research and development and that it is the 
responsibility of companies to commercialize the technology. 
Unfortunately, there is a gap, the so called ``valley of death'', where 
the research needs to mature before companies are willing to invest 
capital.
    The second large challenge facing nanotechnology is the 
environmental, health and safety (EHS) implications of nanomaterials. 
Many consumer products are already being sold that contain 
nanomaterials. That is why last Congress I introduced the FDA 
Nanotechnology Regulatory Science Act to give the FDA the resources 
necessary to make sure that over-the-counter drugs and cosmetics, food 
additives, biologics, and medical devices can be proved to be safe.
    The Federal Government does a good job funding research in 
nanotechnology and, of course, the private sector is responsible for 
commercializing the R&D. What role the Federal Government should play 
in the space between R&D and product development remains the subject of 
debate.
    Mr. Chairman, thank you for holding this important hearing and I 
look forward to the testimony of the witnesses.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Dr. Chad A. Mirkin

Manufacturing
    Question 1. Nanomanufacturing is the bridge that connects 
nanoscience with nanotechnology products and is essential if we are to 
realize the economic returns on this technology. However, 
nanomanufacturing infrastructure and techniques are in their infancy. 
How significant a barrier to nanotechnology commercialization is the 
absence of nanomanufacturing infrastructure, such as equipment, tools, 
processes, and systems?
    Answer. The absence of a nanomanufacturing infrastructure is very 
significant. A large challenge in transitioning the ideas and 
technologies created from basic research into a commercial market is 
the cost of developing new infrastructure for mass production. Even if 
the new technologies generated via basic research are an improvement 
over current methods, they may not be readily adopted unless the 
improvement is significant enough to warrant the capital investment. 
This barrier depends greatly on the field, and is governed by how 
technological improvements are weighed against resistance to change.

    Question 2. To make sure the United States is the global leader in 
nanomanufacturing, what should the Federal investment be in 
infrastructure development? And in what areas should we invest?
    Answer. In order to lead in nanomanufacturing, it is crucial to 
make sure novel technology is transferred from the laboratory to 
industry. In addition to funding basic research to ensure a constant 
stream of new ideas, funding should support start-up companies and 
public-private partnerships (e.g., STTR and SBIR), and incentivize 
adoption of new techniques. In addition, centers of excellence with 
equipment infrastructure that can be used by many are very important. 
Finally, we should challenge U.S. professors and students to translate 
their advances in nanotechnology into systems that can define our new 
economy. Reducing regulation and compliance burdens that create a 
disincentive to get involved in such activities should be considered 
(we are sending mixed messages). We need an American renaissance with 
respect to technological innovation, and we should embrace and 
encourage entrepreneurial activities at universities and government 
labs where many key discoveries and advances are made.
Workforce training and education
    Question 3. Dr. McLendon's testimony indicated that the 
nanotechnology workforce should reach 800,000 by 2015. This sort of job 
growth would go a long way toward economic improvements. How can the 
United States make sure we have an adequate supply of engineers and 
technicians to support nanomanufacturing and the overall job growth 
projected for the field?
    Answer. First, it is important to state that nanotechnology is not 
a single discipline but rather a collective way of thinking about and 
developing materials whose sole unifying characteristic is their size, 
and that these materials are common in all areas of scientific 
research. Therefore, any effort to increase the nanotechnology 
workforce should have facets in all disciplines. Additionally, securing 
our future nanotechnology workforce will require initiatives in at 
least three areas: (1) programs to retrain adult workers to be 
competitive as engineers and technicians for nanomanufacturing, (2) 
strong support for young researchers at the undergraduate and graduate 
levels, and (3) public outreach and education to capture the 
imagination of the younger generation. Finally, we must acknowledge 
that not all of the most talented candidates are here in the United 
States, so we must continue to attract international talent as well 
through our immigration policies. This is best done through centers of 
excellence, which act as international hubs for specific subareas of 
nanotechnology that are nationally important.

    Question 4. What approaches will help ensure that both 
nanomanufacturing capacity and a trained workforce grow in tandem?
    Answer. Investment in basic nanotechnology and nanomanufacturing 
educational goals will provide the raw human capital while simultaneous 
efforts to strengthen academic and industry ties to build 
infrastructure will attract these students to join the workforce. 
Creating hubs of specific areas of science and industry analogous to 
Silicon Valley or the research triangle would facilitate this. This 
would enable the smooth transition of technology from the academic 
research laboratory to industry and provide and act as centers for 
training and job opportunities in specific fields of nanotechnology.
Financing
    Question 5. Financing is extremely challenging for those attempting 
to bring nanotechnology to market, because the path from invention to 
commercial production is often particularly expensive, risky, and 
lengthy. Dr. O'Neal, you mention in your testimony that a three to 10 
year delay is typical in this area of technology. To what extent have 
capital issues hampered nanotechnology commercialization?
    Answer. The bar for venture capital has been raised, which has 
widened the so-called ``valley of death.'' Universities and government 
labs have replaced the role of the industrial research lab, which means 
technologies must be further developed before they can be licensed to 
an existing company or attract venture capital. We need efforts and 
policies that help move such technologies over these ``bars'' so they 
can attract private investment and have a legitimate shot at 
commercialization.

    Question 6. If the venture capital community is focused primarily 
on short-term funding, what class of institutional investors do you 
think is most likely to support nanotechnology companies?
    Answer. There will be a mix of venture capital and strategic 
partnerships with corporations. Many American corporations are 
establishing corporate VC arms to facilitate such investments.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                           Dr. Chad A. Mirkin

Technology Transfer
    Question 1. A large share of NNI funding supports research at 
universities and Federal laboratories. Last year's review of the NNI 
cited the need to increase the focus on the transfer of technology from 
the research community to the private sector. How effectively is the 
knowledge generated by NNI investments being transferred from 
universities and Federal labs to the private sector?
    Answer. See testimony.

    Question 2. What mechanisms are Universities using today to 
facilitate this transfer and which are the most effective?
    Answer. The universities I have worked with deal with this through 
technology transfer offices and licensing. Start-up companies are 
playing much larger roles, and in many respects are filling the void 
created by large companies shutting down their corporate R and D 
efforts.

    Question 3. Dr. Mirkin, some feel that the National Science 
Foundation should do more than basic research. Since a key to realizing 
the economic potential of nanotechnology is the technology transfer and 
commercialization of basic research, should we expand their role in 
these areas? Why or why not?
    Answer. The NSF should be focused on basic research; it is 
essential that we maintain a strong commitment to building the 
knowledge base from which commercialization and product development can 
arise. Partnerships between the NSF and the mission-oriented agencies, 
might be a way to capitalize upon the translational aspects of 
nanotechnology. The CCNE program at the NCI is an outstanding model for 
the effective use of funds for translational efforts.
Public Outreach
    Question 4. Public understanding of nanotechnology will affect both 
the level of government investments in nanotechnology R&D and the 
consumer willingness to accept nanotechnology products. In many cases 
the American public may be unaware that basic products like sunscreen 
can contain nanoparticles. Is the American public sufficiently familiar 
with nanotechnology to judge its potential benefits and risks 
appropriately?
    Answer. In general, the American public seems to embrace 
nanotechnology and understand that although it has risks, like any new 
technology, its benefits outweigh such risks.

    Question 5. Are you concerned that a campaign to improve public 
understanding might, in fact, result in a backlash against 
nanotechnology R&D due to the potential safety implications?
    Answer. Improving the public understanding can be extremely 
helpful, so long as the safety concerns are properly elucidated. 
Presenting examples of nanotechnology with familiar analogies, such as 
silica nanoparticles as fine sand or iron oxide nanoparticles as tiny 
bar magnets, can make the technology less foreign. It would also be 
beneficial to discuss naturally occurring nanostructures, like high-
density lipoprotein (HDL), a biological entity necessary for regulating 
cholesterol levels in the human body. The most important benefit to be 
gained from educating the public is that nanomaterials are as diverse 
as regular materials, and that, while new methods and procedures will 
be needed to properly examine, monitor and regulate them, these 
procedures can and will be developed just as they have been for non-
nanotechnology based materials.
Maximizing Return on Investment from the NNI
    Question 6. Since the original authorization for the NNI expired in 
2008, numerous attempts have been made to authorize the program. What 
do you think is needed in a reauthorization to improve the program 
overall and increase its return on investment?
    Answer. See my testimony.

    Question 7. Dr. Mirkin, one criticism of the NNI is that there is 
no central funding source for nanotechnology investments, but that 
instead funding is determined through each agency's internal budget 
development process. Have you found this process encourages the 
development of ``funding silos'' where certain research areas become 
captive to single agencies and their funding levels?
    Answer. No.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                           Dr. Chad A. Mirkin

    Question 1. You recommend that the NNI have a focus on signature 
initiatives such as the development of nanomaterials to enable the 
development of nanomedicine, advanced nanomanufacturing, and 
nanomaterials for environmental monitoring and remediation. These 
initiatives have also been called Grand Challenges and Research Needs 
of National Importance. What other Grand Challenges should the Federal 
Government consider? Should the lead agencies be left to self-fund 
these signature initiatives or should Congress authorize specific 
multi-year funding for each?
    Answer. These change with time and discoveries. The Federal 
Government should have initiatives in the aforementioned areas, but 
should also give the agencies the flexibility to identify new 
opportunities as the field progresses.

    Question 2. You are a member of the President' Council of Advisors 
on Science and Technology (PCAST) which also is designated by Executive 
Order to serve as the National Nanotechnology Advisory Panel or NNAP. 
Some people believe the NNAP should be separate from PCAST. What do you 
think of this idea? What are the pros and cons of PCAST also serving as 
the NNAP? Is there still a Nanotechnology Technology Advisory Group 
and, if so, how it is used by the NNAP?
    Answer. PCAST as the NNAP is appropriate, as long as PCAST has 
reasonable representation from the Nanotechnology community. Since 
nanotechnology does not have a singular research focus, the breadth of 
PCAST is a strength in the NNAP role.

    Question 3. You recommend strengthening the National Nanotechnology 
Coordination Office (NNCO). Presently the NNCO is funded by 
contributions from the NNI participating agencies. In Fiscal Year 2011, 
NNCO funding totaled $2.9 million. Should the NNCO be given a line item 
budget? If yes, how much annual funding do you recommend?
    Answer. Yes. Autonomy is essential. $3.0 million is appropriate. 
Perhaps having a line item budget would give the NNCO greater autonomy 
to direct and focus the mission of NNI participants.

    Question 4. The States perform a vital role in fostering economic 
development through business assistance programs, tax incentives, and 
other means. Some state and local nanotechnology-based economic 
development initiatives that were begun in the last decade have now 
disappeared? Why do you think this has happened? How can Federal-State 
coordination be improved to increase the commercialization of NNI 
funded research and improve workforce development?
    Answer. The breadth of the field is both a blessing and a curse 
from an economic development standpoint. Unless very organized, the 
breadth can dilute out recognized nanotech-specific activities. For 
example, does nanomedicine get classified as nano or lumped in with 
other pharmaceutical and medical diagnostic development activities? I 
only have familiarity with Illinois, where the state has been 
reasonably organized and proactive in terms of supporting nanotech-
related translational efforts. Each state needs a go-to person 
coordinating activities at the state level and working with appropriate 
individuals at the Federal agencies to maximize effectiveness.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                           Dr. Chad A. Mirkin

    Question 1. Nano-medicine and nano-biology hold significant promise 
to improve human health. How is the National Nanotechnology Initiative 
(NNI) supporting this critical area?
    Answer. The fundamental research, novel nanoparticle synthesis, and 
nanomanufacturing capabilities being pursued by many of the Federal 
agencies, including the NIH, are all necessary components of 
nanomedicine research and essential in order to enable the widespread 
use of nanomaterials for health applications. The CCNE program from the 
NCI is one of the best examples of translational efforts that have 
brought together researchers from the sciences, engineering, and 
medicine to make strides in the development of powerful new diagnostic 
systems and therapeutics for many forms of cancer.

    Question 2. Public-private partnerships between universities, 
government, and industry are key methods to ensure that promising 
research is developed into useful new technologies and products. One 
example of such a partnership is the new Virginia Nanoelectronics 
Center, a partnership of several Virginia Universities, the 
Commonwealth of Virginia, and Micron Technologies. How does the NNI 
plan to incentivize, facilitate, and further leverage these kinds of 
public-private partnerships?
    Answer. The NNI offers development services for technology transfer 
and government infrastructure for R&D.

    Question 3. I have heard some concern from nanotechnology 
researchers regarding the current state of technology transfer for 
nanotech research. Given that nanotech requires sophisticated 
manufacturing processes, for instance, to what extent is NNI focused on 
potential barriers to widespread use of nanotechnology-based products? 
Do we know, for instance, if printing and imaging technologies used in 
consumer electronics can be transferred to nanotechnology?
    Answer. Yes, for example the integrated circuits in consumer 
electronics products are currently being made with nanotechnology. 
Other technologies such as organic LED's are now permeating the market. 
Not all technologies are this mature, but since they offer 
unprecedented advantages they can be worth the capital investment.

    Question 4. Some scholars have raised ethical concerns about 
nanotechnology research and its applications. What are the dual use 
implications of nanotechnology? Should we be paying more attention to 
the ethical implications of this field and its products? If so, what 
should we be doing to prevent the possible erosion of public trust in 
nanotechnology research?
    Answer. The dual use implications are as diverse as the 
nanotechnology itself. For example, a nanotechnology based diagnostic 
could be used for diagnosing diseases or for detecting biological 
weapons. Alternatively, a nanotechnology-based antibiotic can be used 
to treat disease or develop treatment-resistant bacteria. These 
implications need to be considered aggressively and on a case-by-case 
basis in order to maintain public trust.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Dr. Charles H. Romine

Manufacturing
    Question 1. Nanomanufacturing is the bridge that connects 
nanoscience with nanotechnology products and is essential if we are to 
realize the economic returns on this technology. However, 
nanomanufacturing infrastructure and techniques are in their infancy. 
How significant a barrier to nanotechnology commercialization is the 
absence of nanomanufacturing infrastructure, such as equipment, tools, 
processes, and systems?
    Answer. As described in the National Nanotechnology Initiative 
(NNI) 2011 Strategic Plan (available at http://nano.gov), 
infrastructure such as national user facilities, cooperative research 
centers, and regional initiatives are needed in order to achieve the 
NNI goal to ``foster the transfer of new technologies into products for 
commercial and public benefit.'' Physical R&D infrastructure for 
nanoscale fabrication, synthesis, characterization, modeling, design, 
and training supports another NNI goal to ``develop and sustain 
educational resources, a skilled workforce, and the supporting 
infrastructure and tools to advance nanotechnology.'' The NIST Center 
for Nanoscale Science and Technology (CNST) national user facility 
provides infrastructure as the Nation's only nanocenter established 
with a focus on commerce. The NanoFab, a critical component of the 
CNST, provides streamlined, rapid access to a suite of world-class 
nanoscale measurement and fabrication methods and technology.

    Question 2. To make sure the United States is the global leader in 
nanomanufacturing, what should the Federal investment be in 
infrastructure development? And in what areas should we invest?
    Answer. Four National Nanotechnology Initiative goals outline a 
strategic approach to maintaining U.S. leadership in nanotechnology 
research and development. The second goal, ``Foster the transfer of new 
technologies into products for commercial and public benefit,'' is at 
the heart of Federal investment in infrastructure and nanomanufacturing 
capabilities. The 2011 NNI Strategic Plan (available at http://
nano.gov) outlines a number of objectives to achieve progress toward 
this goal, including a doubling in the share of the NNI investment in 
nanomanufacturing research over the next five years. Along with 
establishing new facilities and/or centers to provide infrastructure, 
the NNI Strategic Plan also identifies the need to sustain existing 
federally funded physical infrastructure. User facilities such as the 
NIST NanoFab have the ability to co-locate a broad suite of 
nanotechnology tools, providing access to expert staff and hands-on 
training of nanotechnology researchers. The three Nanotechnology 
Signature Initiatives, described in the NNI Supplement to the 
President's Fiscal Year 2012 Budget (available at http://nano.gov), 
focus on areas that NNI member agencies have identified as ripe for 
significant advances through close and targeted program-level 
interagency collaboration. NIST plays leadership roles in and supports 
the NNI Nanotechnology Signature Initiatives on Sustainable 
Nanomanufacturing and on Nanotechnology for Solar Energy Collection and 
Conversion. NIST also participates in and supports Nanoelectronics for 
2020 and Beyond.

Workforce training and education
    Question 3. Dr. McLendon's testimony indicated that the 
nanotechnology workforce should reach 800,000 by 2015. This sort of job 
growth would go a long way toward economic improvements. How can the 
United States make sure we have an adequate supply of engineers and 
technicians to support nanomanufacturing and the overall job growth 
projected for the field?
    Answer. The realization of the promise of nanotechnology to enhance 
and improve applications from energy to healthcare is reliant on the 
cultivation of a skilled nanotechnology workforce that will include 
scientists, engineers, technicians, manufacturers, and laboratory 
personnel including trainees and students.
    There are many proposed strategies to help the U.S. meet the demand 
for this trained workforce, including those being discussed within 
Congress to help develop a skilled workforce, the Administration 
proposals for strengthening STEM education in the U.S., and a number of 
recent reports from the National Science Board, the National Academies, 
and the President's Council of Advisors on Science and Technology.\1\ 
Strategies recommended in these reports and discussions include 
important issues such as the need to cultivate an interest in STEM 
education with students at an early age, and outreach to the public as 
well as schools regarding the promise of future careers in science and 
technology sectors, including nanotechnology. Other essential factors 
described in these reports include minority representation in STEM and 
the need to better recognize high-potential STEM innovators from every 
demographic of our country. As noted in the 2011 NNI Strategic Plan, 
nanotechnology can help to foster students' interest in STEM because of 
the unique nature of properties and behaviors at the nanoscale can 
inspire students by creating a ``wow'' factor. Support and mentoring of 
students at all stages of education through undergraduate, graduate, 
and postgraduate programs, as well as early interactions with industry 
through internships and other programs, are important aspects in the 
development of a nanotechnology workforce.
---------------------------------------------------------------------------
    \1\ For more information on NSB report, see http://www.nsf.gov/nsb/
stem/innovators.jsp; National Academies Report, see http://
www8.nationalacademies.org/onpinews/newsitem.aspx?
RecordID=12984; PCAST, see http://www.whitehouse.gov/sites/default/
files/microsites/ostp/pcast-stemed-report.pdf and http://
www.whitehouse.gov/sites/default/files/microsites/ostp/pcast-nano-
report.pdf.
---------------------------------------------------------------------------
    NIST's strong partnerships with educational institutions encourage 
student interest and participation in STEM. Through a variety of 
programs, we bring students, post-doctoral fellows, and middle school 
teachers to our campuses for unique programs that have a direct impact 
on the creation of a STEM-educated workforce. NIST also supports 
faculty researchers and students through a variety of competitive 
grants programs.
    Programs include:

  <bullet> NIST's Postdoctoral Program supports a nationwide 
        competitive postdoctoral program administered in cooperation 
        with the National Academy of Sciences/National Research Council 
        (50 per year)

  <bullet> Summer Undergraduate Research Fellowships (150 per year)

  <bullet> The NIST Summer Institute for Middle School Science Teachers 
        (20 per year)

    In the past couple of years, nearly 200 scientists have completed 
postdoctoral research at NIST. These individuals are now employed 
across a variety of sectors. Based on the most recent data, former NIST 
postdoctoral researchers can be found in academia (nearly one-third of 
those reported); industry (in at least 20 different companies ranging 
from large corporations to small businesses); national laboratories 
across the U.S.; and government (nearly one-third are now employed at 
agencies throughout the Federal Government).

    Question 4. What approaches will help ensure that both 
nanomanufacturing capacity and a trained workforce grow in tandem?
    Answer. A key mechanism to train the next generation of 
nanotechnologists at NIST is the extensive postdoctoral research 
program, conducted through multiple programs and agreements with the 
National Research Council and a variety of research universities. For 
example, the NIST Center for Nanoscale Science and Technology (CNST) 
operates by design with a 2-to-1 ratio of postdoctoral researchers to 
technical staff, ensuring a steady flow of new knowledge, experience, 
and ideas into the CNST, and the steady ``graduation'' of scientists or 
engineers who are fully trained in nanotechnology into the workforce.
    The operation of the CNST national user facility contributes in 
multiple ways to building and sustaining a trained workforce to support 
nanomanufacturing capacity. Within the CNST, comprehensive training is 
available on the NanoFab's state-of-the-art commercial tool set for 
nanofabrication and measurement. The training is designed to prepare 
users with a range of skills and technical abilities to competently 
operate the tools they need to use. Because many users will depend on 
the NanoFab for extensive consultation and help, it is staffed with 
highly experienced process engineers drawn largely from the 
semiconductor industry. As a shared national resource open to all, the 
NanoFab brings NIST scientists together with industry, government, and 
academic researchers from across the spectrum of nanotechnology 
applications, fostering the rapid exchange of ideas and best practices 
related to nanomanufacturing. Researchers from outside NIST can access 
a host of advanced, beyond-state-of-the-art tools under development 
through collaboration: either to collaborate in their development or to 
make early measurements using a tool or method not yet available 
elsewhere. In addition to the two user facilities on the NIST campus 
(CNST and the NIST Center for Neutron Research), the NIST laboratories 
are also a source for educating and training a technology-savvy 
workforce. Collaborators at NIST include visiting professors, 
industrial researchers, postdoctoral researchers, graduate students, 
and undergraduates, with tenures ranging from several days to several 
years. Local high school students regularly participate in NIST campus 
events, and the other programs in the NIST laboratories mentioned above 
(i.e., fellowships for undergraduate students and summer institutes for 
teachers) are helping to strengthen the pipeline for developing the 
next generation of scientists and engineers.

Business and Job Creation Within Nanotechnology Environment, Health, 
        and Safety
    Question 5. Because nanotechnology is still emerging, the United 
States is in a position to lead the way in creating international 
standards for nanotechnology safety and manufacturing. Dr. Romine, to 
what extent has the lack of nanotechnology-related standards affected 
the commercialization of nanotechnology products? What are the biggest 
problem areas?
    Answer. The foundational nature of standards means that the 
availability of the appropriate standards at right times within the 
technology life cycle can accelerate the commercialization of any new 
technology, and can further spur innovation within that technology 
space. The same is true for nanotechnology. Standards addressing 
nanotechnology-related environment, health and safety (NanoEHS) will 
bring greater confidence in testing, measuring and evaluating the 
safety of nanotechnology and nanotechnology-enabled products. 
Addressing this aspect is an important element in accelerating the 
responsible commercialization of nanotechnology, which can help both 
increase the confidence and acceptance of consumers, manufacturers and 
regulators, and enhance the benefits of nanotechnology along product 
value chains and life cycles.
    The most significant challenges currently lie in thoroughly 
understanding and accurately predicting the response of nanomaterials 
in different environments that directly impact the EHS aspects of those 
materials. The size scale and attributes of these materials is 
requiring the scientific community to develop new testing methodologies 
and techniques, new instruments to study these materials and the 
interactions with the surrounding media. In numerous instances, due to 
existing fundamental knowledge gaps scientific theories have to be 
developed, tested and/or refined to better understand and explain the 
materials and their behavior.
    To address these various challenges, work is underway around the 
world in standards setting organizations such as ASTM International and 
the International Organization for Standardization (ISO), which will 
inform the work of the Organization for Economic Cooperation and 
Development (OECD) as it evaluates guidelines for testing 
nanomaterials. This work in turn leverages the scientific knowledge 
being generated through research and development efforts in academic 
institutions, Federal Government laboratories (including NIST) and the 
laboratories of small, medium and large enterprises.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                         Dr. Charles H. Romine

Nano-Infrastructure
    Question 1. The cost and complexity of the infrastructure required 
for nanotechnology research and commercialization can be a significant 
barrier to expansion of the industry. What opportunities are available 
to researchers looking for Federal dollars for infrastructure 
development and equipment?
    Answer. Researchers looking for funding to support infrastructure 
development and equipment can also look to programs such as the 
National Science Foundation's Major Research Instrumentation Program 
(http://www.nsf.gov/od/oia/programs/mri/) and opportunities within the 
Department of Energy, including DOE's five Nanoscale Science Research 
Centers (http://science.energy.gov/bes/suf/user-facilities/nanoscale-
science-research-centers/) providing user access to facilities 
supporting interdisciplinary research at the nanoscale. The NIST Center 
for Nanoscale Science and Technology user facility supports the U.S. 
nanotechnology enterprise from discovery to production by providing 
industry, academia, NIST, and other government agencies with access to 
world-class nanoscale measurement and fabrication methods and 
technology. Furthermore, the NIST Technology Innovation Program (TIP) 
provides cost-shared funding to speed the development of high-risk, 
high-reward, transformative research. This research is targeted to key 
societal challenges that are not being addressed elsewhere. The 2010 
TIP competition focused on manufacturing technologies, resulting in 
awards to small and medium-sized companies producing a range of 
nanotechnology-enabled products in areas including flexible liquid 
crystal displays, organic photovoltaics, and lithium-ion batteries.

    Question 2. What role do you see for the Federal Government in 
encouraging regional investment strategies for equipment sharing 
between university and industry clusters?
    Answer. As described in the National Nanotechnology Initiative 2011 
Strategic Plan, infrastructure such as national user facilities, 
cooperative research centers, and regional initiatives will help enable 
the NNI goal to ``foster the transfer of new technologies into products 
for commercial and public benefit.'' A number of nanocenters are 
supported by NNI member agencies, including DOE and NSF, and in many 
cases these are co-located to draw on regional synergies such as 
technical expertise and manufacturing facilities. The NIST Center for 
Nanoscale Science and Technology (CNST) national user facility stands 
out in this regard. The NanoFab, a critical component of the CNST, 
promotes research by providing streamlined, rapid access to a suite of 
world-class nanoscale measurement and fabrication methods and 
technology.
    Proposed in Fiscal Year 2012, the NIST Advanced Manufacturing 
Technology (AMTech) program is intended to support industry-led 
consortia to develop industry roadmaps and support precompetitive 
research at universities, following on the successful model of the 
public-private Nanoelectronics Research Initiative. The AMTech program 
aims to fill a critical gap for early-stage technology development by 
supporting precompetitive R&D and enabling technology development, and 
creating the infrastructure necessary for more efficient promotion of 
knowledge and technology. This strategy has the potential to drive 
economic growth, enhance competitiveness and spur the creation of jobs 
in high-value sectors of the U.S. economy. AMTech is modeled on NIST's 
successful interactions with the semiconductor industry via a 
partnership with the Nanoelectronics Research Initiative.

Public Outreach
    Question 3. Public understanding of nanotechnology will affect both 
the level of government investments in nanotechnology R&D and the 
consumer willingness to accept nanotechnology products. In many cases 
the American public may be unaware that basic products like sunscreen 
can contain nanoparticles. Is the American public sufficiently familiar 
with nanotechnology to judge its potential benefits and risks 
appropriately?
    Answer. Public outreach is a cornerstone of the National 
Nanotechnology Coordination Office, which performs public outreach and 
engagement on behalf of the NNI as well as serving as a central point 
of contact for Federal nanotechnology R&D activities. Outreach and 
informal education programs to foster a public that is well informed 
about nanotechnology are highlighted in the 2011 NNI Strategic Plan as 
a path to NNI goal 3, ``Develop and sustain educational resources, a 
skilled workforce, and the supporting infrastructure and tools to 
advance nanotechnology.'' Furthermore, the Nanotechnology Public 
Engagement and Communications (NPEC) Working Group provides a forum to 
bring together agency representatives to identify opportunities for 
public outreach. NIST's measurement and standards efforts for 
nanotechnology environmental health and safety (NanoEHS) are providing 
necessary information and data for researchers, regulators, the public, 
and industry, helping to assure the responsible development of 
nanotechnology. NIST's mission-centric work in the area of NanoEHS 
advances measurement science, standards, and technology to provide 
critical measurement science, tools, and information that enable 
science-based assessment and management of NanoEHS risk.

    Question 4. Are you concerned that a campaign to improve public 
understanding might, in fact, result in a backlash against 
nanotechnology R&D due to the potential safety implications?
    Answer. Coordination and communication of clear information that 
identifies potential risks and benefits of nanotechnology among Federal 
agencies, the public, and other stakeholders is part of the foundation 
for Federal oversight of nanotechnology and nanomaterials described in 
the June 9, 2011 memorandum ``Policy Principles for the U.S. Decision-
Making Concerning Regulation and Oversight of Applications of 
Nanotechnology and Nanomaterials'' (http://www.whitehouse.gov/sites/
default/files/omb/inforeg/for-agencies/nanotechnology-regulation-and-
oversight-principles
.pdf). This memorandum also recognizes that consumer trust and 
confidence in a sound regulatory regime is integral to fostering 
innovation and promoting the responsible development of nanotechnology 
applications. NIST's NanoEHS research program is developing the 
necessary measurement methods and standards to underpin informed 
assessments of nanomaterial risks and benefits.
    The National Nanotechnology Coordination Office continues to 
explore best practices for public engagement on nanotechnology issues. 
As described in the 2011 NNI Strategic Plan, the NNCO will continue to 
solicit diverse public input and is planning outreach activities 
including activities such as interactive webinars, workshops, and other 
educational events.

Maximizing Return on Investment from the NNI
    Question 5. Since the original authorization for the NNI expired in 
2008, numerous attempts have been made to authorize the program. What 
do you think is needed in a reauthorization to improve the program 
overall and increase its return on investment?
    Answer. The collaboration, coordination, and communication 
engendered by the NNI has created a fruitful forum for NIST to 
interface with other agencies across the Federal Government, enabling 
NIST to prioritize and coordinate research in numerous areas, most 
notably in nanolectronics; nanomanufacturing; energy; and 
environmental, health and safety aspects of nanomaterials. For example, 
activities within NNI groups such as the Nanotechnology Environmental 
and Health Implications Working Group help NIST to gather input from a 
broad range of stakeholders on the critical measurement science and 
measurement tools that are needed for the responsible development of 
nanotechnology.
    A reauthorization should continue to provide support for the 
efforts of the NNI. Achievement of the objectives identified in the NNI 
Strategic Plan would serve NIST and the other NNI member agencies well 
as they work toward the NNI vision of a future in which the ability to 
understand and control matter at the nanoscale leads to a revolution in 
technology and industry that benefits society.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                         Dr. Charles H. Romine

    Question 1. What does ``nanomanufacturing'' mean to you?
    Answer. NIST reports its investments in nanomanufacturing using the 
NNI Program Component Area 5--Nanomanufacturing. In this context, 
nanomanufacturing is research and development aimed at enabling scaled-
up, reliable, and cost-effective manufacturing of nanoscale materials, 
structures, devices, and systems. This includes R&D and integration of 
ultra-miniaturized top-down processes and increasingly complex bottom-
up or self-assembly processes (2011 NNI Strategic Plan, available at 
http://nano.gov).

    Question 2. You mentioned that NIST is working with the 
Nanoelectronics Research Initiative as part of a public-private 
partnership and that NIST is also engaged with industry consortia 
working on flexible electronics and neutron-based measurement for the 
manufacture of soft materials. How did NIST get involved in these 
public-private partnerships?
    Answer. In carrying out its mission, NIST is charged by statute to 
work in partnership with industry to develop measurement solutions and 
standards and promote technologies that address innovation and 
facilitate trade and commerce. The broad authorities given to NIST by 
Congress provide the agency with a high level of agility in working 
with industry, standards organizations, academia, and other 
stakeholders. Exploiting our status as a technical, non-regulatory 
agency, NIST convenes communities around common measurement science and 
standards needs and provides funding and technical assistance to firms 
and institutions using a wide variety of formal arrangements.
    There are many scenarios in which NIST interfaces with industry to 
accelerate outcomes, including: rapid transfer of technical expertise; 
in response to a call from industry; or to develop unique measurement 
capabilities in partnership with industry. NIST continues to engage 
with the flexible electronics industry through discussions with 
industry consortia in order to identify strategic measurement and 
standards needs for the success of the electronic display and printed 
electronics industry. As another example, NIST is underway in launching 
a new consortium, nSoft, to develop neutron-based measurement solutions 
for manufacturers of soft materials (e.g., plastics, pharamaceuticals, 
solar cells, and battery membranes). nSoft is planned as a NIST-led 
consortium of industrial, government, and academic members designed to 
advance measurement science and reduce barriers for industrial research 
programs at peer-review based user facilities such as the NIST Center 
for Neutron Research (NCNR) by developing rapid and reliable facility 
access and training. A workshop in June of this year brought together 
key industry representatives and academic researchers to determine key 
research and measurement areas of 
impact on soft materials manufacturers and researchers (http://
www.nist.gov/nsoft/).
    In 2007, as part of a competitive process NIST selected the 
Nanoelectronics Research Initiative (NRI) as partner with which NIST 
could accelerate research in electronics that goes beyond today's 
technology to meet future demands. Achievements of this program to 
date, as noted in my written testimony, include:

  <bullet> NIST funding of research ($2.75M/year) has been leveraged by 
        $5M/year from industry partners and $15M/year from states to 
        support projects at over 30 universities to work in 4 regional 
        centers.

  <bullet> The NIST/NRI partnership has attracted over $110M over five 
        years in state and private funding to support business 
        development and commercialization NIST/NRI interactions are 
        currently supporting over 100 graduate students and dozens of 
        post-docs through the four regional centers

  <bullet> Outputs of the NIST/NRI partnership include dissemination of 
        research in scientific publications and filed patents based on 
        work sponsored by the NIST/NRI.

    Question 3. What other Federal Agencies are involved?
    Answer. The NRI has teamed up with the National Science Foundation 
(NSF) to fund research projects at existing NSF Nanoscience centers and 
networks at universities across the country (for example, see http://
www.src.org/program/nri/nri-nsf/).

    Question 4. Why should the Federal Government want public-private 
partnerships in nanotechnology?
    Answer. Public-private partnerships provide a framework to 
accelerate industry outcomes. As described above, NIST has a rich 
history of partnering with industry across a range of sectors to 
leverage resources and meet technical industry needs in measurement 
science and technology development. Public-private partnerships in 
nanotechnology hold much promise, in part due to the inherently 
interdisciplinary nature of nanotechnology and the anticipated breadth 
of future nanotechnology-based applications. Public private 
partnerships such as the NRI and NIST's proposed AMTech program can 
help position industry for success by filling a critical gap by 
providing resources to conduct directed basic research and measurement 
research that is generally seen as outside the scope for large 
industry.
    In their March 2010 review of the NNI, the President's Council of 
Advisors on Science and Technology noted the NRI's success, stating 
``It [NRI] all looks straightforward in hindsight: companies pooling 
resources to encourage pre-competitive university research in the hope 
of revitalizing their industry, state governments promoting regional 
development of R&D talent and infrastructure, and Federal funding 
agencies investing in forward looking research that is in the national 
interest.'' (http://www.whitehouse.gov/sites/default/files/microsites/
ostp/pcast-nano-report
.pdf).

    Question 5. What other industries or technology sectors have, or 
could, develop nanotechnology roadmaps that could become the basis for 
additional public-private partnerships?
    Answer. This very question is currently being asked as part of a 
Request for Information in the Federal Register on the topic of NIST's 
proposed AMTech Program (http://www.gpo.gov/fdsys/pkg/FR-2011-07-22/
pdf/2011-18580.pdf). First described in the President's Fiscal Year 
2012 budget request for NIST, the AMTech Program is a proposed public-
private partnership initiative that would provide Federal grants to 
leverage existing consortia or establish new ones focused on long-term 
industrial research needs. The grants would fund development of 
research road maps and enhance research productivity through improved 
coordination and efficiencies. The program's goal is to accelerate the 
innovation process--discovery to invention to development of new 
manufacturing process technologies. Successful innovation as you are 
aware is what--creates skilled, high-wage manufacturing jobs. In the 
Request for Information, NIST seeks input on a variety of programmatic 
questions surrounding the development of this program, including 
whether AMTech consortia should focus on developments within a single 
existing or prospective industry, or should focus on broader system 
developments that must be supplied by multiple industries.
    The importance of public-private partnerships and technology 
roadmaps is noted in the 2011 NNI Strategic Plan as a pathway toward 
NNI Goal 2, ``Foster the transfer of new technologies for commercial 
and public benefit.'' Specifically, the plan calls for the NNI to 
increase its focus on nanotechnology-based commercialization and 
related support for partnerships, through activities such as working 
with U.S. industry across sectors to develop technology roadmaps in 
support of nanotechnology signature initiatives or new public-private 
partnerships.

    Question 6. What do users pay to access the Nanofabrication 
Facility in Gaithersburg?
    Answer. There are three types of hourly rates charged to every 
NanoFab user to recover the costs of performing the work: Specific Tool 
Use, Cleanroom Use, and Process Assistance (when applicable). Each rate 
is computed for full cost recovery, including the cost of the NanoFab 
staff time required plus the operating costs, and reviewed and approved 
by the NIST Budget Office. The operating costs include the costs of any 
maintenance contracts, routine maintenance and repairs (both scheduled 
and unscheduled), and accessories and consumable supplies. After a full 
cost recovery rate is computed, for projects that hold the promise of 
furthering the development of nanotechnology, a reduced cost percentage 
is applied to compute the reduced rates charged to those projects. As a 
matter of NIST policy, proprietary projects are not eligible for the 
lower rates and must pay the full cost for work performed in the 
NanoFab. The charges for every NanoFab project are based on the same 
rates, including projects led by NIST employees (CNST research staff 
included) and are available on the NanoFab website (http://
www.cnst.nist.gov/nanofab/nanofab.html).

    Question 7. What percentage of the operating cost of the NanoFab is 
covered by user fees?
    Answer. As stated above, 100 percent of the operating cost of 
proprietary projects is paid by the users. Non-proprietary projects are 
eligible for reduced rates (discounted by 60 percent), with the balance 
of the full cost paid by the CNST from its appropriated research 
budget. All applicants, including those from NIST, can request 
consideration during the application process, and each project is rated 
on the extent that it will contribute to the development and/or 
application of nanoscale measurement and fabrication methods to further 
the development of nanotechnology. All such requests are decided on a 
case by case basis, typically within 10 days of an application being 
submitted, following review by a CNST committee and final approval by 
the CNST Director. This cost-sharing approach is similar that used for 
academic researchers using NSF-supported nanofabrication facilities 
within the National Nanotechnology Infrastructure Network.

    Question 8. What is NIST's policy on intellectual property when the 
NanoFab is accessed by a private company?
    Answer. NIST does not claim any inherent rights to inventions made 
solely by employees of a private company in the course of a NanoFab 
project. The rights will be determined by any intellectual property 
agreements the inventors may have with their employer(s) or other 
parties. If an employee of a private company co-invents something with 
a NIST employee in the NanoFab, NIST will jointly own that invention, 
and the sharing of those rights will need to be negotiated between all 
the rights holders.

    Question 9. There are several international standards setting 
organizations and committees on nanotechnology. Often the best people 
are not able to participate in the standards development process 
because of lack of travel funds. How is the United States represented 
on these committees?
    Answer. The various international standards setting organizations 
currently engaged in developing nanotechnology standards have different 
models of participation. Some rely on a direct participation model 
where an individual participates in standards setting through an 
individual or institutional membership and pays a nominal participation 
fee. In such a model, each individual (or organization) has one vote. 
Other international standards setting organizations rely on national 
body representation. In these instances, U.S. experts are convened in a 
U.S. technical advisory group (or mirror committee) to develop 
consensus positions, which representatives then take to the 
international organization and use as the basis for discussion with 
their counterparts from other countries. In such models, each 
individual/organization has one vote at the U.S. committee level, and 
the United States has one vote at the international level.
    In general there is good participation by U.S. experts in 
international standards setting organizations that are developing 
nanotechnology standards. Such participation is important in that it 
helps ensure that U.S. perspectives are represented in the increasing 
number of nanotechnology related standards setting activities, and that 
U.S. leadership in contributing to the development of nanotechnology 
standards can be maintained.

    Question 10. Should the Federal Government reimburse academics and 
NGOs for travel so that they can more fully participate in these 
committees?
    Answer. Academics and NGO representatives provide an important 
perspective in standards setting, and are already playing an important 
role in international standards setting for nanotechnology. With the 
various grants and funded projects that academics in particular, 
receive from Federal agencies, academics could potentially include 
participation in standards setting as part of their project/grant 
proposal to enable technology transfer and commercialization of their 
findings. Thus approval of project/grant proposals from Federal 
agencies would permit academics to use these funds to support their 
participation in international standards setting in a manner that is 
analogous to the current practice of academics traveling to domestic 
and international technical conferences to present the results of their 
projects. Federal agencies such as NIST can conduct outreach to funding 
agencies to convey the strategic importance of standards setting, and 
help funding agencies with defining milestones and metrics that can be 
used to judge the effectiveness of standards participation activities 
that may be supported by such grants.
    Any Federal Government program to support participation of private 
sector U.S. technical experts in standards setting activities should be 
need-based, fair, open, transparent, designed to address specific 
national priorities and structured in a manner that is consistent with 
the private-sector led model of the U.S. standards system, where the 
public-private partnership is a key aspect of the system.

    Question 11. Are these committees creating international standards 
that in some cases are not acceptable to the U.S.?
    Answer. The open nature of standards setting activities provides 
everyone an equal opportunity to propose new standards development 
activities. Through their extensive participation in these activities, 
U.S. technical experts are able to monitor and participate in these 
activities. Working with like-minded experts from other countries, U.S. 
experts have been successful in ensuring that new standards proposals 
and resulting international standards are based upon and reflect broad 
technical merit, rather than individual narrow interests or regional 
policy or political considerations. In select areas, such as 
nanotechnology related labeling, where work is underway in a European 
regional standards organization, and non-European members have limited 
participatory rights, U.S. experts are utilizing all existing tools and 
mechanisms of engagement and dialog to ensure that the resulting 
specifications or standards do not unfairly disadvantage U.S and non-
European exporters.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                         Dr. Charles H. Romine

    Question 1. Nano-medicine and nano-biology hold significant promise 
to improve human health. How is the National Nanotechnology Initiative 
(NNI) supporting this critical area?
    Answer. There are many current and planned activities in support of 
nanotechnology for human health. Some agency priorities and programs 
are described in the 2011 NNI Strategic Plan and the annual NNI 
supplements to the President's budget (available at http://nano.gov). 
The National Nanotechnology Coordination Office can provide additional 
details and insights into work to address this critical area.

    Question 2. Public-private partnerships between universities, 
government, and industry are key methods to ensure that promising 
research is developed into useful new technologies and products. One 
example of such a partnership is the new Virginia Nanoelectronics 
Center, a partnership of several Virginia Universities, the 
Commonwealth of Virginia, and Micron Technologies. How does the NNI 
plan to incentivize, facilitate, and further leverage these kinds of 
public-private partnerships?
    Answer. The importance of public-private partnerships and 
technology roadmaps is well understood by NIST and is consistent with 
NIST's mission to promote U.S. innovation and industrial 
competitiveness. Partnerships are noted in the 2011 NNI Strategic Plan 
as a pathway toward NNI Goal 2, ``Foster the transfer of new 
technologies for commercial and public benefit.'' Specifically, the 
plan calls for the NNI to increase its focus on nanotechnology-based 
commercialization and related support for partnerships, through 
activities such as working with U.S. industry across sectors to develop 
technology roadmaps in support of nanotechnology signature initiatives 
or new public-private partnerships.
    First described in the President's Fiscal Year 2012 budget request 
for NIST, the AMTech Program is a new public-private partnership 
initiative that would provide Federal grants to leverage existing 
consortia or establish new ones focused on long-term industrial 
research needs. The grants would fund development of research road maps 
and projects in advanced manufacturing and enhance the research 
productivity of consortia members through improved coordination and 
efficiencies. The program's goal is to accelerate the innovation 
process--discovery to invention to development of new manufacturing 
process technologies--that creates skilled, high-wage manufacturing 
jobs. NIST is currently soliciting public input into the development of 
AMTech through a notice in the Federal Register (http://www.gpo.gov/
fdsys/pkg/FR-2011-07-22/pdf/2011-18580.pdf).

    Question 3. I have heard some concern from nanotechnology 
researchers regarding the current state of technology transfer for 
nanotech research. Given that nanotech requires sophisticated 
manufacturing processes, for instance, to what extent is NNI focused on 
potential barriers to widespread use of nanotechnology-based products? 
Do we know, for instance, if printing and imaging technologies used in 
consumer electronics can be transferred to nanotechnology?
    Answer. The promise of high-value nanotechnology-based industries 
requires suitable technologies that can economically and reliably 
manufacture products on a commercial scale. The NNI nanotechnology 
signature initiative ``Sustainable Nanomanufacturing'' establishes a 
path for the development of cost-effective nanomanufacturing such as 
high-throughput, inline metrology to enable process control and quality 
assurance of nanomaterials. Researchers are working on adapting 
traditional roll-to-roll manufacturing processes, the workhorse of 
flexible electronic printing and imaging technologies today, to produce 
new lightweight, high-strength materials for a wide range of 
applications including personal body armor and solar energy harvesting. 
User facilities such as the NIST Center for Nanoscale Science and 
Technology provide needed access to technology developers for rapid 
prototyping and experimentation of various nanomanufacturing protocols.

    Question 4. Some scholars have raised ethical concerns about 
nanotechnology research and its applications. What are the dual use 
implications of nanotechnology?
    Answer. The NNI has openly engaged with leading ethicists and 
social scientists, most recently as key participants in a number of 
recent workshops held in support of the development of the NNI 
Strategic Plan and the NNI Environmental, Health, and Safety Research 
Strategy. For example, an ethicist from the University of Virginia 
School of Engineering and Applied Science described some of the ethical 
issues surrounding nanotechnology during her plenary presentation at 
the July 2010 NNI Strategic Planning Stakeholder Workshop (http://
nano.gov/sites/default/files/pub_resource/
nni_strategic_plan_stakeholder_rpt.pdf). Research activities to inform 
the assessment of potential implications of nanotechnology, such as 
NIST's NanoEHS research program, provide the scientific basis to 
support the safe and responsible deployment of nanotechnology. The 
National Nanotechnology Coordination Office performs public outreach, 
regularly engaging with stakeholders, and can provide more details on 
the dual use implications of nanotechnology.

    Question 5. Should we be paying more attention to the ethical 
implications of this field and its products? If so, what should we be 
doing to prevent the possible erosion of public trust in nanotechnology 
research?
    Answer. Paying attention to the ethical implications of 
nanotechnology and its product is important as nanotechnology products 
will impact the public both directly through the products that contain 
nanotechnology, and also through products that are made possible due to 
nanotechnology (but may not contain any nanomaterials, in turn). The 
2011 NNI Strategic Plan calls for agencies to identify and manage the 
ethical, legal, and societal implications of research leading to 
nanotechnology-enabled products and processes. An appreciation of the 
ethical implications of this technology will also help us be better 
stewards of this technology.
    Our still early, but evolving understanding of the benefits and 
risks of nanotechnology and nanomaterials reiterates the importance of 
communication, education and outreach to policy makers and the public. 
Such outreach highlighting benefits, risks, safe use, technology 
limitations etc., can help the public better understand the technology 
and make their own decisions regarding how they choose to use the 
technology (or the products dependent on this technology), while also 
judging for themselves the hyperbole or fear that may be associated 
with the technology.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                         Dr. Charles H. Romine

    Question 1. Currently, NIST supports efforts to accelerate 
development of transformational technologies through small companies 
and joint ventures to support high-risk transformational R&D. Recent 
awards produced a range of nanotechnology-enabled products in areas 
including flexible liquid crystal displays, organic photovoltaics, and 
lithium-ion batteries. How does research on nanostructured materials 
for the development and improved performance of organic photovoltaics 
complement the efforts that NIST supports?
    Answer. The NIST Technology Innovation Program (TIP) has a number 
of active awards, one of which is to Polyera Corporation for the area 
of ``Novel Nanomaterial Synthesis Processes to Enable Large-Scale, 
High-Performance, Flexible Solar Module Manufacturing in the U.S.'' 
Research on nanostructured materials in this technical area (e.g., 
conducted at NIST laboratories, other Federal laboratories, 
universities, or within industry) helps to advance the state of 
technology.

    Question 2. Are the efforts at academic institutions to leverage 
expertise in polymer science and engineering consistent with NIST's 
goals to accelerate transformational technology?
    Answer. Academic institutions certainly may play a role in the 
acceleration of transformational technologies such as nanotechnology. 
Expertise in polymer science and engineering is needed for advances in 
a variety of application areas, including advanced photovoltaic cells 
for solar energy and flexible display technologies. Public-private 
partnerships with academic institutions, industry, and government, such 
as the Nanoelectronics Research Initiative, can be a powerful tool to 
accelerate new technology developments.

    Question 3. How does NIST support and promote the development of 
research that combines contribution to the NIST Solar Energy Collection 
Initiative with the larger energy goal of improved conversion 
efficiency for solar cell materials and applications?
    Answer. NIST efforts in the area of solar energy have largely been 
focused on the development of measurement tools, methods, and models to 
evaluate Photovoltaic performance. NIST is also looking to develop new 
metrology tools to support the development and manufacture of third 
generation photovoltaics. In 2010, NIST hosted an externally-led 
workshop to identify photovoltaic measurement grand challenges in four 
major third generation photovoltaic technology areas: crystalline 
silicon devices, thin film devices, III-V multijunction devices, and 
excitonic devices. (A full report can be found at: http://
events.energetics.com/NISTGrandChallenges 2010/pdfs/
Opps_Solar_PV_web.pdf). This workshop identified a number of strategic 
opportunities and measurement challenges in the following areas:

  <bullet> Enabling Science and Engineering

    <ctr-circle> Three-dimensional (3-D) analysis from nanoscale 
            through macroscale

    <ctr-circle> Multi-scale modeling for simulating materials growth, 
            structure, optical and electronic properties, and device 
            performance

  <bullet> Reliability

    <ctr-circle> Measuring and predicting the degradation of materials

    <ctr-circle> Accelerated lifetime and reliability testing for thin 
            films, concentrating PV, and quantum-scale technology

  <bullet> Sustainable markets

    <ctr-circle> Application of fundamental knowledge to increase 
            efficiency in excitonic and quantum-structured cells

    NIST is developing efforts to apply its current suite of optical, 
electrical, chemical and physical measurements to deliver advanced 
measurement and modeling tools that will enable researchers to 
understand optimize the intrinsic electronic and optoelectronic 
processes that govern the efficiencies of third-generation 
photovoltaics.

    Question 4. NIST has external partnership programs designed to meet 
manufacturing challenges and the Administration's goal of advancing a 
world-class nanotechnology research and development program. How are 
partnerships with universities, particularly those in Experimental 
Program to Stimulate Competitive Research (EPSCoR) jurisdictions such 
as Mississippi, leveraged to carry out this goal?
    Answer. As noted throughout the National Nanotechnology Initiative 
(NNI) Strategic Plan, partnerships area critical component to achieving 
the NNI vision of a future in which the ability to understand and 
control matter at the nanoscale leads to a revolution in technology and 
industry that benefits society. The three Nanotechnology Signature 
Initiatives, described in the NNI Strategic Plan and the NNI Supplement 
to the President's FY 2012 Budget (both available at www.nano.gov) 
identify research thrust areas and desired outcomes, including the 
formation of industry and academic partnerships. Though not explicitly 
stated in the initiative descriptions, the inclusion of Experimental 
Program to Stimulate Competitive Research (EPSCoR) universities as 
appropriate would be consistent with the spirit of the education and 
outreach goals expressed in the NNI Strategic Plan.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                  to Diandra L. Leslie-Pelecky, Ph.D.

Manufacturing
    Question 1. Nanomanufacturing is the bridge that connects 
nanoscience with nanotechnology products and is essential if we are to 
realize the economic returns on this technology. However, 
nanomanufacturing infrastructure and techniques are in their infancy. 
How significant a barrier to nanotechnology commercialization is the 
absence of nanomanufacturing infrastructure, such as equipment, tools, 
processes, and systems?
    Answer. The lack of nanomanufacturing infrastructure represents the 
loss of researchers dedicated to the `development' part of R&D. 
Developing a technique for making a specific material or device is the 
research part of R&D. The issues involved in learning how to scale up a 
technique and improving process efficiency used to be done in 
industrial research labs, few of which still exist.
    We need programs that bring researchers in academia together with 
industry to identify and overcome specific barriers to progress. The 
Industry/University Cooperative Research Center (I/UCRC) program at NSF 
makes direct links between industries and universities--but they 
receive more high-quality proposals than they can fund. On a smaller 
scale, SBIR/STTR programs provide excellent opportunities for 
researchers, in collaboration with industry, to extend their work and 
solve some of the development problems that would otherwise remain 
barriers to adaptation.

    Question 2. To make sure the United States is the global leader in 
nanomanufacturing, what should the Federal investment be in 
infrastructure development? And in what areas should we invest?
    Answer. The amount of work being done in nanotechnology is 
enormous. Coordinating the vast numbers of researchers, facilities and 
amount of information is critical to ensure efficient progress. These 
networks also help bring together experts to identify and develop 
solutions to overcome the most significant barriers.
    For example, the National Nanomanufacturing Network (http://
www.inter
nano.org/) unites academic, government and industry partners, including 
four NSF-funded nanomanufacturing NSECS (Nanoscale Science and 
Engineering Centers) and nanocenters at Sandia National Laboratories 
and NIST. These types of cooperative efforts require funding to 
develop, but the investment can produce a great payoff by concentrating 
resources and ideas.

Workforce training and education
    Question 3. Dr. McLendon's testimony indicated that the 
nanotechnology workforce should reach 800,000 by 2015. This sort of job 
growth would go a long way toward economic improvements. How can the 
United States make sure we have an adequate supply of engineers and 
technicians to support nanomanufacturing and the overall job growth 
projected for the field?
    Answer. Improving STEM education is a huge issue for the Nation in 
general. The question of whether we have ``enough'' scientists and 
engineers is debated (as is the numerical meaning of ``enough''); 
however, the changing demographics of the country demand we find better 
ways to inspire a larger cross-section of Americans to pursue STEM 
study. The growth of women, minorities and persons with disabilities in 
science and engineering has been embarrassingly slow.
    Microsoft recently released survey results supporting the 
importance of getting students interested in STEM as early as possible. 
Seventy-eight percent of STEM college students said they decided to 
study STEM in high school or earlier. One in five made that decision in 
middle school or earlier. More than half of the students surveyed 
attributed their STEM interest to an inspiring teacher or class--
including 68 percent of the female students surveyed.
    We need to revamp our approach toward teaching math and science at 
the K-12 level. Instead of focusing on disjoint disciplines, we need to 
prepare students to think more holistically. Interdisciplinary thinking 
can't start in college. We need to focus STEM education on essential 
themes that impact people's everyday lives, like energy and the 
environment. We need to show students that science and engineering have 
profound effects on the world and that they have an opportunity to 
shape the future by choosing these occupations.
    At the college level, we need incentives for more students to 
pursue math and science degrees. In exchange for scholarships, students 
might be required to spend two or three years researching an area of 
need in a national laboratory or university research program.
    Equally important are producing people who may not be scientists or 
engineers, but who are facile with scientific and engineering concepts 
and techniques. We need knowledgeable people to become technicians, 
marketing and advertising people, managers, politicians and regulators 
for the emerging nanotechnology industry.
    We need to develop more partnerships with two-year colleges to 
prepare technicians to work in nanomanufacturing. The ``green energy'' 
technical degrees that are growing at two-year colleges can be a 
template. Some such programs in nanotechnology already exist, such as 
Penn State's NSF-funded National Center for Nanotechnology Applications 
and Career Knowledge. This program is part of the NSF ATE (Advanced 
Technological Education), which supports development of a very broad 
range of technical preparation. Nanotechnology-focused ATEs could be 
encouraged to accelerate the development of these programs. There also 
needs to be funding available for institutions to adapt educational 
materials that have be proven successful. The traditional emphasis 
tends to be more on novelty than adaptation of proven methods.
    The needs of nanotechnology businesses will be very disparate given 
that the field ranges from food packaging to security sensors to 
biomedical devices. Two-year institutions can develop new programs 
quickly and have a history of adapting to and respecting local needs. 
Educators need input from local industry as to what skills are desired 
and feedback from people who work in these new and growing industries 
as to whether the programs are succeeding.
    An important caveat--as the next question points out--is that we 
need to know that there will be jobs for these people after they 
graduate.

    Question 4. What approaches will help ensure that both 
nanomanufacturing capacity and a trained workforce grow in tandem?
    Answer. This is the canonical chicken and egg problem: We should 
not train people for jobs that don't exist, but industry won't develop 
if there aren't qualified workers. At some point, we have to decide to 
make one happen and then closely follow with the other.
    I am less disturbed by industries having jobs they can't fill than 
I am by people without jobs, so I would prefer an initiative that 
focuses first on additional aid to businesses overcoming the 
development gap I referred to earlier. A second string of programs 
could link industries with educational institutions to jointly develop 
training programs--which might focus initially on on-the-job training 
so that industry doesn't have to wait two years for qualified workers.

Business and Job Creation Within Nanotechnology Environment, Health, 
        and Safety
    Question 5. Dr. Leslie-Pelecky, in your statement you describe 
nanomaterials bioactivity as not just a research area but as a 
potential business opportunity. This seems like an opportunity to 
enhance public safety while also creating jobs--really, having your 
cake and eating it too. What role can WVNano play in the development of 
such businesses in West Virginia? And what can the Federal Government 
do to incentivize public-private partnerships for business development 
in this area?
    Answer. West Virginia, like many states, made a strategic decision 
to support nanomaterials as a priority area. Significant resources have 
been invested in developing the infrastructure to pursue research that 
will translate into useful products. In low-population states like West 
Virginia, high-tech businesses are most likely to be initiated by 
people working at or with a university (including its graduates). 
Creating more industry requires developing intellectual property and 
finding dynamic, motivated people to take the lead in the very 
challenging task of starting a new business.
    The university does a good job with creating knowledge, but we 
could improve our involvement in inspiring people to start businesses 
and utilize that knowledge. We can develop courses that focus on 
business issues. We can help them develop the ability to communicate 
orally and verbally with people of all types, given them an 
appreciation for the global nature of business, the ability to work as 
part of team in leadership and membership roles, and a basic 
understanding of how business works. STEM students at the university 
represent a pool with very high potential for innovation.
    This isn't traditionally part of the way we prepare STEM students. 
NSF recognized that there need to be resources to initiate these types 
of programs and created the GOALI (Graduate Opportunities for Academic 
Liaison with Industry) program. The GOALI at Texas Tech allows students 
to earn a Masters Degree targeted specifically toward working in the 
semiconductor industry. The internships that are a required part of the 
degree have helped many students find employment in the industry--often 
with their host companies. Similar programs focused on nanotechnology 
would help develop the workforce and build links between universities 
and industries.
    One of the challenges to programs like GOALI is that they require a 
critical mass of industry, faculty research interests, and graduate 
students. Given the diversity of nanotechnology, a graduate research 
fellowship program that selects participants based on individual 
applications would provide greater ability for startups--which may only 
need one person--to participate. Such a model might also help 
universities without high concentrations of local business build 
relationships with industries.
    We're in a unique situation in terms of nanomaterials bioactivity 
due to the confluence of having medical, scientific and engineering 
schools that work well together, plus the collaboration with NIOSH. 
These projects are simply too complex for one institution to do it all 
themselves. NIH, FDA and DARPA just announced a $190M program to 
develop a chip that will allow high-throughput drug testing to identify 
promising candidates and screen out toxic ones at early stages. If it 
works, this should significantly decrease the number of failed drug 
trials due to toxicity. That type of a platform is exactly what we're 
trying to do to evaluate nanomaterials and their impacts so that we can 
screen out potentially hazardous materials. There is still a lot of 
fundamental knowledge that has to be learned before we can think about 
developing businesses, but we're on that track.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                       Dr. Diandra Leslie-Pelecky

Nano-Infrastructure
    Question 1. The cost and complexity of the infrastructure required 
for nanotechnology research and commercialization can be a significant 
barrier to expansion of the industry. What opportunities are available 
to researchers looking for Federal dollars for infrastructure 
development and equipment?
    Answer. There is more demand than supply for programs funding 
nanomaterials research and development infrastructure. The Major 
Research Instrumentation (MRI) program at NSF is my primary source of 
funding for nanomaterials fabrication and characterization equipment 
like deposition systems, X-ray diffractometers and electron 
microscopes. NIH has an instrumentation program to which groups of 
already-NIH-funded investigators can apply. Most of these programs 
require groups of investigators to work together to ensure that 
instruments are maximally utilized.
    Few universities in this economic climate have funding for new 
buildings, especially since nanomaterials research buildings have 
special requirements, such as low vibration, climate control, and 
cleanrooms. Opportunities for Federal funding for new buildings or 
renovation are rare. The ARRA funds that supported scientific research 
facilities were very important to many institutions. Due to the nature 
of those funds, the time frame for submission was so short that only 
universities with plans already completed had a chance at being 
competitive.
    People are an important part of the research infrastructure. 
Programs like the NSF-Research Experiences for Undergraduates, the NSF-
IGERT (Integrative Graduate Education and Research Training) and NIH 
T32 training grants fund are very important to us for funding students. 
These programs not only further research, but also prepare the future 
leaders in the field.

    Question 2. What role do you see for the Federal Government in 
encouraging regional investment strategies for equipment sharing 
between university and industry clusters?
    Answer. Equipment covers a broad range of categories. The highest 
quality, most specialized instruments (like very high resolution 
transmission electron microscopes) are not only expensive to purchase, 
but require one or more dedicated, knowledgeable technicians and 
expensive yearly maintenance contracts. There is a history of offering 
these types of resources through national laboratories--for example, 
the electron microscopy facilities at Oak Ridge National Laboratory. 
These facilities do a great service in making these one- (or few-) of-
a-kind instruments available to researchers from industry as well as 
academia and national labs. The National Nanotechnology Infrastructure 
Network supported by NSF has been very successful in providing unique 
opportunities to university and industry users for the cost of 
transportation and lodging. Federal support of these user facilities 
has been a very good investment.
    It may be possible to develop a second tier of mid-level 
instrumentation made available regionally, but it is important to 
remember that establishing these types of facilities are long-term 
commitments. In addition to buying the instrument, you have to support 
people to ensure it runs correctly and to teach people how to use it 
correctly, and the ongoing costs for utilities, maintenance, repair and 
updating.
    Another consideration is that some essential (but expensive) pieces 
of equipment really have to be local. A standard transmission electron 
microscope for routine examination of samples (which is in the $0.5-1M 
range), is a tool I utilize weekly. Often, the next step of a process 
has to wait for microscopy results. There is a limit to how much 
equipment sharing can be done without unreasonably slowing down 
research progress.
    On the scale of these medium- and small-cost instruments, most 
universities already operate these instruments within user facilities 
that are open to internal and external users, including industrial 
researchers. User fees are charged on a cost recovery basis; however, 
most universities have to subsidize the fees in order to make them 
affordable to internal users. Universities have the same challenges in 
terms of supporting people and maintenance and only larger universities 
can really afford to operate user facilities.

Public Outreach
    Question 3. Public understanding of nanotechnology will affect both 
the level of government investments in nanotechnology R&D and the 
consumer willingness to accept nanotechnology products. In many cases 
the American public may be unaware that basic products like sunscreen 
can contain nanoparticles. Is the American public sufficiently familiar 
with nanotechnology to judge its potential benefits and risks 
appropriately?
    Answer. The average person's familiarity with nanomaterials is 
probably more influenced by Michael Creighton and Prince Charles than 
by any scientist, engineer or science writer. In some ways, 
nanotechnologists are at a disadvantage because our field is so 
fantastic that science fiction writers employ it as a plot device.
    People are likely to know the term ``nanotechnology'', but much 
less likely to know what it means. Unfortunately, most people don't 
come away from their K-12 (or even college) education with enough 
numerical and scientific literacy to accurately judge the potential 
benefits and risks of any new technology. That won't happen until we 
move math and science education away from memorization and toward skill 
development: critical thinking, the rules of scientific evidence, 
understanding graphs and tables, and understanding the process of how 
we try to understand the world. It must be noted, of course, that the 
scientific and engineering communities aren't always good at 
communicating outside our own boundaries, either.
    A major part of the problem is terminology. Talking about 
``nanotechnology'' is like talking about ``sports''. Baseball or 
cycling? Soccer or tennis? They share very little in common and you 
would be hard pressed to make very many meaningful statements that are 
accurate for all sports. Similarly, ``nanotechnology'' isn't one thing: 
it covers drug-impregnated stents, cancer treatments, golf clubs, bike 
frames, lights, chewing gum, and face cream--and lots more. We do 
ourselves a disservice by not focusing on specific instances of 
nanotechnology--and preferably on products that exist and the average 
person might encounter.
    Just as drugs are approved individually--even if they are very 
similar to already approved drugs--the benefits and risks of each 
nanotechnology-related product have to be examined and communicated 
individually. The fact that there are many, many types of 
nanotechnology might be more important for the public to understand 
than to have them be in favor of ``nanotechnology'' per se.

    Question 4. Are you concerned that a campaign to improve public 
understanding might, in fact, result in a backlash against 
nanotechnology R&D due to the potential safety implications?
    Answer. The nature of such a campaign would determine the 
likelihood of a backlash. A well considered informational campaign that 
carefully frames the issues could do much to help people's eventual 
acceptance of nanotechnology in their lives.
    The first element of such a campaign is helping people understand 
that `nanotechnology' covers a vast array of products from health care 
to food to sports equipment that are so different they cannot be 
discussed as a single unit. Convincing people of this point would be a 
major accomplishment that could help prevent a knee-jerk negative 
reaction to the entire field based on one problem product.
    The second element would be focusing attention on applications of 
nanotechnology that already exist. With over a thousand products that 
contain nanomaterials or were made using nanotechnology, already on the 
market, there is a lot of educating to be done. A Swedish study 
recently showed that people were most antagonistic to nanotechnology 
when they believe it is used without them knowing. Informing people 
about the specific benefits and risks of existing products is a much 
more productive approach.
    We cannot deny that some nanomaterials may pose risks to people, 
animals or the environment, just as we cannot guarantee that a 
promising new drug won't eventually prove to pose more risks than its 
benefits justify. Consider DES, which pregnant women were given from 
about 1940 to 1970 because all the evidence we had at that time 
suggested that DES could decrease pregnancy risks. Instead, we found 
that the daughters of women who took the drug experienced a rare 
vaginal tumor that often left them unable to have children of their 
own. We have a history of drugs (Celebrex, Fen-Phen) that we thought 
were safe and only later found out were not. It is absolutely critical 
that we not make the same mistakes with nanotechnology--and why 
research into the environmental health and safety effects of 
nanomaterials must be accelerated.

Maximizing Return on Investment from the NNI
    Question 5. Since the original authorization for the NNI expired in 
2008, numerous attempts have been made to authorize the program. What 
do you think is needed in a reauthorization to improve the program 
overall and increase its return on investment?
    Answer. Nanotechnology requires collaboration across scientific and 
engineering disciplines: It also requires collaboration across funding 
agencies. There have been some admirable efforts between NSF and NIH, 
but we need more programs that recognize the need for interdisciplinary 
and sometimes interagency cooperation. It is important that good 
ideas--especially in the biomedical applications area--don't fall into 
gaps between funding agencies. Centralizing funding within one agency 
would be a mistake: each funding agency has its own area of expertise 
that is critical to evaluating proposal merits. Fostering collaborative 
efforts among Federal funding agencies in a way that recognizes their 
individual expertise is critical.
    Our lack of knowledge of nanomaterials bioactivity is a major 
barrier to making nanotechnology the economic driving force it was 
promised to be. Economic development and public acceptance of 
nanotechnologies hinge on improved understanding of nanomaterials 
bioactivity. Groups of investigators from different disciplines must 
work together to fully understand how nanomaterials interact with 
biological systems. Most of the current funding in this area, however, 
are individual investigator grants. We won't be able to make the 
necessary progress critical to moving forward this way.
    The government has taken the initiative to prioritize research 
topics by shifting from primarily curiosity-driven, individual 
investigator research to problem-driven interdisciplinary team-based 
research. Curiosity-driven research is absolutely critical to continue 
generating the new ideas that have made us the world leader in 
nanotechnology; however, we need to expand the funding portfolio to 
include more targeted proposals that focus on specific barriers to 
moving forward with nanotechnology. We have seen an increase in 
directed programs, like NSF's emphases in sustainability and 
nanomanufacturing, and NIH's focus on translational medicine. There is 
tremendous power in directing the research focus via the funding 
opportunities--although which topics are the highest priority must be 
decided with input from the research community and industry.
    The NSF Engineering Research Center (ERC) program supports 
university-industry partnerships in research across all engineering 
topics; however, they released in April a focused call for Nanosystems 
ERCs. NSF Programs like the Centers for Excellence in Materials 
Research and Innovation (CEMRI) and Materials Research 
Interdisciplinary Teams (MIRT) are valuable, team-based programs that 
include nanotechnology. These programs receive many more good proposals 
than they have the funding to support. The ten-plus-year history of the 
CEMRI (formerly MRSEC) program has demonstrated that it is a very good 
investment in terms of creating basic knowledge and applications, and 
in training graduate students skilled at interdisciplinary research.
    We are very appreciative of the resources we've been provided over 
the last ten years of the NNI. We've made enormous progress in 
understanding the fundamental properties of nanomaterials and how they 
can be harnessed to improve the quality of life for Americans. There is 
much more to do and we appreciate your commitment to making it possible 
for us to do it.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                       Dr. Diandra Leslie-Pelecky

    Question 1. You testified that there is a need to make scientific 
instruments available on a regional basis. Right now it is difficult 
for universities to acquire multi-million dollar equipment for 
nanoscale imaging. The NIST Nanofabrication Facility is an example of a 
national user facility. Should the Federal Government consider 
establishing regional nanoscale imaging and characterization centers in 
each State? If yes, how would it be setup and how would manufacturers 
use it? Is it better to locate these instruments at a university or at 
a regional manufacturing center such as an MEP center?
    Answer. The equipment necessary for nanomaterials research, 
development and commercialization varies in scale, complexity and cost 
(of operation and of continuing support). National user facilities are 
generally one-of-a-kind (or few-of-a-kind) instruments that require 
significant infrastructure. The national labs have done an outstanding 
job with these facilities. They are exceptionally valuable resources 
for the community.
    On the other end of the scale, there is equipment that is expensive 
($.5-2M), but so integral to research that it really must be on-site. A 
lot of our work requires answers from one piece of equipment before we 
can proceed with the next step of the experiment. Not having this type 
of equipment on campus makes it very difficult to be competitive 
researchers.
    In the middle are intermediate pieces of equipment that might be 
appropriate for regional centers based on researcher density. The needs 
and number of researchers in different states varies widely. Going 
strictly by state would likely result in redundancy and excess 
capacity. Once a particular regional need was identified, an open 
competition to host the facility would be the best way of deciding 
where it should be located. Some facilities might make more sense at a 
regional manufacturing center, while others might be easier to host at 
a national laboratory or university.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Dr. Thomas O'Neal

Workforce training and education
    Question 1. Dr. McLendon's testimony indicated that the 
nanotechnology workforce should reach 800,000 by 2015. This sort of job 
growth would go a long way toward economic improvements. How can the 
United States make sure we have an adequate supply of engineers and 
technicians to support nanomanufacturing and the overall job growth 
projected for the field?
    Answer. We need to create more scholarships for domestic students, 
at the same time we should have a free flowing of talented students 
outside of USA, which has declined after 911 due to visa restrictions.

    Question 2. What approaches will help ensure that both 
nanomanufacturing capacity and a trained workforce grow in tandem?
    Answer. We are lacking in nanotechnology education programs in this 
country. We need more resources to create such programs and we need 
them integrated into existing programs in Science Technology, 
Engineering, and Math (STEM).

Financing
    Question 3. Financing is extremely challenging for those attempting 
to bring nanotechnology to market, because the path from invention to 
commercial production is often particularly expensive, risky, and 
lengthy. Dr. O'Neal, you mention in your testimony that a three to 10 
year delay is typical in this area of technology. To what extent have 
capital issues hampered nanotechnology commercialization?
    Answer. Start-ups and spin-offs are an important path for 
commercializing research. New companies require finance to allow them 
to develop and grow their operations, which should be the point at 
which venture capital become involved. The best venture capitalists add 
value to investee companies beyond funding. They provide industrial 
experience, contacts, and coaching and mentoring. This is especially so 
in nanotechnology, which often has longer development times and higher 
costs than an equivalent IT business.
    Venture capitalists are investing in nanotech, but not 
aggressively, due to the long cycles it takes from discovery to 
commercial viability. Lux Research has identified investments in 
nanotechnology valued at $792 Million in 2009, 42 percent off their 
2008 figure. The largest share of funding (51 percent) went to 
Healthcare and life sciences, followed by energy and environment (23 
percent) and electronics and IT (17 percent). This funding was spread 
across 91 deals, with an average investment size of $8.6 million.

    Question 4. If the venture capital community is focused primarily 
on short-term funding, what class of institutional investors do you 
think is most likely to support nanotechnology companies?
    Answer. A new breed of Angel investors would need to be developed. 
It would need to be one that has access to larger amounts of funding 
that would be more patient for a return. A more feasible approach would 
be for large corporate investors to step in and fill this gap. They 
would need to develop a culture of investing in earlier and earlier 
stage companies and risk losing money of apportion of these 
investments. We should investigate matching programs with investors and 
National funding agencies like the German and Japan model.
    The SBIR program should increase resources that target 
nanotechnology. Nanoscience innovation centers should be developed that 
function as testbeds, proof of concepts centers and business 
incubators. They should include collaboration areas that provide for 
shared equipment and facilities.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                           Dr. Thomas O'Neal

Technology Transfer
    Question 1. A large share of NNI funding supports research at 
universities and Federal laboratories. Last year's review of the NNI 
cited the need to increase the focus on the transfer of technology from 
the research community to the private sector. How effectively is the 
knowledge generated by NNI investments being transferred from 
universities and Federal labs to the private sector?
    Answer. My opinion is that it could be much hasn't happened at a 
level that is making a significant difference. NNI has created great 
academic papers, but the commercial exploitation is still lagging. 
Research into the innovation process is merited

    Question 2. What mechanisms are Universities using today to 
facilitate this transfer and which are the most effective?
    Answer. Better partnerships and collaboration with industry is the 
most effective tech transfer. The SBIR is a great example. The Florida 
High Tech Corridor Matching grants program is another. Universities and 
industry working together to solve problems that matter to industry 
promote effective technology transfer. Deals that extend beyond a 
license are most effective. Faculty startups are effective when 
combined with business coaching, mentoring, management team 
development.

    Question 3. Dr. O'Neal, as nanotechnology products progress toward 
the manufacturing stage, what do we need to do to make sure the U.S. 
captures the production work rather than another country with a strong 
manufacturing base like China?
    Answer. U.S. companies need to be able to compete with companies 
based in China. The U.S. needs to consider investments in this industry 
that will return a sufficient return on investment. U.S. companies, 
Universities, and the government leaders need to work together to 
address this issue. Research into the innovation process is merited.
Nano-Infrastructure
    Question 4. Dr. O'Neal, how is UCF making their equipment available 
to nanotechnology startups to promote commercialization of the 
technology?
    Answer. We are sharing our facilities on a fee basis. Companies 
schedule time on the equipment and pay predetermined rates by the hour 
or month. One company schedules time overnight so as to not interfere 
with student and faculty usage. They are trained on the equipment ahead 
of time and recertified if equipment changes.
    UCF only has a limited amount of such equipment at this time.

    Question 5. What are some of the barriers to these public/private 
partnerships that you have encountered?
    Answer. There needs to be an incentive or mutually beneficial 
reasons for public/private partners to form. Joint research efforts are 
one way but if the industry has to be providing all the funding, they 
may decide to simply do the work internally. Lack of awareness of 
possible areas of overlap or mutual benefit is also an issue. Creative 
ways of communicating this should be developed.
Maximizing Return on Investment from the NNI
    Question 6. Since the original authorization for the NNI expired in 
2008, numerous attempts have been made to authorize the program. What 
do you think is needed in a reauthorization to improve the program 
overall and increase its return on investment?
    Answer. We need to do more research that addresses important 
societal issues, develop stronger ties to industry, and support for 
entrepreneurs to effectively move the technology to the market. Metrics 
such as patents spin out companies, and jobs created should be included 
with every program supported by the NNI. Research into nanotechnology 
commercialization should also be included in the initiative. More 
efforts into addressing the manufacturability and scalability would 
also increase the return on investment. We should also invest in 
nanosafety since safety concerns are negatively affecting investment
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                           Dr. Thomas O'Neal

    Question 1. You testified that knowing how to manufacture and 
scale-up the production of nanomaterials and products that include 
nanomaterials is a barrier to commercialization. For example, Boeing 
may need tons of very pure carbon nanotubes for a plane fuselage. What 
programs or initiatives should the Federal Government sponsor to help 
manufactures learn how to scale up their manufacturing capability?
    Answer. Create manufacturing centers, Industry-University 
partnerships using Germany as a model.

    Question 2. Should the Federal Government establish ``prototyping 
centers'' so that companies can make ``proof of concept'' products and 
refine their manufacturing processes?
    Answer. This is a great idea. It should include a significant 
number of students to help with the knowledge transfer aspects.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                           Dr. Thomas O'Neal

    Question 1. Nano-medicine and nano-biology hold significant promise 
to improve human health. How is the National Nanotechnology Initiative 
(NNI) supporting this critical area?
    Answer. In terms of research, yes, but in terms of product 
development--no. Consideration should be given to developing more 
initiatives such as NSF's GOALI program. This provides funding for 
companies as an incentive to work with Universities. Additionally, 
funding under this program should be able to be directed to companies 
for certain activities.

    Question 2. Public-private partnerships between universities, 
government, and industry are key methods to ensure that promising 
research is developed into useful new technologies and products. One 
example of such a partnership is the new Virginia Nanoelectronics 
Center, a partnership of several Virginia Universities, the 
Commonwealth of Virginia, and Micron Technologies. How does the NNI 
plan to incentivize, facilitate, and further leverage these kinds of 
public-private partnerships?
    Answer. By investing in both academia and industries and 
facilitating collaboration. Scientist, engineers, and business people 
should all be the same room addressing issues.

    Question 3. I have heard some concern from nanotechnology 
researchers regarding the current state of technology transfer for 
nanotech research. Given that nanotech requires sophisticated 
manufacturing processes, for instance, to what extent is NNI focused on 
potential barriers to widespread use of nanotechnology-based products? 
Do we know, for instance, if printing and imaging technologies used in 
consumer electronics can be transferred to nanotechnology?
    Answer. Yes. Companies like Intel, IBM, and HP need a business case 
to become more involved.

    Question 4. Some scholars have raised ethical concerns about 
nanotechnology research and its applications. What are the dual use 
implications of nanotechnology? Should we be paying more attention to 
the ethical implications of this field and its products?
    Answer. This is a hype, I don't see any real issues. Life sciences 
have been functioning at the nano-scale for a long time. The issues are 
the similar with many disciplines. We have good safe guards in place 
that will protect society. As long as we can prove that nano-products 
are safe that's what matters. Research into safety should be increased 
to address this issue. While we understand the nano-toxicity, we should 
clearly understand and communicate state why they are toxic, to whom, 
at what exposure, etc. Often the same product can be beneficial or 
harmful depending on the dose
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Dr. George McLendon

Manufacturing
    Question 1. Nanomanufacturing is the bridge that connects 
nanoscience with nanotechnology products and is essential if we are to 
realize the economic returns on this technology. However, 
nanomanufacturing infrastructure and techniques are in their infancy. 
How significant a barrier to nanotechnology commercialization is the 
absence of nanomanufacturing infrastructure, such as equipment, tools, 
processes, and systems? To make sure the United States is the global 
leader in nanomanufacturing, what should the Federal investment be in 
infrastructure development? And in what areas should we invest?
    Answer. There are many barriers for nanotechnology 
commercialization. Manufacturing in this area is quite diverse as some 
products would need state of the art lithography labs, while others 
might need specialty chemical plants. Each of these capabilities exists 
in nascent form in existing manufacturing infrastructure such as those 
used for computer chip production or in fine chemicals productions. So 
the barrier is not that the basic tools are lacking, it is in the 
difficulty in retrofitting and turning these platforms towards the 
special needs of nanotechnology. Also, because the U.S. has lost its 
traditional manufacturing base particularly in semiconductor 
manufacturing there are significant barriers for those nanotechnology 
applications that require advanced lithography.
    We should invest in programs that help retrofit existing 
manufacturing enterprises to supply nanotechnology products. Because 
the U.S. still has active manufacturing for specialty chemicals and 
medical products, these areas are ideally positioned to benefit from 
Federal investment. However, incentives for nanotechnology retrofitting 
must be supported by equal investment in measurement tools and 
standards for those measurements. One of the most significant 
retrofitting challenges is in characterizing the quality/purity of 
nanotechnology products. New instrumentation, that is validated and 
standardized, has to be available to industry that is moving towards 
providing nanotechnology products.

Workforce training and education
    Question 2. Your testimony indicated that the nanotechnology 
workforce should reach 800,000 by 2015. This sort of job growth would 
go a long way toward economic improvements. How can the United States 
make sure we have an adequate supply of engineers and technicians to 
support nanomanufacturing and the overall job growth projected for the 
field? What approaches will help ensure that both nanomanufacturing 
capacity and a trained workforce grow in tandem?
    Answer. The NSF has a traditionally central role in graduate 
support. It may be deniable to have a specific focus for URP--
undergraduate research programs in nanotech to create a pipeline, as 
well as graduate and/or postdoctoral fellowships in nanotechnology, to 
insure an adequate workforce.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Dr. George McLendon

Technology Transfer
    Question 1. A large share of NNI funding supports research at 
universities and Federal laboratories. Last year's review of the NNI 
cited the need to increase the focus on the transfer of technology from 
the research community to the private sector. How effectively is the 
knowledge generated by NNI investments being transferred from 
universities and Federal labs to the private sector? What mechanisms 
are Universities using today to facilitate this transfer and which are 
the most effective?
    Since the original authorization for the NNI expired in 2008, 
numerous attempts have been made to authorize the program. What do you 
think is needed in a reauthorization to improve the program overall and 
increase its return on investment?
    Answer. Maximizing ROI from the NNI: Better focus on transitional 
research alongside foundational work.
    At Rice, we have examples of strategic relationships with companies 
such as Lockheed-Martin who invest in our more applied research, and 
have their researchers mentor academic teams to develop ideas so that 
they can be transferred into corporate labs. However, in tough economic 
times companies often do not have the luxury to invest in relationships 
that may need three years or longer to mature. Start-ups are another 
avenue but also may not always be the best way to let transformative 
technology have the time it needs to fully develop. Rice has been 
fortunate to have more than four nanotechnology start-ups that have 
survived longer than five years.
    The most effective approach are strategic relationships with 
established companies who have the ability to fund nanotechnology 
development for the long haul; the barriers to these truly 
transformative technologies becoming effective products are 
significant--and range from manufacturing challenges to regulatory 
uncertainties. Larger companies offer the best route for most 
nanotechnology development at this point, though programs should also 
acknowledge the unique role that entrepreneurship plays particularly in 
nanomedicine.
    Question 2. On page 91 of the hearing transcript, Senator Nelson 
says: ``Dr. McLendon, give us an example on that Lockheed case where 
there's a Lockheed scientists with one of your scientists. What are 
they developing?'' Please provide this information for the record.
    Answer. Lockheed Martin engineers are working with Rice scientists 
to develop better-performing rechargeable batteries using 
electrochemical etching nanochemistry. Steve Sinsabaugh (Lockheed 
Martin Fellow), and Lisa Biswal and Michael Wong (Rice professors) have 
created a new material that can store and release more electrons (and 
lithium ions) than the current graphite material used in lithium-ion 
rechargeable batteries. The technology breakthrough comes from the 
recognition that silicon cannot store and release electrons without 
disintegrating after recharging, but that porous silicon can. 
Laboratory results at Rice indicate that porous silicon can store and 
release as much as 10 times more electrons than graphite over many 
recharge cycles, meaning smaller batteries are possible. Once proved 
out for real-world operating conditions, this technology may lead to 
longer-lasting cell phones, cheaper electric cars, smaller computers, 
and lighter satellites and airplanes. This Lockheed Martin-Rice 
research is an exciting example of an industry-university partnership 
successfully resulting in basic science papers, patent applications, 
and well-trained student and postdoctoral researchers.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Pryor to 
                          Dr. George McLendon

Set-aside funding
    Question. Should the Federal Government, through the NNI, set aside 
a specific amount of each agencies funding for nanomanufacturing and/or 
environmental, health and safety?
    Answer. Yes. The lack of nanomanufacturing capacity and the 
uncertainty in EHS regulation for nanomaterials represent significant 
barriers for commercialization. Both topics fall between multiple 
agencies and thus are often difficult to both fund and coordinate. 
However, it is essential to engage industry deeply in the area of 
nanomanufacturing. For example, in nanomanufacturing Federal dollars 
could be provided to match industry investments in academic 
partnerships. In this way, the research outcomes will quickly translate 
to partners capable of fully scaling up the ideas and processes. For 
nano-EHS research academic teams must be highly responsive to the needs 
of regulator policymakers and should engage these end-users directly in 
their research planning and evaluation.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
